SupremetodrS-sypremecawf x

<- •» C 6
;*: Apgs ||

0-'_Ca:?ft>mi*Ccurti-AppalteteCo, X . +

£J

•* 8

ft appe!ia'veca;^,^jftinfo.ca^ov/;parch/f^Wtl(ipfl-rt;on^nM::*0?ydof.id^jAl5?.93^<1«_iia=^1303e^o(i;ffyjok^n-Ni^Ar.FmXt:w?.WyE^SCIdXEWffO<JlH>^t'<;saS2pTCjC^C5#^D%3D

Q @ M Inbo (G93)' liidaro...

0

O

0 £j! Sample Fond Metro. (3 Mierowh Wdtif-.itt- {U Mkreidl'Wwf- m„ III Micraiaft Wonf - e-

‘

Supreme Court

Search

Courui&itostvpdeted: 09*l7/2p2d;Q2-C6 PM

Calender

j

:jj|| Plffldifvi

THE JUDICIAL BRANCH OF CALIFORNIA

Welcome

ffmafl

^ irrot'>ea'ge,Teric.WL.

CALIFORNIA COURTS

la

Appellate Courts Case Information

i

C-nitfii:?-o!-wd(K,

X

fChcn^soourtv^

APPENDIX A

Case Summary

Oocltet

Briefs

Disposition

Parties and AHortveys

Lower cdurt

u... .

OisposiMbn

Help
:

Opinions

rHOMASv.fiLetftMS
Division Sf
Case Number 5261353
Only the&fttofng dfeposKiohsarB displayed below; Ori^ii £>ehyfti«;PefifSohS. Orders GrahtrjgReheanng aft?Op&iforfe Go fo ibo Docket Entries
screen .for informniton regarding orders granting review.
Case Chilton:

mine

Ome

Description'

0.4/22/2020

• PedEon for review denied

Click hero to request automoik: e-maR ndliFrcaltorrs about this cist}:

Career? f CwtoctUj : AccessItxWy > IXifcfcAcressmRet.e'd? ( terms«Use 1 Privacy

o 2020 Axtrasl Cc^noi at Catrtwnw
windows
Gu U: xvlir-qs ta^ct^JtoWvndrSws

jjjj^^jjj O Type here to search

6

Si

B © d £1

UnMted - N..

'QoSSPCOUR-

(^C*lifwnwC...

*^Ca««niaC._

*fi

*£jf

^

#■ o S 3 a rt a.

*05 PM
9/17.-2020

*

2a
APPENDIX B
Filed 2/6/20 Thomas v. Blevins CA5

NOT TO BE PUBLISHED IN THE OFFICIAL REPORTS
of ordered published for purposes of rule 8.1115._____________________________________________________________

IN THE COURT OF APPEAL OF THE STATE OF CALIFORNIA
FIFTH APPELLATE DISTRICT
JOZLYN THOMAS,
F078333
Plaintiff and Appellant,
(Super. Ct. No. 428536)
v.
JAMES SCOTT BLEVINS, as Trustee, etc,,

OPINION

Defendant and Respondent.

APPEAL from a judgment of the Superior Court of Stanislaus County. Stacy P.
Speiller, Judge.
Jozlyn Thomas, in propria persona, for Plaintiff and Appellant.
Gianelli/Nielsen, Eric Thomas Nielsen and Michael Louis Gianelli for Defendant
and Respondent.

________________
-00O00-

3a

Appellant, Jozlyn Thomas, a beneficiary of the Giles Revocable Trust (or the
trust), appeals from the trial court’s denial of her motion to vacate1 an order issued nine
years earlier concerning the administration of the trust (the 2009 order). The 2009 order
had granted an amended petition by the trustee, respondent James Scott Blevins
(respondent or trustee), seeking court approval of his account and report, plan of
distribution, and settlement agreement with another beneficiary, Dawn Morin. By 2011,
presumably in reliance on the 2009 order, all the assets of the trust were distributed to the
various beneficiaries, including appellant, and the trust administration was completed. In
her motion to vacate, appellant claimed the 2009 order should be set aside as void, and
the trust administration and/or distribution “reopened,” because there was a lack of
proper service of process on her relating to the subject petition; that is, the trustee mailed
the relevant pleadings and notices to an incorrect address. The trial court denied
appellant’s motion on the primary ground that appellant’s “attack on the Court’s May
2009 Order comes far too late.” In her appeal, appellant contends the trial court erred
because the 2009 order had to be set aside as void regardless of when the invalidi ty was
brought to the trial court’s attention. We disagree. Under the unique circumstances of
this case, and for reasons explained below, we conclude the trial court did not abuse its
discretion in declining to vacate the 2009 order. Accordingly, the order of the trial court
denying appellant’s motion to vacate is hereby affirmed.
FACTS AND PROCEDURAL HISTORY
Background Regarding Giles Revocable Trust
For purposes of the present appeal, neither party disputes the basic accuracy of the
background facts set forth in the trial court’s order denying appellant’s motion to vacate.
l

Appellant’s motion to vacate was formally entitled a “Petition to Reopen Estate
Administration and to Vacate and Set Aside Order ....” For ease of expression, we refer
to it as simply the motion to vacate. Although the motion was made on appellant’s behalf
by one of her guardians, Daniel Thomas, we describe it herein as appellant’s motion.

2.

4a

The following is a reiteration of the trial court’s description and history of the Giles
Revocable Trust and of the relevant court proceedings relating thereto which resulted in
the 2009 order.2
The settlors/trustors of the Giles Revocable Trust were Charles L. Giles and
Bobette Giles., husband and wife. The trust was established in January 2002. At the time,
Charles had two sons from a former marriage—Charles W. Giles (deceased) and Joseph
Giles (appellant’s father). Bobette had five children from a former marriage—James
Scott Blevins, William Blevins, Brent Blevins, Bryan Blevins, and Kelly Bergman.
Charles and Bobette were the initial trustees of the Giles Revocable Trust—it was created
as a revocable living trust. Bobette’s son James was designated as the successor
trustee—i.e., the person who would take over administration of the trust upon the death
of both Charles and Bobette.
In the Giles Revocable Trust, Charles specifically provided for some of his
grandchildren. This included his grandchildren through his deceased son Charles W.
(i.e., Charles W. Giles, Jr., Anthony Giles, and Michael Giles), and his grandchild
through his son Josephs—i.e., Joseph’s daughter, appellant herein. Charles left his son
Joseph a small bequest ($50,000 in trust) that was dependent on Joseph refraining from
use of illicit drugs.
Charles also treated Dawn Morin as his own daughter, though she was never
adopted by him, according to the pleadings. As will be noted below, Dawn Morin was
one of the beneficiaries of the trust.

2

We have at times shortened or made a few minor wording changes to the trial
court’s factual summary, but the substance thereof is retained. We follow the trial court’s
occasional use of first names, which is solely for convenience. No disrespect is intended.
We also retain some of the trial court’s use of middle initials where it appeared helpful to
distinguish between persons with the same first and last names.

5a

The trust assets were supposed to be placed into three different sub-trusts upon the
death of the first spouse. First, a marital share trust was supposed to be created and
funded to the extent of the federal marital estate tax exemption amount to reduce and/or
eliminate taxes at the time of the surviving spouse’s death. Second, a family share trust
was to be created, which would hold the community property share of the deceased
spouse as well as the balance of that spouse’s separate property, if any. Third, a
surviving spouse trust was supposed to be created to hold the surviving spouse’s share of
the community property as well as that spouse’s separate property, if any. The surviving
spouse was to maintain control over all the assets in the survi ving spouse trust and upon
death, those assets were to be equally divided among the surviving spouse’s beneficiaries.
Depending on who died first, the applicable distribution provisions in the trust
were slightly different. However, since Charles died first, this is what was supposed to
happen: First, immediately upon his death, Stoney Dahlberg was to receive $1,000,
Dawn Morin was to receive $25,000, and “each living grandchild” was to receive
$25,000, including appellant.3
Then, upon Bobette’s death, Charles’s beneficiaries (who inherit the balance of the
marital share and family share sub-trusts) were to receive as follows: $50,000 to Joseph
Giles (conditional on his refraining from use of illicit drugs), 10 percent of the value of
the sub-trusts to the Boys & Girls Club of Manteca, 10 percent to St. Vincent de Paul’s,
and 10 percent to each living grandchild (there were four at the time of Bobette’s death—
including appellant). The remainder of the marital share and family share sub-trusts was
left to Dawn Morin. Thus, appellant was to inherit about 10 percent of the remaining
value of the marital share and family share sub-trusts, and Dawn Morin about 40 percent
of the assets left in those two sub-trusts. Under the terms of the Giles Revocable Trust,
3

According to appellant, Charles died on April 2, 2003; and Bobette died on
December 31, 2004.

4.

6a

Bobette’s five children, including respondent James Scott Blevins, inherited equal shares
in the third sub-trust—the surviving spouse trust.
Trust Litigation and Proceedings Leading to the 2009 Order
After the death of the trustors, respondent James Scott Blevins became the
successor trustee. The administration of the Giles Revocable Trust took several years. In
June 2008, Dawn Morin filed a petition seeking “information and an accounting” from
respondent in his capacity as trustee, alleging that respondent was improperly attempting
to sell trust property to his brother at an inappropriate discount. Additionally, Dawn
Morin raised some questions regarding the delay in funding the sub-trusts, the propriety
of transactions Bobette had undertaken in her lifetime and of the allocation of certain
shares of stock to respondent.
Respondent objected to Dawn Morin’s petition, offering explanations for each of
the challenged actions. After settlement negotiations, the parties reached an agreement in
March 2009. Therefore, on March 25, 2009, respondent filed an amended petition4
seeking, among other things, court approval of a proposed plan of distribution pursuant to
which Dawn Morin would recei ve slightly less than her designated 40 percent of the two
sub-trusts. Notably, pursuant to the proposed plan, appellant also would receive slightly
less than 10 percent of the sub-trusts.
On April 29, 2009, pursuant to the settlement agreement, Dawn Morin dismissed
her petition for information and an accounting, with prejudice.
On May 5, 2009, the trial court granted respondent’s amended petition and signed
what we have refened to as the 2009 order approving, among other things, the
distribution plan proposed by the trustee. Distribution of the trust assets to the various

4

Though not part of the record, there was apparently an earlier version of
respondent’s petition. Presumably, the petition was amended to account for the
settlement agreement with Dawn Morin.

5.

7a

beneficiaries was completed in 2011. Since that time, appellant has become a record
owner of a number of assets pursuant to the distribution plan and she has, according to
the pleadings, received income from those assets through her guardians and maternal
grandparents, Daniel Thomas and Mary Thomas.
Appellant’s Motion to Vacate
On March 26, 2018, appellant filed her motion to vacate the trial court’s 2009
order and, as a corollary to that relief, to reopen the trust administration. Preliminarily,
appellant’s motion pointed out that she was born in June of 2000, and as a minor she was
under the care of her maternal grandparents, Daniel and Mary Thomas, who have been
guardians of her person and estate. The reason for this guardianship was that appellant’s
parents, Joseph Giles and Lisa Thomas, were unable to take care of her due to their drug
abuse and her father Joseph’s incarceration in Florida. Appellant was first placed with
Daniel and Mary Thomas in June of 2007, and their guardianship was formally approved
in February of 2008 by a Wisconsin court. Since June of 2007, appellant has resided with
her grandparents, the Thomases, at their home in Punta Gorda, Florida.
Appellant and her grandparents asserted in support of the motion that they were
not aware that the Giles Revocable Trust existed or that appellant was a beneficiary until
2009, when the wife of the trustee called and di sclosed that appellant was a beneficiary of
the trust entitled to distribution of a portion of its assets. However, it was not disclosed at
that time that a “lawsuit” had been initiated by Dawn Morin or a petition filed by the
trustee. Nor was it disclosed at that time that a final order of the trial court had been
entered concerning those matters. These relevant facts allegedly w ere not discovered by
appellant until superior court files were inspected in 2017.
According to appellant’s motion to vacate, neither appellant nor her grandparents
as guardians received service of process or other notice of the 2008-2009 proceedings in
the trial court, including Dawn Morin’s petition and the trustee’s amended petition, which

6.

8a

proceedings led to the trial court’s 2009 order affecting appellant’s rights under the trust.
The proofs of service regarding those matters showed that the trustee and Dawn Morin
had utilized an incorrect address to serve by mail the relevant pleadings and notices.
Specifically, a numerical address or addresses on “Sandhill” in Punta Gorda, Florida, had
been set forth in the proofs of service rather than the correct address, which was and is on
Belem Street in Punta Gorda, Florida. Appellant’s motion argued that tire failure to
properly serve process on her or her guardians caused the 2009 order to be void.
Additionally, appellant’s motion asserted the 2009 order was a result of extrinsic fraud.
According to appellant, the void order could be set aside at any time, and she requested
the trial court do so to protect her due process rights.
Respondent Trustee’s Opposition to the Motion to Vacate
Respondent opposed the motion to vacate. Respondent’s declaration in opposition ■
to the motion stated that he was first alerted to the Thomases’ involvement as guardians
for appellant in 2009, by his then wife Deena Blevins. Fie stated that his wife Deena had
a phone call with Mary Thomas on May 18, 2009, wherein Mary Thomas explained to
Deena that she and Daniel Thomas were the guardians for appellant and that all mailings
should be sent to their address on Belem Street in Punta Gorda, Florida. According to
respondent, prior to learning of appellant’s correct address, all correspondence and court
filings for appellant were sent to addresses that, based on information and belief, were
provided to him from either appellant’s father, Joseph Giles, and/or Bobette Giles prior to
her death. Respondent asserted that once he learned, on or about May 18, 2009, that
appellant lived with the Thomases, “I caused all communications.and filings.to.be.sent to
[the Thomases] at their address.” Respondent’s declaration further stated that from that
point-forward, he had countless discussions with Daniel Thomas over the years regarding
the trust estate and the various distributions made from it, including the initial $25,000

7.

>’

9a

distribution made to appellant, plus interest, which was confirmed by attached emails and
other correspondence.
Finally, according to respondent’s declaration, it would be prejudicial to the
interests of all beneficiaries to grant appellant’s motion. In that regard, respondent stated:
“From 2011 to the present, the various beneficiaries of the Trust, including [appellant],
have continued to own various pieces of real estate together as a result of the Trust
distribution; and, they continue to own an interest in at least one general partnership. Put
differently, reopening this estate and unwinding the past seven years of very regular and
active involvement by these former beneficiaries in real estate ventures and in business
will be cataclysmic for all involved—including [appellant].”
Respondent’s attorney, Eric Nielsen, also filed a declaration in support of
respondent’s opposition to the motion. Nielsen’s declaration attached documents that had
been sent in 2011 to appellant’s guardians, the Thomases. The documents included:
(1) a release of liability of trustee and waiver of accounting executed by the Thomases as
appellant’s guardians on September 30, 2011 (the release of liability): (2) a February 17,
2011 letter from attorney Nielsen to the Thomases as appellant’s guardians, and (3) a
September 8, 2011 letter from attorney Nielsen to the Thomases as appellant’s guardians.
According to respondent’s opposition, these documents showed that appellant’s
guardians were made aware of the relevant history of the administrati on of the trust,
including the settlement agreement and the 2009 order, by 2011.
In his points and authorities in opposition to the motion, respondent argued the
motion should be denied for several reasons, including that the signed release of liability
precluded appellant’s action and that the motion was untimely under applicable law. On
the latter point, respondent observed it is “well settled that where a party moves under
section 473, .subdivision (d), of the Code of Civil Procedure to set aside ‘a judgment that,
though valid on its face, is void for lack of proper service, the courts have adopted by

8.

10a

analogy the statutory period for relief from a default judgment' provided by section 473.5
of the Code of Civil Procedure, that is, the two-year outer limit. {Trackman v. Kenney
(2010) 187 Cal.App.4th 175; [Citations.].)”
In her reply in support of the motion to vacate, appellant conceded that “ Trackman
... correctly cites that where a defendant seeks to void a judgment due to failure of
service, as herein, the defendant must bring his action to set aside the judgment no later
than two years after entry of the judgment.” Appellant argued she fit within an exception
stated in Trackman v. Kenney, supra, 187 Cal.App.4th 175 (Trackman) where the
judgment was a result of extrinsic fraud, such as a falsified proof of service, in which
case the motion may be made at any time provided the party acts with reasonable
diligence upon learning of the relevant facts. Appellant argued that “[s] imply stated,
extrinsic fraud exists and [appellant] acted with due diligence when the true facts were4
discovered ....”
Trial Court’s Order Denying Motion to Vacate
A hearing was held on appellant’s motion to vacate on August 31, 2018, after
which the trial court took the matter under submission. On October 1, 2018, the trial
court issued its order denying appellant’s motion. The trial court began by reciting the
background history of the Giles Revocable Trust and of the court proceedings leading to
the 2009 order. The trial court then carefully reviewed the grounds presented for
appellant’s motion and the opposition. The trial court agreed with respondent that the
two-year outer limit was applicable to appellant’s motion under the rule set forth in
Trackman, and it was clear the two-year period had.long ago expired. The.trial.court
acknowledged an exception exists where extrinsic fraud is shown, if the party acts with
diligence upon learning the relevant facts. The trial court found there was insufficient
evidence to establish extrinsic fraud, but in any event, even assuming such extrinsic fraud
existed, the trial court held that the 2011 letters and release of liability put appellant’s

9.

11a

guardians on notice of the relevant facts and they failed to exercise due diligence to bring
the motion to vacate within a reasonable time. Accordingly, the motion to vacate the
2009 order and to reopen administration of the trust assets was denied.
Respondent timely filed a notice of appeal from the denial of her motion.
DISCUSSION
I. Standard of Review
Whether a judgment or order is void due to lack of proper service is a question of
law that we review de novo. (Sakaguchi v. Sakaguchi (2009) 173 Cal. App.4th 852, 858.)
However, our review of the trial court’s decision whether to set aside a void j udgment or
order under the facts and circumstances before it is governed by the abuse of discretion
standard. (Pittman v. Beck Park Apartments Ltd. (2018) 20 Cal.App.5th 1009, 1020;
Nixon Peabody LLP v. Superior Court (2014) 230 Cal.App.4th 818, 822; Ramos v.
Homeward Residential, Inc. (2014) 223 Cal.App.4th 1434, 1440-1441; Cruz v. Fagor
America, Inc. (2007) 146 Cal.App.4th 488, 495.) In applying the abuse of discretion
standard, we determine whether the decision of the trial court exceeded the bounds of
reason in light of the circumstances before it. (County of San Diego v. Gorham (2010)
186 Cal.App.4th 1215, 1230.)
II. No Abuse of Discretion Shown in Denial of Motion to Vacate
Code of Civil Procedure section 473, subdi vision (d), provides a trial court “may,
on motion of either party after notice to the other party, set aside any void judgment or
order.” In connection with such a motion, courts generally distinguish between (i) orders
that are void on the face of the record and (ii) orders that appear valid on the face of the
record but are shown to be void through consideration of extrinsic evidence. (Pittman v.
Beck Park Apartments Ltd., supra, 20 Cal.App.5th at p. 1020.)5 “This distinction may be

5

As noted in Pittman v. Beck Park Apartments Ltd., supra, 20 Cal.App.5th at
p. 1020. the inclusion of the word “may” in the language of Code of Civil Procedure

10.

12a

important in a particular case because it impacts the procedural mechanism available to
attack the judgment [or order], when the judgment [or order] may be attacked, and how
the party challenging the judgment [or order] proves that [it] is void/’ (OC Interior
Services, LLC v. Nationstar Mortgage, LLC (2017) 7 Cal.App.5th 1318, 1326, italics
added.)
A. Motion Untimely Under Statutory Time Limits.
A judgment or order that is void on the face of the record may be attacked at any
time. (OC Interior Services, LLC v. Nationstar Mortgage, LLC, supra, 7 Cal.App.5th at
p. 1327.) However, it is clear we are not dealing with that sort of order in this case.
Here, the purported ground of invalidity of the trial court’s 2009 order (i.e., lack of
proper service on appellant) was not apparent on the face of the record but required the
presentation of extrinsic evidence such as the declarations by appellant and her guardians
regarding appellant’s correct mailing address and her alleged lack of actual notice of the
trust proceedings or the lack of service of the applicable pleadings during the relevant
period. To be void on the face of the record, the invalidity must be evident from the
judgment roll, not extrinsic evidence. (Id. at pp. 1327-1328.) Therefore, the 2009 order
was not facially void or void on the face of the record, and consequently the trial court
properly considered the appl icability of recognized time limits for appellant’s attack on
the 2009 order.
“Where a party moves under [Code of Civil Procedure] section 473, subdivision
(d) to set aside 4 a judgment that, though valid on its face, is void for lack of proper
service, the courts have adopted by analogy the statutory-period for .relief.from a default
judgment’ provided by [Code of Civil Procedure] section 473.5, that is, the two-year
outer limit.” (Trackman, supra, 187 Cal.App.4th 175, 180, quoting 8 Witkin, Cal.

section 473, subdivision (d), makes it clear that a trial court retains discretion to grant or
deny a motion to set aside a void judgment or order.

11.

13a

Procedure (5th ed. 2008) Attack on Judgment in Trial Court, § 209, pp. 814-815; accord,
Bae v. T.D. Service Co. ofArizona (2016) 245 Cal.App.4th 89, 97; Gibble v. Car-Lene
Research, Inc. (1998) 67 Cal.App.4th 295, 301, fn. 3; Rogers v. Silverman (1989) 216
Cal.App.3d 1114, 1120—1124.) As the trial court correctly found in denying appellant’s
motion to vacate, the present case plainly comes within the above stated standard in
Trackman for application of the two-year limitation period. The 2009 order, though valid
on its face, was claimed by appellant to be void due to lack of proper service; however,
appellant’s attack in 2018 on the 2009 order obviously came long after expiration of the
two-year outer limit. Accordingly, unless an exception or an alternative basis for relief
has been shown, appellant’s motion to vacate was clearly untimely under the two-year
limitation period stated in Trackman.
In the trial court, appellant conceded that pursuant to Trackman, her challenge of
the 2009 order had to be made within the two-year limitation unless an exception applied.
Appellant’s position was that an exception did apply, based on the purported existence of
extrinsic fraud in this case. In her appeal, appellant continues to argue that her motion to
vacate was timely on the theory that the 2009 order was obtained as a result of extrinsic
fraud. As more fully explained below, we conclude appellant’s extrinsic fraud argument
fails to establish the trial court abused its discretion in denying the motion to vacate. In
addressing this matter, the trial court found there was an inadequate showing to
substantiate the occurrence of extrinsic fraud, and we believe that finding was within the
bounds of reason in light of the circumstances presented in the record. In any event, even
if extrinsic fraud did occur, the law still requires appellant to act with reasonable
diligence upon learning the true facts. She did not do so here, as the trial court properly
found in the alternative.

12.

14a

B. Appellant’s Claim of Extrinsic Fraud
Even after statutory deadlines have passed, a trial court may still set aside a
judgment or order under its inherent equitable powers where the moving party has
demonstrated the judgment or order was obtained as a result of extrinsic fraud or mistake.
(8 Witkin. Cal. Procedure (5th ed. 2008) Attack on Judgment in Trial Court, § 215, p. 823
[noting such equitable relief is allowed even after the time that statutory means for review
thereof have expired].) As noted in Trackman, extrinsic fraud or mistake is a distinct
avenue for setting aside a void judgment or order, and “such a motion may be made at
any time, provided the party acts with diligence upon learning of the relevant facts.”
(Trackman, supra, 187 Cal.App.4th at p. 181.) To illustrate a situation where such relief
might typically be granted, Trackman noted the example of “a falsified proof of service.”
{Ibid.)
Here, appellant claimed there was extrinsic fraud perpetrated by respondent, based
primarily on the asserted lack of proper service at appellant’s correct address. “Extrinsic
fraud usually arises when a party is denied a fair adversary hearing because he has been
‘deliberately kept in ignorance of the action or proceeding, or in some other way
fraudulently prevented from presenting his claim or defense.’ ” (Kulchar v. Kulchar
(1969) 1 Cal.3d 467, 471.) The court may grant relief under its inherent equity power if,
because of the fraud of a party’s opponent, the aggrieved party was prevented from
presenting his claim or defense to the court. (In re Marriage ofStevenot (1984) 154
Cal.App.3d 1051, 1068.) Extrinsic fraud has been found to occur when “ ‘ “the
unsuccessful party has been prevented from exhibiting fully his case, by fraud or
deception practiced on him by his opponent, as by keeping him away from court, a false
promise of a compromise; or where the defendant never had knowledge of the suit, being
kept in ignorance by the acts of the plaintiff.” ’ [Citation.]” (Manson, Iver & York v.
Black (2009) 176 Cal.App.4th 36, 47.) The “essential characteristic” of extrinsic fraud

13.

15a

“is that it has the effect of preventing a fair adversary healing, the aggrieved party being
deliberately kept in ignorance of the action or proceeding, or in some other way
fraudulently prevented from presenting that party’s claim or defense.” (8 Witkin, Cal.
Procedure (5th ed. 2008) Attack on Judgment in Trial Court, § 225, p. 832; accord, Singh
v. Lipworth (2014) 227 Cal.App.4th 813, 827.)
As noted, the trial court concluded the evidence failed to demonstrate extrinsic
fraud on the part of respondent as trustee. In its written decision denying the motion to
vacate, the trial court appears to have credited the evidence presented by respondent
indicating that, although initial court filings were apparently mailed to an incorrect or
obsolete address, that error was based on an address provided to respondent from either
appellant’s father, Joseph Giles, and/or Bobette Giles prior to her death. Further, once
the error was learned, respondent caused all further communications and filings to be sent
to appellant’s correct address. Not only was appellant notified of the trust and of her
status as beneficiary in mid-May of 2009, but as the trial court observed, the letters and
release of liability form sent to her guardians in 2011 “included a detailed description of
the various aspects of trust administration which petitioner now challenges, including the
fact that all of the beneficiaries were receiving proportionately less than what was
indicated in the [trust].” As the trial court further pointed out, the release of liability
executed by appellant’s guardians expressly acknowledged receipt of respondent’s
accountings for the relevant time period, and further acknowledged that “[appellant’s]
share of the current balance on hand has been adjusted to 9.976855% due to the fact that
the final share to beneficiary Dawn Morin has already been distributed as mandated by
prior Court order.”
Based on the above, the trial court concluded that appellant failed to present
evidence demonstrating respondent’s actions “truly amounted] to ‘extrinsic fraud.
The record supports that conclusion. As the above summary indicates, the evidence did

14.

16a

not reflect that respondent deliberately kept appellant in ignorance of the trust
proceedings, or that respondent in any other way sought to prevent appellant’s knowledge
of her rights or her involvement in the proceedings. Instead, a reasonable inference was
that respondent, rather than deliberately committing an extrinsic fraud upon the court or
appellant, initially utilized an incorrect address for service based on obsolete information,
but promptly sought to correct that error when brought to his attention. (See Shamblin v.
Brattain (1988) 44 Cal.3d 474, 478-479 [when two or more inferences can reasonably be
deduced from the facts, the reviewing court has no authority to substitute its decision for
that of the trial court]; see also Aheroni v. Maxwell (1988) 205 Cal.App.3d 284, 291
[policy favoring finality of judgments requires showing of exceptional circumstances
after statutory period for relief expired].)
In any event, even assuming extrinsic fraud did potentially occur in this case, it
was incumbent on appellant as moving party to show that she sought relief by filing the
motion to vacate within a reasonable time after learning the facts. (See Moghaddam v.
Bone (2006) 142 Cal.App.4th 283, 291 [moving party must show reasonable diligence];
Trackman, supra, 187 Cal.App.4th at p. 180 [in seeking relief based on extrinsic fraud or mistake, the party must act with diligence upon learning of the relevant facts]; Jn re
Marriage ofStevenot, supra, 154 Cal.App.3d at p. .1071 [party must show diligence in
seeking to set aside the default once fraud is discovered]; Stiles v. Wallis (1983) 147
Cal.App.3d 1143, 1147-1148; McGuinness v. Superior Court (1925) 196 Cal. 222, 232
[court has inherent equitable power to vacate upon motion a judgment obtained by fraud,
provided that such motion is made “within a reasonable.time’!]; 8 Witkin, Cal. Procedure
(5th ed. 2008) Attack on Judgment in Trial Court, § 219, p. 826 [in raising grounds for
equitable relief against judgment, the motion must be “made within a reasonable time”].)
The trial court not only held that appellant failed to prove extrinsic fraud, but as an
additional or alternative ground for denial of the motion, the trial court also concluded

15.

17a

that appellant failed to bring her motion to vacate the 2009 order within a reasonable
time. The trial court’s finding that appellant failed to act with reasonable diligence is
clearly supported by the record. In 2011. two letters and the release of liability form were
sent by respondent’s attorney, Eric Nielsen, to appellant’s guardians. A letter dated
February 17, 2011 advised the beneficiaries, including appellant, of the status of the trust
administration. Idle letter included the following information: “We recently provided
Dawn Morin with her percentage share of the Trust reserve account as required by the
terms of the prior settlement agreement between the Trust and Dawn. The Court order
dated May 6, 2009 that was entered in connection with this particular dispute mandated
that Dawn was to receive her percentage of the reserve account no later than December
31, 2009.” Later that year, a letter dated September 8, 2011 informed beneficiaries,
including appellant, that the final trust distribution was ready to be made of the remaining
asset in the trust, consisting of the funds in a reserve account. The September 8, 2011
letter explained that the reserve account balance had been held for various reasons, one of
which was related to “the distribution of Dawn Morin’s share of the Trust reserve account
as mandated by the previously entered Court order dated May 6, 2009.” Finally, in
September 2011, the release of liability form was sent to appellant’s guardians. The
release of liability form, which was signed by appellant’s guardians on September 30,
2011, stated their acknowledgement of receipt of formal accountings for the period April
3, 2003 through December 31, 2008 and for the period of January 1, 2009 through March
14, 2010. Moreover, the release of liability form further acknowledged that appellant’s
share of the net trust estate “has been adjusted to 9.976855% due to the fact that the final
share to beneficiary Dawn Morin has already been distributed as mandated by prior Court
order.”
It is clear from the above documents provided to appellant’s guardians in 2011
that they were apprised of the existence of the settlement agreement with Dawn Morin

16.

18a

and of the essential impact thereof, which, as embodied in the 2009 order, resulted in a
slight reduction in the beneficiaries’ (including appellant’s) percentages or shares to
which they were entitled under the trust. Despite this notice in 2011 regarding the 2009
order and the Dawn Morin settlement, appellant’s guardians delayed until 2018 to file
appellant’s motion to vacate the 2009 order. No excuse for that lengthy delay has been
presented. We conclude the trial court properly found that appellant’s motion to vacate
was not made within a reasonable time after learning of the 2009 order.
For the reasons discussed hereinabove, we conclude the trial court did not abuse
its discretion in denying appellant’s motion to vacate. Even if extrinsic fraud existed,
appellant failed to diligently bring the motion to vacate within a reasonable time.
C. County ofSan Piezo v. Gorham. supra, 186 Cal.App.4th 1215 is Distinguishable6
In arguing the trial court nevertheless erred, appellant refers this court to County of
San Diego v. Gorham, supra, 186 Cal.App.4th 1215 {Gorham). In that case, a paternity
and child support complaint and summons were purportedly personally served on the
defendant Gorham in 1998 at an address in San Diego. A default judgment was entered
against him in 1998, and he was ordered to pay monthly child support, plus arrearages.
{Id. at pp. 1221-1222.) In 2002, a San Diego County Department of Child Support
Servi ces worker informed Gorham of the existence of the default judgment. Sometime
later, Gorham discovered that the process server had falsified the proof of service of
summons and complaint because Gorham had been incarcerated on the date of the
purported service. {Id. at pp. 1222, 1231.) In 2008, in light of the fraudulent return of
service and the complete failure of any service of process, Gorham moved to set aside the
6

Appellant also referenced Rockefeller Technology Investments {Asia) VII v.
Changzhou SinoType Technology Co., Ltd. (2018) 24 Cal.App.5th 115. We find this case
distinguishable since it addressed special issues of service on an overseas business entity
under the Hague Convention. Further, the Supreme Court granted review thereof on
September 26, 2018 (see S249923. 2018 Cal. Lexis 7239, 238 Cal.Rptr.3d 118).

17.

19a

1998 default judgment. The trial court denied the motion on the ground that since the
invalidity was not apparent on the face of the record, the motion had to be brought within
recognized time periods—i.e., either the two-year outer limit adopted by analogy to Code
of Civil Procedure section 473.5, or the shorter period set forth in Family Code section
3691, or if premised on extrinsic fraud then at least within a reasonable time after
learning the facts. In short, the trial court found that Gorham waited too long, and relief
was denied. (Gorham, at pp. 1223-1224.)
Gorham appealed, and the appellate court reversed. (Gorham, supra, 186
Cal.App.4th at pp. 1234-1235.) In essence, Gorham concluded that where a fraudulent
return of service results in a complete failure of service of process on the defendant
whose rights were at stake, there is a fundamental lack of jurisdiction over that party and
any resulting order or judgment against him or her is void and may be set aside at any
time. {Id. atpp. 1228-1229, 1234-1235.) In reaching that conclusion, Gorham
acknowledged that where the invalidity of a judgment does not appear on the face of the
record, it may be attacked by a motion in the action in which the j udgment was entered,
but such motion would ordinarily have to be made under a statute providing for relief
within certain time limits or a reasonable time. {Id. at p. 1228.) However, the opinion
also recognized that even if relief is no longer available under statutory provisions, a trial
court retains the power to vacate a judgment on equitable grounds where it resulted from
extrinsic fraud or mistake, or where it was established as a matter of law to be void for
lack of due process. {Ibid.) In that regard, Gorham emphasized that a false return of
summons proves “both” extrinsic fraud and mistake and that the judgment or order is
void. {Id. at p. 1229.) Under the unique circumstances in that case of a false return of
service establishing both extrinsic fraud and a complete lack of sendee of process,
Gorham concluded that relief from the resulting void default judgment could be sought at
any time. {Id. at pp. 1229-1230, 1234.) Further, under the conditions that occurred in

18.

20a

Gorham, the court indicated that since the void default judgment was a nullity, the
aggrieved party would have no duty to act diligently to protect his rights after he had
obtained knowledge of it. {Id. at p. 1229.)
Based on the above synopsis of Gorham. we believe that it is distinguishable from
the case now before us. As noted, Gorham involved extrinsic fraud in the form of a
fraudulent return of service, which fact was dispositive to the court’s analysis. In the
present appeal, however, no such false or fraudulent return of service was shown.
Furthermore, although an exception to the statutory time limits for moving to vacate a
void judgment due to improper service of process has of course been recognized in cases
where there was extrinsic fraud involved (see, e.g., Sullivan v. Sullivan (1967) 256
Cal.App.2d 301, 303), it was still required in those cases that such a motion be made with
diligence or within a reasonable time. (See, e.g., Munoz v. Lopez (1969) 275 Cal.App.2d
.178, 181-182 [where false recital of service, motion must be made within reasonable
time from discovery]; Washko v. Stewart (1941) 44 Cal.App.2d 311, 317-318; Smith v.
Jones (1917) 174 Cal. 513, 515-516.) In any event, this was wot a fraudulent return of
service case, so the apparent ruling in Gorham that no diligence would be required in
such unique cases may be distinguished. Therefore, we hold it was not an abuse of
discretion for the trial court to require appellant to bring her motion to vacate the 2009
order, premised on alleged extrinsic fraud, within a reasonable time. (See Trackman,
supra, 187 Cal.App.4th at p. 181 [a party “can show that extrinsic fraud or mistake exists,
such as a falsified proof of service, and such a motion may be made at any time, provided
the party acts with diligence upon learning of the relev ant Tacts”.].) _

-____

Appellant also asserts, based on principles noted in Gorham and other decisions,
that if a party admits facts showing that a judgment is void, or allows such facts to be
established without opposition, a court must treat the judgment as void upon its face,
regardless of when such facts are brought to the court’s attention. {Gorham, supra, 186

■

19.

21a

Cal.App.4th at pp. 1229, 1231; OC Interior Services, LLC v. Nationstar Mortgage, LLC,
supra, 7 Cal.App.5th 1318, 1328-1329; Hill v. City Cab & Transfer Co. (1889) 79 Cal.
188, 191.) This is sometimes referred to as “the Hill rule.5' (OC Interior Services, LLC v.
Nationstar Mortgage, LLC, supra, 1 Cal.App.5th at p. 1329.) Appellant’s argument is
apparently that since respondent/trustee admitted to sending the initial court filings
relating to the petition to an incorrect or obsolete address, the trial court’s 2009 order
should have been treated as void on its face and set aside, regardless of how long it took
for appellant to bring her motion to vacate. We reject that argument for two reasons.
First, appellant failed to raise that theory in the trial court, but instead expressly agreed
with respondent that in seeking relief based on extrinsic fraud she had to act with
reasonable diligence. (See Franz v. Board ofMedical Quality Assurance (1982) 31
Cal.3d 124, 143 [appellate courts generally will not consider matters presented for first
time on appeal]; Feduniakv. California Coastal Com. (2007) 148 Cal.App.4th 1346,
1381 [failure to raise issue in trial court waives or forfeits issue on appeal].)
Second, even if not forfeited, we would decline to apply the Hill rule on the
unusual facts of this case, based on an additional principle of discretion set forth in
Gorham. After reciting the Hill rule (as that rule was reiterated in Thompson v. Cook
(1942) 20 Cal.2d 564, 569), the Gorham decision stated as follows: “Nonetheless, a
court sitting in equity in such situation may ‘refuse to exercise its jurisdiction in a proper
case by declining to grant affirmative relief [citation], such as where ‘(1) The party
seeking relief, after having had actual notice of the judgment, manifested an intention to
treat the judgment as valid; and [*|[] (2) Granting the relief would impair another person’s
substantial interest of reliance on the judgment.’ [Citation.]” (Gorham, supra, 186
Cal.App.4th at p. 1229.) These discretionary reasons for denying relief were
conspicuously present here. As noted, appellant’s guardians received, via the 2011 letters
from respondent’s attorney and the 2011 release of liability, sufficient information to put

20.

22a

them on notice of the existence of the Dawn Morin settlement and its impact on the
beneficiaries5 shares as implemented under the 2009 order. Despite having notice of such
matters in 2011, and instead of seeking to promptly set aside the 2009 order, the evidence
showed that appellant “has received (or will receive) all property she is entitled to under
the terms of the trust pursuant to the Court’s 2009 Order—which amounts to just slightly
less than 10% of the assets remaining in the sub-trusts of which she is a beneficiary.”
Thus, appellant and/or her guardians appear to have accepted the validity of the 2009
order. More than that, other beneficiaries also have relied on the 2009 order and the
distribution of trust assets based thereon. As shown by respondent, not only was
distribution of trust assets completed in 2011, but from 2011 to the present, “the various
beneficiaries of the trust, including [appellant], have continued to own various pieces of
real estate together as a result of the Trust distribution; and, they continue to own an
interest in at least one general partnership.” As asserted by respondent, “[t]he relief
sought by [ajppellant will effectively create an unprecedented mechanism to reopen a
completed trust administration and unwind the past seven years of spending, investing,
selling, devising, donating, etc. the distributed Tmst corpus from ten years ago.”
According to respondent, granting such relief under the circumstances and after so many
years have passed would be “cataclysmic.” Under all the circumstances, including the
above referenced principle of discretion recognized in Gorham, we conclude the trial
court did not abuse its discretion in denying appellant’s motion to vacate the 2009 order.
In conclusion, we affirm the trial court’s order denying appellant’s motion to
vacate the 2009 order. The trial court was correct in-holding that diligence was not
shown; that is, the motion to vacate was not brought within a reasonable time. Further, as
discussed above, the Gorham case is distinguishable and, in any event, does not establish
an abuse of discretion in this case or require a reversal of the trial court’s denial of the
motion to vacate. In short, appellant has failed to demonstrate that, under all the

21.

23a

circumstances, the trial court abused its discretion when it denied her motion to vacate
the 2009 order.7
DISPOSITION
The order of the trial court is affirmed. Costs on appeal are awarded to
respondent.
LEVY, Acting P.J.
WE CONCUR:

FRANSON, J.

MEEHAN, J.

7

Having rejected the grounds raised by appellant in her appeal, we find it
unnecessary to address the additional arguments offered by respondent for affirming the
trial court’s order, such as his argument the trustee was not properly identified in the
petition and/or that the release of liability did not violate Probate Code section 16004.5
and should be deemed effective.

22.

24a
APPENDIX C
IN THE COURT OF APPEAL OF THE STATE OF CALIFORNIA
FIFTH APPELLATE DISTRICT

Court of Appeal
No. F078333

JOZLYN THOMAS,

i

Appellant/Petitioner,
vs.

(Superior Court Case No. 428536)

JAMES SCOTT BLEVINS,

■i

Respondent.

Appeal from a final order denying Appellant’s Motion to vacate and set
aside Final Ruling the superior court of California, County of Stanislaus
The Honorable Stacy P. Speiller, Judge

APPELLANT’S OPENING BRIEF

Jozlyn Thomas
10 Belem, Street
Punta Gorda, Florida 33983
Tel: (941) 456-4000

1

25a
APP-008

TO BE FILED IN THE COURT OF APPEAL
COURT OF APPEAL CASE NUMBER:

COURT OF APPEAL

FIFTH APPELLATE DISTRICT, DIVISION
STATE BAR NUMBER:

ATTORNEY OR PARTY WITHOUT ATTORNEY:

name:

F078333
SUPERIOR COURT CASE NUMBER:

JOZLYN THOMAS

428536

FIRM NAME: IN PRO PER
STREET ADDRESS: 10 BELEM STREET
CITY: PUNTA GORDA

STATE: FLA

TELEPHONE NO-

FAX NO.:

ZIP CODE: 33983

E-MAIL ADDRESS:
ATTORNEY FOR (name):

APPELLANT/ JOZLYN THOMAS
PETITIONER:
JAMES SCOTT BLEVINS
RESPONDENT/
REAL PARTY IN INTEREST:
CERTIFICATE OF INTERESTED ENTITIES OR PERSONS

i

(Check one):

QT] INITIAL CERTIFICATE

□ SUPPLEMENTAL CERTIFICATE

Notice: Please read rules 8.208 and 8.488 before completing this form. You may use this form for the initial
certificate in an appeal when you file your brief or a prebriefing motion, application, or opposition to such a
motion or application in the Court of Appeal, and when you file a petition for an extraordinary writ. You may
also use this form as a supplemental certificate when you learn of changed or additional information that must
be disclosed.

1. This form is being submitted on behalf of the following party (name ): JOZLYN THOMAS
2. a. |

| There are no interested entities or persons that must be listed in this certificate under rule 8.208.

b. I x | Interested entities or persons required to be listed under rule 8.208 are as follows:
Nature of interest
(Explain):

Full name of interested
entity or person
(1) ANTHONY GILES

BENEFICIARY - GILES REVOCABLE TRUST

(2) WILLIAM BLEVINS

BENEFICIARY - GILES REVOCABLE TRUST

(3) BOYS & GIRLS CLUB OF MANTECA

BENEFICIARY - GILES REVOCABLE TRUST

(4) BRENT BLEVINS

BENEFICIARY - GILES REVOCABLE TRUST

(5) CHARLES W. GILES

BENEFICIARY - GILES REVOCABLE TRUST

[ x l Continued on attachment 2.

The undersigned certifies that the above-listed persons or entities (corporations, partnerships, firms, or any other
association, but not including government entities or their agencies) have either (1) an ownership interest of 10 percent or
more in the party if it is an entity; or (2) a financial or other interest in the outcome of the proceeding that the justices
should consider in determining whether to disqualify themselves, as defined in rule 8.208(e)(2).

Date: JUNE 1, 2019
^ /si

JOZLYN THOMAS
(TYPE OR PRINT NAME)

(SIGNATURE OF APPELLANT OR ATTORNEY)
Page 1 of 1

Form Approved for Optional Use
Judicial Council of California
APP-008 ]Rev. January 1, 2017]

CERTIFICATE OF INTERESTED ENTITIES OR PERSONS
2

Cal. Rules of Court, rules 8.208, 8.488
ww. courts, ca.gov

26a

ATTACHMENT 2
TO CERTIFICATE OF INTERESTED ENTITIES OR PERSONS
NAMES OF INTERESTED PERSONS

NATURE OF INTEREST:

Bryan Blevins

BENEFICIARY - GILES REVOCABLE TRUST

Dawn Morin

BENEFICIARY - GILES REVOCABLE TRUST

James Scott Blevins

BENEFICIARY AND TRUSTEE OF
GILES REVOCABLE TRUST

Joseph Giles

BENEFICIARY - GILES REVOCABLE TRUST

Kelly Bergman

BENEFICIARY - GILES REVOCABLE TRUST

Michael Giles

BENEFICIARY - GILES REVOCABLE TRUST

St. Vincent de Pauls Society

BENEFICIARY - GILES REVOCABLE TRUST

Stoney Dahlberg

BENEFICIARY - GILES REVOCABLE TRUST

3

27a

IN THE COURT OF APPEAL OF THE STATE OF CALIFORNIA
FIFTH APPELLATE DISTRICT

Court of Appeal
No. F078333

JOZLYN THOMAS,
Appellant/Petitioner,

(Superior Court Case No. 428536)

vs.
JAMES SCOTT BLEVINS,
Respondent.

Appeal from a final order denying Appellant’s Motion to vacate and set
aside Final Ruling the superior court of California, County of Stanislaus
The Honorable Stacy P. Speiller, Judge

APPELLANT’S OPENING BRIEF

Jozlyn Thomas
10 Belem Street
Punta Gorda, Florida 33983
Tel: (941) 456-4000

4

28a

TABLE OF CONTENTS

TABLE OF AUTHORITIES

7

1-STATEMENT OF THE CASE

10

1JSTATEMENT OF FACTS

10

niRROCEDURAL FACTS

17

IV. LEGAL FINDINGS OF THE TRIAL COURT

19

V. STATEMENT OF APPEALABILITY

.20

VI.THE STANDARD OF REVIEW

.20

VII. ARGUMENT

21

A. THE SETTLEMENT ORDER OF THE TRIAL
COURT IS VOID AND SHOULD BE VACATED
AND SET ASIDE BECAUSE:....................................

21

1. The Judgment in the Trial Court Proceedings
is Void Because the Trial Court Failed to
Obtain Personal Fundamental Jurisdiction
Over the Appellant Caused by Respondent’s
Failure to Serve Notice of the Trial Court
Proceedings on the Appellant..............................

21

2. The Settlement Order Is Void Because the
Respondent Trustee Admitted He Sent Notices
to the Wrong Address And Failed to Act Diligently
to Discover Petitioner’s True Address..........................

.27

3. The Settlement Order Issued by the Trial Court
Is Void Because Extrinsic Fraud Existed to Prevent
Appellant From Protecting Her Interests as a
Beneficiary of the Trust..........................................

29

5

29a

a. Appellant, Through Her Grandparents/Guardians,
Had No Actual Knowledge of the State Court
Litigation..................................................................
B.

THE WAIVER AND RELEASE SIGNED BY APPELLANT’S
GUARDIAN/GRANDPARENTS IS A NULLITY WITHOUT
EFFECT....................................................................................

31

32
34

VIII. CONCLUSION

6

30a

TABLE OF AUTHORITIES
CASES:
CASE NAMES:

Page:

Armstrong v. Manzo
380 U. S. 545,550(1965).

21,22

Bellows v. Bellows (2011)
196 Cal.App.4th 505 [125 Cal.Rptr.3d 401]

34

County of San Diego v. Gorham (2010)
186 Cal.App.4th 1215 [113 Cal.Rptr.3d 147]

22,35

Duran v. Obesity Research Institute, LLC,
1 Cal.App.5th 635 [204 Cal.Rpf.3d 896]..

.23

Dusenbeiy v. United States (2002)
534 U.S. 161 [122 S.Ct. 694, 151 L.Ed.2d 597]

23

Estate of Lacy (1975)
54 Cal.App.3d 172 [126 Cal.Rptr. 432]

23,34

Estate ofReed (1968)
259 Cal. App. 2d 14 [66 Cal.Rptr. 193]

23,34

Fidelity Creditor Service, Inc. v. Browne (2001)
89 Cal.App.4th 195, 205 [106 Cal.Rpf.2d 854],

29

Hill v. City Cab & Transfer Co. (1889)
79 Cal. 188, 191 [21 P. 728]................

28

Jefferson v. California Dept, of Youth Authority {2001)
109 Cal.Rpf.2d 300 [26 P.3d 1038]................................'.

32

Lawson v. Lawson
(D.Nev. Nov. 13, 2014, No. 3:14-cv-00345-LRH-WGC)
2014 U.S.Dist.LEXIS 160354........................................

34

7

31a

Lee v. An (2008)
168 Cal.App.4th 558, 564 [85 Cal. Rptr. 3d 620]

.25

Los Angeles v. Morgan (1951)
105 Cal.App.2d 726 [234 P.2d 319]

26

Mathews v. Eldridge (1976)
424 U.S. 319 [96 S.Ct. 893, 47 L.Ed.2d 18]

22

Mullane v. Cent. Hanover Bank & Trust Co. (1950)
339 U.S. 306 [70 S.Ct. 652, 94 L.Ed. 865]...............

.22, 23

Munoz v. Lopez (1969)
275 Cal.App.2d 178 [79 Cal.Rptr. 563]

26

OC Interior Services, LLC v. Nations tar Mortgage, LLC (2017)
7 Cal.App.5th 1318 [213 Cal.Rptr.3d 395]..................................

.28

Pennoyer v. Neff (1877)
95 U.S. 714 [24 L.Ed. 565]

.22

People v. American Contractors Indemnity Co. (2004)
33 Cal.4th 653 [16 Cal.Rptr.3d 76, 93 P.3d 1020].......

,24

Peralta v. Heights Medical Center, Inc. (1988)
485 U.S. [80,] 84 [99 L.Ed.2d 75, 108 S.Ct. 896]

.25

Professional Engineers in California Government v. Kempton (2007)
40 Cal.4th 1016, 1032 [56 Cal.Rptr.3d 814, 155 P.3d 226]...................

.20

Rockefeller Technology Investments (Asia) VII v.
Changzhou SinoType Technology Co., Ltd. (2018)
24 Cal.App.5th 115 [233 Cal.Rptr.3d 814]............

.22, 24, 25

Sakaguchi v. Sakaguchi (2009)
173 Cal.App.4th 852, 858 [92 Cal.Rptr.3d 717]

.21

Strathvale Holdings v. E.B.H. (2005)
126 Cal.App.4th 1241 [25 Cal.Rptr.3d 372]

.24

8

32a

Stratton v. First Nat. Life Ins. Co. (1989)
210 Cal.App.3d 1071 [258 Cal.Rptr. 721]

.21

Thompson v. Cook (1942)
20 Cal.2d 564 [127 P.2d 909].......................
Trackman v. Kenney (2010)
187 Cal.App.4th 175 [114 Cal.Rptr.3d 619]

26
20,21, 30,31

United Student Aid Funds. Inc. v. Espinosa (2010)
559 U.S. 260 [130 S.Ct. 1367, 176 L.Ed.2dJ58]...
World-Wide Volkswagen Corp. v. Woodson
444 U. S. 286, 291 (1980) [100 S.Ct. 559, 62 L. Ed.2d 490]
Zenith Radio Corp. v. Hazeltine Research (1969)
395 U.S. 100 [89 S.Ct. 1562, 23 L.Ed.2d 129].....

23

22, 23

22

STATUTES:
Code of Civil Procedure §473

22

California Code of Civil Procedure § 473(d)

14, 22

California Code of Civil Procedure § 473.5

22, 34, 25, 31

Code of Civil Procedure, § 904.1(a)(2)

,20

California Probate Code § 14601.1

.29

Probate Code § 16004.5

33

California Probate Code § 17200

13,24,18

California Probate Code § 16420

13,18

U.S. CONSTITUTION:
U.S. Constitution, 5th Amendment,

.23, 27

U.S. Constitution, 14th Amendment,

,23, 10
9

33a

L STATEMENT OF THE CASE
This appeal challenges the final ruling of the trial court which denied
Appellant’s “Petition to Reopen Estate Administration and to Vacate and Set
Aside Order Approving and Settling Amended Account and Report of Trustee;
Order Approving Agreement Between Trustee and Dawn Morin; Order
Approving Distribution Plan and Allowing Payment of Trustee’s Fees”
(“Petition to Vacate and Set Aside”) (1 C’T 129). Appellant, a minor until June
2018, alleges that neither she, nor her parents, nor her guardian/grandparents
were served with process on her behalf in this probate trust distribution case
in which Appellant was named a beneficiary to a revocable family trust. (1 CT
10, 15, 18) With almost no exceptions, Appellant does not object to the facts
and descriptions described by the trial court in its ruling. Without waiving her
rights, if any, to object to facts contained in the ruling of the trial court, and for
the purpose of this opening brief, Appellant does not object to the facts as
described by the trial court in its ruling.
II. STATEMENT OF FACTS
Appellant was born on June 20, 2000. (1 CT 8, 17) On or about 2006
Appellant was constructively abandoned in Wisconsin by her parents caused
by their excessive drug use. In June 2006 when Appellant was 6 years old, the
Racine County (Wisconsin) Human Services, took custody of Appellant.
In that same year, Appellant’s maternal grandparents, Daniel and Mary
Thomas, stepped forward and filed for guardianship of the person and the
estate of the Appellant. Guardianship was granted by the Wisconsin Court, and
until June 20, 2018, when Appellant reached the age of majority, Dan and
Mary Thomas raised their grandchild, the Appellant. (1 CT 8, 13)
On January 18,2002, Charles L. Giles, Appellant’s paternal grandfather
and Bobette Giles, Appellant’s step-grandmother created a revocable family
10

34a

trust entitled Giles Revocable Trust, (hereafter “Trust”). At the time, Charles
had two sons from a former marriage; Charles W. Giles (deceased) and Joseph
Giles (Appellant’s father). Bobette had five (5) children from a former
marriage; James Scott Blevins, William Blevins, Brent Blevins, Bryan Blevins
and Kelly Bergman. Charles and Bobette were the initial trustees of the Trust
created as a revocable inter vivos trust. Bobette's son James was designated as
the successor trustee upon the death of the settlors, Charles and Bobette. (1 CT
129)

.
The Trust

specifically provided for some of Charles L. Giles’

grandchildren through his deceased son Charles W. Giles. They were Charles
W. Giles, Jr., Anthony L. Giles, and Michael Giles. Charles also provided for
his son Joseph's daughter, the Appellant. (1 CT 130)
Essentially the Trust assets, valued in the millions of dollars, were
supposed to be placed into three different sub-trusts upon the death of the first
spouse; here Charles who died on April 2,2003. (1 CT 130)
Upon Charles’ death a marital share trust was supposed to be created
and funded to the extent of the federal marital estate tax exemption amount in
order to reduce and/or eliminate taxes at the time of the surviving spouse's
death. Second, a family share trust was to be created, which would hold the
"community property share" of the deceased spouse as well as the balance of
that spouse's separate property (if any). Third, a "surviving spouse" trust was
supposed to be created to hold the surviving spouse’s share of the community
property as well as that spouse's separate property (if any). The "surviving
spouse" was to maintain control, over all the "assets" in-the survi ving spouse
trust and upon his or her death, those assets were to be equally divided
between the surviving spouse's beneficiaries. (1 CT 130)
Trustor Charles died first, and this is what was supposed to happen:
11

35a

Immediately upon Charles’ death, Stoney Dahlberg, a granddaughter of
Charles L. Giles and daughter of Charles W. Giles, was to receive $1,000.
Dawn Morin, who Charles L. Giles treated as a daughter, but who was not,
was to receive $25,000, and "each living grandchild" was to receive $25,000,
including Appellant. (1 CT 130)
Then, upon Bobette's death on December 31, 2004, the following
beneficiaries inheriting the bal ance of the marital share and family share sub­
trusts were: Joseph Giles ($50,000 conditional upon his refraining from the use
of illicit drugs); 10% to the Boys & Girls Club of Manteca, 10% to St.
Vincent de Paul's; and 10% to "each living grandchild" (there were four (4) at
the time of Bobette's death including the Appellant). The "remainder" of the
marital share and family share sub-trusts were left to Dawn Morin. Thus,
Appellant was to inherit 10% of the remaining value o f the marital share and
family share sub-trusts, and Dawn Morin would receive about 40% of the
assets left in those two sub-trusts . (1 CT 130)
James Blevins, the successor trustee did not Administer the Trust nor
did he submit and accounting to the court or the beneficiaries of the Trust
until, finally, in June 2008 Dawn Morin filed a declaratory relief action in
Federal Court to secure a decision that her petition would not be deemed a
“contest" of the trust's provisions which would invoke the "no contest clause"
of the Trust. This federal action was dismissed. Dawn Morin then filed a
petition seeking "information and an accounting" from James Blevins, the
successor trustee. This petition also alleged that James Blevins was improperly
attempting to sell trust property to his brother (another of Bobette's
12

36a

beneficiaries) at an inappropriate discount. Additionally, there were questions
as to the delay in funding the sub-trusts, as well as questions concerning some
transactions Bobette had undertaken during her lifetime (with regard to
inappropriately giving her children money), and the allocation to Respondenr
James Blevins of shares of stock in a trucking company, Mountain Valley
Express (“MVE”) owned by the Trust. (1 CT 131)
On April 10, 2008, trustee Blevins file a PETITION TO APPROVE
AND CONFIRM ACCOUNT AND REPORT OF TRUSTEE; APPROVAL
OF PROPOSED DISTRIBUTION AND PAYMENT OF TRUSTEE'S FEES;
CONSENT OF TRUSTEE OF BENEFICIARIES' TRUST.
On June 11, 2008, Dawn Morin filed her PETITION TO COMPEL
PERFORMANCE OF RESPONDENT’S DUTIES AS TRUSTEE OR IN THE
ALTERNATIVE REMOVE THE TRUSTEE PURSUANT TO PROBATE
CODE §§ 17200 AND 16420.
James Blevins as the trustee of the Trust objected to Dawn Morin's
petition, offering expected explanations for each of the challenged actions.
After settlement negotiations, the parties reached an agreement in March 2009.
Thereafter, on March 25, 2009, James filed an amended petition seeking
approval of a distribution plan pursuant to which Dawn Morin received
slightly less than her designated 40% of the two sub-trusts. Notably, pursuant
to the plan, Petitioner also received less than 10% of the sub-trusts. (1 CT
131)

------On April 10,2008, trustee James Blevins filed his verified “Petition to

Approve and Confirm Account and Report of the Trustee; Approval of
13

37a

Proposed Distribution and Payment of Trustee’s Fees; Consent of Trustee of
Beneficiaries’ Trust [Probate Code § 17200]”. (“Respondent’s Verified
Petition” attached to Notice of Lodgment as Exhibit C to “Points and
Authorities in Support of Petition to Reopen Estate Administration and to
Vacate and Set Aside Order Approving and Settling Amended Account and
Report of Trustee; Order Approving Agreement Between Trustee and Dawn
Morin; Order Approving Distribution Plan and Allowing Payment of Trustee ’ s
Fees (Probate Code § 17200, etseq.; CCP § 473(d))” (“Appellant’s Points and
Authorities to Motion to Set Aside and Vacate”) (1 CT 22)
On March 25,2009, trustee Blevins filed a verified “Amended Petition
to Approve and Confirm Account and Report of the Trustee; Petition to
Approve Agreement Between Trustee and Dawn Morin; Approval of
Distribution Plan and Payment of Trustee’s Fees; [Probate Code § 17200]”.
(“Respondent’s Amended V erified Petition”) (Attached to Notice of Lodgment
as Exhibit G to Appellant’s Points and Authorities to Motion to Set Aside and
Vacate”) (1 CT 22)
It is important to note that Trustee Blevins declares on page 3, at 14.,
lines 2-10 of Respondent’s Verified Petition and again on page 3, at f 4., lines
1-9 of Respondent’s Amended Verified petition, that $25,000.00 had already
been distributed to Jozlyn Thomas. (Please see Exhibits C) (1 CT 22)
This allegation is patently untrue, and Respondent admits the same
when in his “Declaration of James Scott Blevins in Support of Opposition to
Petition to Reopen Estate Administration and to Vacate and Set Aside Order
Approving and Settling Amended Account and Report of Trustee and Dawn
14

38a

Morin; Order Approving Agreement Between Trustee and Dawn Morin; Order
Approving Distribution Plan and Allowing Payment of Trustee's Fees” he
declares under penalty of peijury that the check sent to Dan and Mary Thomas
as guardians of the estate of Jozlyn Thomas was part of the distribution
required after Charles L. Giles’ death. It is attached as Exhibit A to this
declaration and dated March 3, 2010. (1 CT 59-60) Yet, in his verified April
10,2008 petition and his March 25,2009, amended petition he declared to the
court that this amount had already been paid.
It is further alleged in the same documents, Respondent’s Verified
Petition on p. 4, ^ 4, at lines 14-15, (Exhibit C) and again in Respondent’s
Amended Verified Petition on p. 4,

4, at lines 6-7, (Exhibit G) the

Respondent declares:
"At all time herein relevant, tire above beneficiaries are
adults. Below is a list of all beneficiaries and interested
persons who are at all times herein mentioned adults, and
their addresses: ..." (Emphasis added.)
He then goes on to list the names and addresses of a group of beneficiaries/
interested persons including the Appellant herein as:
Jozlyn Thomas
25030 Sandhill Blvd., #4b2
Punta Gorda, FL 33983
(Emphasis added.)
As described below, this was not her address. The address as written is a
vacant lot filled with brush and weeds. (1 CT 30)
15

39a

This allegation was false also. At the time Respondent Trustee Blevins
filed Respondent’s Verified Petition was only 6 years old and was 8 years old
when Respondent’s Verified Amended Petition was filed.
Respondent trustee actually knew both of the above allegation were
false, yet, he was willing to lie and misrepresent facts to the court in order to
push the settlement agreement through to allow the judge to approve of the
agreement entered into by the Respondent and Dawn Morin. It seems likely the
trial court would not have approved the settlement agreement but for the lies.
On April 29,2009, pursuant to the settlement agreement, Dawn Morin
dismissed her petition for “information and an accounting” with prejudice. (1
CT 131)
Appellant did not receive notice of this litigation. (1 CT 131,132) The
trial court found (1 CT 131-132) that service on Appellant was made by mail
to two "incorrect" addresses. Respondent mailed numerous notices to
Petitioner at the following two addresses: 25030 Sandhill Boulevard, #4b2,
Punta Gorda, Florida 33983 and 25050 Sandhill Boulevard, #4b2, Punta
Gorda, Florida 33983. Most were sent to the 25030 address which was a
vacant lot. However, two notices were mailed to the 25050 address which
Appellant and her parents resided for a short period of time, June and July
2003, when Appellant was three (3) years old. (1 CT 133)
The Court in its final ruling on Appellant’s Motion to Vacate and Set
Aside argued at 1 CT 132 that the various services of process at the 25050
address was “actually correct ”. (1 CT 132) It was unreasonable for Dawn
Morin, the original petitioner and James Scott Blevins, the Trustee, to
assume
16

40a

that the six year old Jozlyn still resided at the 25050 address when (1) the
petitioner, Dawn Morin, and the trustee James Scott Blevins, knew that
J'ozlyn’s father, Joseph Giles, was housed in the Florida state prison system,
and he was served while in prison, and he knew the correct address for Jozlyn;
all they had to do was ask; (2) they should have served Joseph on behalf of
Jozlyn if they had no knowledge of the Wisconsin guardianship; and (3) they
served Jozlyn at two different addresses. (Basic reasoning should indicate that
they had to know that one of the addresses was wrong.) This should have
prompted further diligence on the part of Dawn Morin and James Scott
Blevins’ to exert further effort (such as asking Jozlyn’s father for her address)
to ascertain the Appellant Jozlyn’s accurate address. They did not do this.
Instead, they continued to serve Jozlyn at the wrong address(es) having the
impact of preventing Jozlyn from asserting her rights in the trial court
proceedings. (Please see Proofs of Service attached as Exhibit 1 to Notice of
Lodgment.)
As a result, neither Jozlyn nor her Grandparents/Guardians had actual
notice or legal notice of the existence of the Trust, and it was not until 2009 (1
CT 132, 133, 10, 15, 18) when the wife of the Trustee, Deena Blevins,
telephoned the Grandparents/Guardians did they learn that the Trust, but not
Dawn Morin’s case, existed and Jozlyn was a beneficiary entitled to
distribution of a portion of its assets. (1 CT 9, 14)
III. PROCEDURAL FACTS
April 3, 2003:

Charles Giles’.died.

Dec. 31,2004:

Bobette Giles, died.
17

41a

July 24, 2007:

Dawn Morin, a 40% beneficiary of the Family and
Marital Trusts, filed a Petition for Declaratory Relief in
the Federal Court which was later dismissed for lack of
subj ect matter j uri sdi cti on.

April 8, 2008:

Dawn Morin filed the initial (“safe harbor”) Petition
for Declaratory Relief with the Stanislaus County
Superior Court.

April 10, 2008:

Trustee Blevins filed a PETITION TO APPROVE
AND CONFIRM ACCOUNT AND REPORT OF
TRUSTEE; APPROVAL OF PROPOSED
DISTRIBUTION AND PAYMENT OF TRUSTEE'S
FEES; CONSENT OF TRUSTEE OF
BENEFICIARIES' TRUST

May 13,2008:

Pursuant to a stipulation between Blevins and Morin,
the Court ordered Dawn Morin’s case consolidated
with Trustee Blevin’s case.

June 11,2008:

Dawn Morin filed the PETITION TO COMPEL
PERFORMANCE OF RESPONDENT'S DUTIES AS
TRUSTEE OR IN THE ALTERN ATI VE REMO VE
THE TRUSTEE PURSUANT TO PROBATE CODE
§ § 17200 AND 16420

March 2, 2009:

At the Trial Settlement Conference of the consolidated
cases, the parties entered into a settlement agreement
and the Court issued its Minute Order incorporating the
18

42a

settlement agreement pursuant thereto.
March 25, 2009:

James Scott Blevins as Trustee to The Administrative
Trust, The Survivor’s Trust, The Family Trust and The
Marital Trust filed the Trustee’s Amended Petition.

April 29, 2009:

Petitioner Dawn Morin filed a Request for Dismissal
with prej udice of her case.

May 5, 2009:

The Court issued an Order pursuant to the settlement
agreement which was entered on May 6, 2009.

May 6, 2009:

Petitioner Dawn Morin filed a Notice of Entry of
Dismissal and Proof of Service.

March 26,2018:

Appellant filed her Petition to Vacate and Set Aside
the May 5, 2009, Order.

May 4,2018:

Opposition to Appellant’s Petition to Vacate and Set
Aside filed.

November 1, 2018: Appellant filed Notice of Appeal.
IV. LEGAL FINDINGS OF THE TRIAL COURT
It is difficult to excise the legal findings of the trial court due to
ambiguity as to whether the Opposition to Appellant’s Petition is, in actuality,
the legal findings of the Trial Court.
In her final ruling on Appellant’s Petition to Vacate and Set Aside,
stated in a sub-heading entitled, “Opposition to Motion by Successor
Trustee” (1 CT 136) The first three (3) paragraphs under this sub-heading
makes clear that these paragraphs are truly the arguments of the Respondent
Blevins.
19

43a

However the sub-headings to the sub-heading including “Guardian
of the Estate’s Objection(1 CT 136), ‘Waiver and Signed Release:” (1
CT 136), “Two-Year “Statute ofLimitations ” Applies” (1 CT 137), and
“Trackman Applies But Extrinsic Fraud Exists” (1 CT 139) notwithstanding
they appear to be sub-headings to the subheading “Opposition to Motion
by Successor Trustee” (1 CT 136), they, in fact are legal “findings” of the
court (1 CT 136 - 139) which act foundationally to support the court’s
ruling as the trial court concludes: “Conclusion: For all of the above-stated
reasons, the motion/petition to reopen distribution of the trust assets is
denied.”
V. STATEMENT OF APPEALABILITY
This appeal is from a Ruling of the Stanislaus Superior Court which
denied Appellant’s petition to vacate and set aside a previous Order of this
court made on May 5, 2009, pursuant to a settlement agreement. The ruling
denied Appellant’s petition and was final. This appeal is authorized by the
Code of Civil Procedure, § 904.1, subdivision (a)(2) and California Rules of
Court, Rule 8204(a)(2)(B).
VI. THE STANDARD OF REVIEW
The standard of review is de novo.
Ifthe trial court’s decision did not turn on few, if any disputed facts, the
trial court’s decision is subject to de novo review. {Professional Engineers in
California Government v. Kempton

(2007) 40 Cal.4th 101.6, 1032 [56

Cal.Rptr.3d 814, 155 P.3d 226].)
Though Appellant disputes a few, but not many, of the facts stated in
20

44a

the trial court ruling, such facts are not disputed or described here.
The issues in this appeal do not involve any disputed questions of fact.
The issue of whether a judgment is void due to improper service is a question
of law that should be reviewed de novo. (Trackman v. Kenney (2010) 187
Cal.App.4th 175 [114 Cal.Rptr.3d 619]; Sakaguchi v. Sakaguchi (2009) 173
Cal.App.4th 852, 858 [92 Cal.Rptr.3d 717].)
When reviewing questions of law, an appellate court is not bound by
the trial court's reasons supporting its ruling. Instead, the Court of Appeal
reviews the ruling, but not the trial court's rationale, independently. {Stratton
v. First Nat'l Life Ins. Co. (1989) 210 Cal. App.3d 107.1, 1083.)
As a matter of law, only, Appellant appeals the October 1,2018, ruling
of the trial court as follows and claims that the trial court abused it discretion
when it denied Appellant’s Petition to Vacate and Set Aside.
[/

VIII. ARGUMENT
A.

THE SETTLEMENT ORDER OF THE TRIAL COURT IS VOID
AND SHOULD BE VACATED AND SET ASIDE BECAUSE:
1. The Judgment in the Trial Court Proceedings is Void
Because the Trial Court Failed to Obtain Personal
Fundamental Jurisdiction Over the Appellant Caused
by Respondent’s Failure to Serve Notice of the Trial
Court Proceedings on the Appellant.
An elementary and fundamental requirement of due process in

any proceeding which is to be accorded finality is notice reasonably
calculated, under the circumstances, to apprise interested parties of the

21

45a

pendency of the action and afford them the opportunity to present their
objections." Mullane v. Central Hanover Bank & Trust Co., 339 U. S.
306,314 (1950). Failure to give notice violates "the most rudimentary
demands of due process of law." (Armstrong v. Manzo, 380 U. S. 545,
550 (1965). See also World-Wide Volkswagen Corp. v. Woodson, 444
U. S. 286, 291 (1980); Mathews v. Eldridge, 424 U. S. 319, 333
(1976); Zenith Radio Corp. v. ITazeltine Research, Inc., 395 U. S. 100,
110 (1969); Pennoyer v. Neff, 95 U. S. 714, 733 (1878).)
Appellant alleges that the final underlying settlement order and
the subsequent final ruling on Appellant’s Petition to Vacate and Set
Aside by the trial court were void because she was never served
process and had no actual notice of the proceedings. Cases have
distinguished between “void” and “voidable” judgments as being
whether the trial court acted in excess of its jurisdictional authority,
making the judgment voidable, versus issuing a judgment without
I

jurisdictional authority, making the judgment void. (Rockefeller
Technology Investments (Asia) VII v. Changzhou SinoType Technology
Co., Ltd. (2018) 24 Cal. App.5th 115 [233 Cal.Rptr.3d 814]; County of
San Diego v. Gorham (2010) 186 Cal.App.4th 1215 [113 Cal.Rptr.3d
147].) Therefore, because the trial court did not obtain jurisdiction
over Appellant, the settlement order issued by the trial court was void.
In its final ruling on Appellant’s Motion to Vacate and Set
Aside, the trial court discusses Appellant’s argument that California
Code of Civil Procedure (“CCP”) §473(d) applies to allow the court
22

46a

the authority to vacate and set aside a void judgment. (1 CT 137-140).
It adopts, when possible, the application § 473.5 as a time limitation
to § 473 challenge to the judgment as being void for two years post
entry ofjudgment. With exceptions, CCP § 473.5 sets a “reasonable”
time limitation, not to exceed two (2) years from the date of entry of
the judgment. As the facts show, Appellant has exceeded this
limitation.
However, lack of service of process on an interested party who
has property interests in the outcome, violates that person’s
fundamental rights established under the 5th and 14th Amendments to
the U.S. Constitution which states that a person camiot be deprived of
“life, liberty, and property” without due process of law.
As a fundamental right, due process requires that an indispensable
interested party be given adequate notice of the suit and be subject to the
personal jurisdiction of the Court. (World-Wide Volkswagen C-orp. v.
Woodson (1980), supra.)
Such notice must be reasonably calculated, under all the
circumstances, to apprise an interested party of the pendency of the
action and afford that person an opportunity to present his or her
objections. (Mullane v. Cent. Hanover Bank & Trust Co., supra;
United Student Aid Funds, Inc. v. Espinosa, 559 U.S. 260; Dusenbery
v. United States, 534 U.S. 161; see also Duran v. Obesity Research
Institute, LLC, 1 Cal. App. 5th 635 (2016); Estate of Reed, supra;
Estate ofLacy (1975) 54 Cal. App. 3d 172.)
23

47a

Appellant was a named beneficiary of the Trust and thus an
interested and indispensable party to the proceedings. In the trial court,
the underlying consolidated proceeding negatively affected her rights
as a beneficiary and, therefore, she was entitled to reasonable due
process notice to allow her to present objections. The failure of Dawn
Morin, the Petitioner in the trial court proceedings, and the Trustee,
James Scott Blevins, to give Jozlyn constitutionally adequate notice
rendered the subsequent final settlement j udgment void. (OC Interior
Sendees, LLC v. Nationstar Mortgage, LLC (2017) 7 Cal. App. 5th
1318; Strathvale Holdings v. E.B.H.; People v. American Contractors
Indemnity Co., (2004) 33 Cal. 4th 653: Estate ofLacy supra; Estate of
Reed (1968) 259 Cal. App. 2d 14.)
In the recent case of Rockefeller Technology Investments (Asia)
VII v. Changzhou SinoType Technology Co., Ltd. (2018) [24
Cal.App.5th 115 [233 Cal.Rptr.3d 814]], where a Chinese company
was not properly served with process as required by the Hague
Convention on the Service Abroad of Judicial and Extrajudicial
Documents in Civil and Commercial Matters, Nov. 15, 1965, 20
U.S.T. 361, 658 U.N.T.S. 163, the court found that because the
company was not properly served with the summons and petition
pursuant to the Hague Convention, the trial court did not acquire
jurisdiction over it, and the resulting judgment was void. (Id. at p.
134.) The court further stated that “California is a jurisdiction where
the original sen/ice of process, which confers jurisdiction, must
24

48a

conform to statutory requirements or all that follows is void.” (Id.)
The Rockefeller court further stated:
“Where the defendant establishes that he or she has not
been served as mandated by the statutory scheme, “no
persona] jurisdiction by the court will have been
obtained and the resulting judgment will be void as
violating fundamental due process. (See Peraltaf v.
Heights Medical Center, Inc. (1988)] 485 U.S. [80,] 84 [99
L.Ed.2d 75, 108 S.Ct. 896].)” (Gorham, supra, 186
Cal.App.4th 1215, 1227, . . . [reversing order denying
motion to set aside a default judgment because plaintiff
had not been properly served with the summons and
complaint]; see also Renoir, supra, 123 Cal.App.4th at p.
1154 [“Because no summons was served on any of the
defendants and the defendants did not generally appear in
the proceeding, the trial court had no jurisdiction over
them. Therefore, the California judgment was void, as is
the order denying the motion to vacate the California
judgment.”]; Lee v. An (2008) 168 Cal.App.4th 558,564
[85 Cal, Rptr. 3d 620] [“[I]f a defendant is not validly
served with a summons and complaint, the court lacks
personal jurisdiction and a ... judgment in such action is
subject to being set aside as void.”].) Rockefeller
Technology Investments (Asia) VII v. Changzhou SinoType
Technology Co., Ltd. (2018), supra, at pp. 134-135.
(Emphasis added..)
In its final ruling on Appellant’s Petition to Vacate and Set Aside, the
trial court herein argues that the Petition to Vacate and Set Aside whether the
two (2) year time limitations of Probate Code § 473.5 are applied, the Petition
to Vacate and Set Aside was unreasonably late. (1 CT 138) It is arguable
whether Dan and Mary Thomas knew or should have known of the original
25

49a

proceedings before 2017. This issue is irrelevant.
In the case County of San Diego v. Gorham (2010) 186 Cal.App.4th
1215 [ 113 Cal.Rptr.3d 147]], (“Gorham”) in this family law matter, the father
knew a default judgment was entered against him in 2002, but did not
challenge the judgment as being void for lack of service until 2008. (Id. at pp,
1223-1225) The trial court found that the motion to set aside the default
judgment was untimely and denied the motion, (Id. at p. 1225)
On appeal from this judgment, the appellant alleged that the trial court
abused its discretion when it denied his motion to set aside default judgment
based on lack of service. In agreeing with the appellant, the appellate court
reasoned that the trial court never obtained jurisdiction and the trial court’s
order violated the appellant’s fundamental rights. (Id. at 1225-1226). It further
reasoned that where it is shown that there has been a complete failure of
service of process upon a person, he generally has no duty to take affirmative
action to preserve his right to challenge the judgment or order even if he later
obtains actual knowledge of it because “[w]hat is initially void is ever void and
life may not be breathed into it by lapse of time.” (citing Los Angeles v.
Morgan (1951) 105 Cal.App.2d 726, 731).
The Gorham court in reversing the trial court’s order denying the
Appellant’s Motion to Vacate and Set Aside the default judgment entered
against him stated:
“. . .because Gorham established through extrinsic
evidence that the default judgment was void for want of
personal jurisdiction over him, it had the same effect as if
it had been void on its face and the court had the inherent
26

50a

power to set it aside even though any statutory periods had
run.” Citing Thompson v. Cook (1942) 20 Cal.2d 564,569;
Munoz v. Lopez (1969) 275 Cal.App.2d 178, 182-183;
Morgan, supra,105 Cal.App.2d at p.732.
The argument is the Appellant herein was never served with process of
the underlying litigation. This lackof service violated Appellant’s fundamental
rights under the 5th and 14th Amendments to the U.S. Constitution and the trial
court failed to obtain jurisdiction over the Appellant. Therefore, it lacked
authority to issue the judgment in the underlying litigation and the power to
issue the final ruling denying the Appellant’s Petition to Vacate and Set Aside
the judgment in the underlying case.
2. The Settlement Order Is Void Because the Respondent
Trustee Admitted He Sent Notices to the Wrong Address
And Failed to Act Diligently to Discover Petitioner’s True
Address
In his declaration in opposition to Appellants, Trustee James Scott
Blevins declared as follows:
I was first alerted to Movants' involvement as
guardians for Jozlyn Thomas in 2009 by my then wife
Deena Blevins. My wife Deena had a phone call with Mary
Thomas on May 18,2009 wherein Mary Thomas explained
to Deena that her and Daniel Thomas were the guardians
for Jozlyn Thomas and that all mailings should be sent to
10 Belem Street, in Punta Gorda Florida. Prior to learning
of Movants' involvement, all correspondence and court
filings for Jozlyn Thomas were sent to addresses that based
on information and belief, were provided to me from either
Jozlyn Thomas' father, Joseph Giles, and/or Bobbette Giles
“3.

27

51a

prior to her death. These include the addresses Movants
claim that Jozlyn Thomas never resided at. Once I learned,
on or about May 18, 2009, that Jozlyn Thomas lived with
Movants I caused all communications and filings to be sent
to Movants at their address/’ (1 CT 60 atfj 3, lines 9-19)
In this declaration made under oath and dated and entered on May 4,
2018, trustee Blevins admits that the process required to be served on
Appellant as a benefici ary of the Trust, were sent to the wrong address during
the litigation of the underlying lawsuit, and that he did not know the
Appellant’s true address until the May 18,2009, telephone call which occurred
almost two weeks after the entry of the Settlement Order on May 8, 2009.
Case law has established that if a party admits facts showing that a
judgment is void, or allows such facts to be established without opposition,
then, as a question of law, a court must treat the judgment as void upon its
face. (Hill v. City Cab & Transfer Co. (1889) 79 Cal. 188, 191 [21 P. 728];
OC Interior Services, LLCv. Nationstar Mortgage, LLC (2017) 7 Cal.App.5th
1318, 1328-1329 [213 Cal.Rptr.3d 395].)
In this case the Respondent has admitted he sent required pleadings to
the wrong address (see above; see also California Rules of Court, Rule 7.51 (d)
and California Probate Code § 14601.1). Thus, the settlement order is void,
and it is the duty of the court to so declare as a matter of law. (Id.; Fidelity
Creditor Service, Inc. v. Browne (2001) 89 Cal.App.4th 195, 205 [106
Cal.Rptr.2d 854].)
Further, Respondent did not act diligently to find the correct address.
On information, he claims that the address(es) were given to him either by
28

52a

trustor Bobette Giles before she died in 2004, which is highly unlikely, and
Appellant lived at one of the addresses on the proofs of service for only two
months, June and July, 2003. Further, had the Respondent asked, which he
failed to do, Appellant’s father, Joseph, incarcerated in the Florida Penal
System could have told Respondent the Appellant’s correct address. (1 CT 117
at

3, 4 lines 12-24.)
2. The Settlement Order Issued by the Trial Court Is Void
Because Extrinsic Fraud Existed to Prevent Appellant
from Protecting Her Interests as a Beneficiary of the Trust.
Extrinsic fraud is a concept that tends to encompass almost any set of

extrinsic circumstances which deprive a party of a fair adversary hearing.
Estate of Beard (1999) 71 Cal.4th 753, 772-773; In re Marriage ofModnick
(1983) 33 Cal.3d 897, 904-905 [191 Cal.Rptr. 629, 663 P.2d 187];/n re
Marriage of Park (1980) 27 Cal.3d 337, 342 [165 Cal.Rptr. 792, 612 P.2d
882], Generally, it arises when one party has in some way fraudulently been
prevented from presenting his or her claim or defense. (In re Marriage of
Modnick, supra, 33 Cal.3d at p. 905; Kulchar v. Kulchar (1969) 1 Cal.3d 467,
470-471 [82 Cal.Rptr-. 489,462 P.2d 17, 39 A.L.R.3d 1368].)
It is well settled law that the probate court is mandated to set aside court
orders procured or based on any order(s) procured by extrinsic fraud. Estate
of Sanders, (1985) 40 Cal.3d. 607, 614; Estate of Charters (1956) 46 Cal.2d
227,234. An appellate court has inherent equitable power to set aside a decree
for extrinsic fraud. (Crossv. Tustin (1951) 37 Cal.2d 821,825 [236P.2d 142].)
A final ruling, order, or judgment may be set aside based on extrinsic
29

53a

fraud.
As in the instant case an example of extrinsic fraud are misrepresen­
tations that cause a party to be unaware of a court date in a case in which they
are an interested party, to miss that date and to thereby not have his or her day
in court.
The appellate court in its final ruling on Appellant’s Petition to Vacate
and Set Aside apparently states that extrinsic fraud exists in this case (1 CT 10)
when the courts writes “ at sub-heading:
“Trackman Applies But Extrinsic Fraud Exists: ”
The court’s ruling seems to agree with Appellant that extrinsic fraud
existed, e.g., (1) Appellant was not served with process; (2) that process was
served at two separate addresses which neither were the residential address of
Appellant; (3) that Respondent could have discovered Appellant’s correct
address by asking Appellant’s father; (4) that but for Respondent’s lies and
misrepresentations in its verified pleadings that Appellant was an adult who
already received $25,000.00 and did not object to the settlement agreement, it
is likely that the trial court would not have accepted settlement agreement and
made it the central part of its final order.
A motion to vacate and set aside a final court order, ruling, or judgment
based on extrinsic fraud can be brought at any time and is not restricted by the
time limitations of CCP § 473.5 if the motion is brought diligently and within
a reasonable time from the date of discovery of the judgment. (Trackman v.
Kenney (2010), supra, at p. 181.)

30

54a

a. Appellant Through Her Grandparents/Guardians
Had No Actual Knowledge of the State Court
Litigation.
Appellant was a minor and was the ward of the guardian/grandparents
and Appellant’s legal and personal interests at all times were protected by
them.
Respondent in his response to Appellant’s Petition to Vacate and Set
Aside, argues that two 2011 letters, one dated February 15, 2011 and
September 8,2011, along with an attached waiver and release form provided
adequate notice to Petitioner of Dawn Morin’s lawsuit herein. (1 CT 89-90)
Certainly, there is general reference to Dawn Morin’s case as alleged
in the Response. However, Respondents have not shown that the relevance of
the references alluded to in the letters offered sufficient notice or were
understood by the Appellant. There are no references to or descriptions of the
court or the county in which it presides or to any case number. Appellant’s
guardian/ grandparents, who were elderly and retired and were not versed in
the intricacies, nuances, or complexities of the law. They cannot be expected
to understand and comprehend the legal and factual impact of what they were
reading. They certainly understood their granddaughter was receiving an
inheritance from her paternal grandfather but had no idea that there was a
contested lawsuit in which the Appellant was an interested indispensable party.
Had they known and understood this fact, they would have objected to the
settlement as being against the interest of the-Appellant and the intent of-the
settlors.
Further, the Grandparents/Guardians have declared under penalty
31

-

55a

of peijury that they did not know that the case existed until on or about
October 25-27, 2017. (Coining from these credible people, this should
carry much weight.) (1 CT 9-10; 1 CT 6)
B.

THE WAIVER AND RELEASE SIGNED BY APPELLANT’S
GUARDIAN/GRANDPARENTS IS A NULLITY WITHOUT
EFFECT.
In the court’s final ruling on Appellant’s Motion to Set Aside and

Vacate, the court states:
In addition, parties may waive the protection of Civil Code
section 1542 if they understand and consciously agree to such
waiver, and there is no ambiguity or evidence of fraud, undue
influence or mistake. Jefferson v. California Dept, of Youth
Authority (2002) 28 Cal.4th 299, 307 (1 CT 3, lines 8-11)
Attached to the September 8,2011, letter is a form entitled “Release of
Liability of Trustee and Waiver of Accounting”. (“Release and Waiver”)
(Please see September 8, 2011, letter attached as Exhibit C to Notice of
Lodgment. [1 CT 121, lines 15-17.) This Release and Waiver was signed by
the Grandparents/Guardians of Appellant, Daniel and Mary Thomas.
However, a close reading of the letter the onto which the Release and
Waiver is attached, at the end of the letter, is the following:
“With regard to distribution of your respective shares of the Reserve
Account, I am also enclosing a Waiver of Accounting and Release of
Liability of Trustee. Please review the waiver and release, and sign
w'here indicated. Please return the original document to me in the
envelope provided. Once all signed waivers are received, original
checks will be immediately forwarded directly to each of you.”
(Emphasis added.) (Please see September 8, 2011, letter attached
hereto as Exhibit B.)
32

56a

A reasonable and compelling interpretation of that paragraph would be
that disbursement of the funds in the reserve account would be sent to the
addressed beneficiaries only if all addressed beneficiaries signed the Release
and Waiver form and returned using the envelope provided.
Appellant herein alleges that this is the correct interpretation of this
paragraph and that Appellant’s understood its coerciveness and signed the
release.
Probate Code § 16004.5 applies. It states:
§ 16004.5. Relief of trustee from liability as condition for making
distribution or payment prohibited
(a)

A trustee may not require a beneficiary to relieve the
trustee of liability as a condition for making a
distribution or payment to, or for the benefit of, the
beneficiary, if the distribution or payment is required by
the trust instrument.

(b). . . (Emphasis added.)
Since the Trust requires the disbursement of the Trust assets, and since
the funds reposing in the Reserve Account are Trust assets, § 16004.5 is on
point and applies here. The September 8, 2011, makes clear that release of
funds of the Trust to the beneficiaries, including Appellant, was conditioned
upon the signing of the Release and Waiver. This is prohibited by § 16004.5,
and the legal impact of the signed Release and Waiver is nullified. Bellows v.
Bellows (2011) 196 Cal.App.4th 505 [125 Cal.Rptr.3d.401]; Lawson v. Lawson
(D.Nev. Nov. 13,20.14,No. 3:.14-cv-00345-XRH-WGC) 20r4U:s:DisfLEXIS' "
160354.
33

i

57a

VII. CONCLUSION
For the reasons stated above. Appellant respectfully requests this court to
remand the case back to the Stanislaus County Superior Court with directions to
vacate and set aside the final Order entered May 5, 2009, in which the settlement
agreement was affirmed. Further, Appellant requests this court remand this case
back to the trial court with further directions that the Trial Judge conduct further
proceedings consistent with this court’s ruling.
Appellant requests that attorney’s fees and costs be assessed against
Respondent.
Respectfully submitted,

Dated: June 1, 2019.

/s/
Jozlvn Thomas
Appellant

34

58a

CERTIFICATE OF WORD COUNT
I certify that according to the computer program used to prepare this brief,
the Appellant’s Opening Brief contains 6,321 words, not including the cover, the
Tables of Contents and Authorities, the Certificate of Interested Entities or
Persons, this certificate and the signature block.
I declare under penalty of perjuiy under the laws of the State of California
that the foregoing is true and correct.
Dated: June 1, 2019.

/s/
Jozlyn Thomas
Appellant

35

59a

PROOF OF SERVICE
I Do Hereby Declare As Follows:
That I am a citizen, over the legal age of 18 years and not a party to the
within litigation
That my residence address is 2838 The Esplanade, #15, Chico, California 95973
That on the date entered below, I served the attached Appellant’s Opening
Brief by placing a true copy thereof in envelopes addressed to the persons named
below at the addresses shown, and by sealing and depositing that envelope in the
United States Mail at Chico, California, with fully prepaid postage. There is delivery
service by the United States Postal Service to each of the places so addressed.
This Appellant’s Opening Brief was served on the interested parties at the
addresses as listed below:
California Supreme Court
350 McAllister Street Second Floor
San Francisco, CA 94102

Stanislaus County Superior Court
800 11th St.
Modesto, CA 95354

Michael Gianelli
Gianelli & Associates
1014 16th Street
Modesto, CA 95354

Christopher Ramey
Ramey Litigation Group APC
3838 Camino Del Rio N, Suite 120
San Diego, CA 92108-1762

Anthony Giles
5613 Lowell Street
Everett, Washington 98203-3910

William Blevins
337 Ruess Road
Ripon, CA 95366

Boys & Girls Club of Manteca
Beneficiary
545 W. Alameda Street
Manteca, CA 95336

Brent Blevins
7887 Koftinow Ct.
Manteca, CA 95336

36

60a

Bryan Blevins
2091 Willow Lane
Lakewood, Colorado 80215

Charles W. Giles, Jr.
P.O. Box 13282
Everett, Washington 98206

Dawn Morin.
Beneficiary
P.O. Box 8198
Surprise, Arizona 85374

James Scott Blevins
901 Opal Lane
Ripon, CA 95366

Joseph Giles
20683 Waalew Road, Space 123-B
Apple Valley, CA 92307

Kelly Bergman
172 Joseph Court
Ripon, CA 95366

Michael Giles
5613 Lowell Street
Everett, Washington 98203-3910

St. Vincent de Pauls Society
525 East North Street
Manteca, CA 95336

Stoney Dahlberg
P.O. Box 578217
Modesto, CA 95357

/si

Dated: June 28, 2019.

Larry Dick

37

61a

PROOF OF SERVICE

I Do Hereby Declare As Follows:
That I am a citizen, over the legal age of 18 years and not a party to the within litigation.
That my residence address is 2838 The Esplanade, #15, Chico, California 95973
That on the date entered below, I served a true copy of:
APPELLANT’S OPENING BRIIEF
by placing in an envelope addressed to the court named below at the address shown, and by
sealing and depositing that envelope in the United States Mail at Chico, California, with fully
prepaid postage. There is del ivery service by the United States Postal Service to the place so
addressed.
This Appellant’s Opening Brief was served on the interested parties at the address as listed
below:
Stanislaus County Superior Court
800 11th St,
I declare under penalty of perjury under the laws of the State of California that tire foregoing is
true and correct.
June 3, 2019.

/s/
Larry Dick

24a
APPENDIX C
IN THE COURT OF APPEAL OF THE STATE OF CALIFORNIA
FIFTH APPELLATE DISTRICT

JOZLYN THOMAS,

Court of Appeal
No. F078333

Appellant/Petitioner,
vs.

(Superior Court Case No. 428536)

JAMES SCOTT BLEVINS,
Respondent.

Appeal from a final order denying Appellant’s Motion to vacate and set
aside Final Ruling the superior court of California, County of Stanislaus
The Honorable Stacy P. Speiller, Judge

APPELLANT’S OPENING BRIEF

Jozlyn Thomas
10 Belem Street
Punta Gorda, Florida 33983
Tel: (941)456-4000

1

25a
APP-008

TO BE FILED IN THE COURT OF APPEAL
COURT OF APPEAL CASE NUMBER:

COURT OF APPEAL

FIFTH APPELLATE DISTRICT, DIVISION
STATE BAR NUMBER:

ATTORNEY OR PARTY WITHOUT ATTORNEY:

name:

F078333
SUPERIOR COURT CASE NUMBER:

JOZLYN THOMAS

428536

FIRM NAME: |N PRO PER
STREET ADDRESS: 10 BELEM STREET
CITY: PUNTA GORDA

state:

TELEPHONE NO.:

FAX NO.:

FLA

zip code:

33983

E-MAIL ADDRESS:
ATTORNEY FOR (name):

APPELLANT/ JOZLYN THOMAS
PETITIONER:
JAMES SCOTT BLEVINS
RESPONDENT/
REAL PARTY IN INTEREST:
CERTIFICATE OF INTERESTED ENTITIES OR PERSONS
(Check one):

Qc] INITIAL CERTIFICATE

□□ SUPPLEMENTAL CERTIFICATE

Notice: Please read rules 8.208 and 8.488 before completing this form. You may use this form for the initial
certificate in an appeal when you file your brief or a prebriefing motion, application, or opposition to such a
motion or application in the Court of Appeal, and when you file a petition for an extraordinary writ. You may
also use this form as a supplemental certificate when you learn of changed or additional information that must
be disclosed.

1. This form is being submitted on behalf of the following party (name ): JOZLYN THOMAS
2. a. |

j There are no interested entities or persons that must be listed in this certificate under rule 8.208.

b. I x | Interested entities or persons required to be listed under rule 8.208 are as follows:
Full name of interested
entity or person

Nature of interest
(Explain):

(1) ANTHONY GILES

BENEFICIARY - GILES REVOCABLE TRUST

(2) WILLIAM BLEVINS

BENEFICIARY - GILES REVOCABLE TRUST

(3) BOYS & GIRLS CLUB OF MANTECA

BENEFICIARY - GILES REVOCABLE TRUST

(4) BRENT BLEVINS

BENEFICIARY - GILES REVOCABLE TRUST

(5) CHARLES W. GILES

BENEFICIARY - GILES REVOCABLE TRUST

I x l Continued on attachment 2.

The undersigned certifies that the above-listed persons or entities (corporations, partnerships, firms, or any other
association, but not including government entities or their agencies) have either (1) an ownership interest of 10 percent or
more in the party if it is an entity; or (2) a financial or other interest in the outcome of the proceeding that the justices
should consider in determining whether to disqualify themselves, as defined in rule 8.208(e)(2).

Date: JUNE 1, 2019

)►/§/

JOZLYN THOMAS
(TYPE OR PRINT NAME)

{SIGNATURE OF APPELLANT OR ATTORNEY)
Page 1 of 1

Form Approved for Optional Use
Judicial Council of California
APP-008 [Rev. January 1,2017]

CERTIFICATE OF INTERESTED ENTITIES OR PERSONS
2

Cal. Rules of Court, rules 8.208, 8.488
www. courts, ca. gov

26a

ATTACHMENT 2
TO CERTIFICATE OF INTERESTED ENTITIES OR PERSONS
NAMES OF INTERESTED PERSONS

NATURE OF INTEREST:

Bryan Blevins

BENEFICIARY - GILES REVOCABLE TRUST

Dawn Morin

BENEFICIARY - GILES REVOCABLE TRUST

James Scott Blevins

BENEFICIARY AND TRUSTEE OF
GILES REVOCABLE TRUST

Joseph Giles

BENEFICIARY - GILES REVOCABLE TRUST

Kelly Bergman

BENEFICIARY - GILES REVOCABLE TRUST

Michael Giles

BENEFICIARY - GILES REVOCABLE TRUST

St. Vincent de Pauls Society

BENEFICIARY - GILES REVOCABLE TRUST

Stoney Dahlberg

BENEFICIARY - GILES REVOCABLE TRUST

3

27a

IN THE COURT OF APPEAL OF THE STATE OF CALIFORNIA
FIFTH APPELLATE DISTRICT

Court of Appeal
No. F078333

JOZLYN THOMAS,
Appellant/Petitioner,

(Superior Court Case No. 428536)

vs.
JAMES SCOTT BLEVINS,
Respondent.
/

Appeal from a final order denying Appellant’s Motion to vacate and set
aside Final Ruling the superior court of California, County of Stanislaus
The Honorable Stacy P. Speiller, Judge

APPELLANT’S OPENING BRIEF

Jozlyn Thomas
10 Belem Street
Punta Gorda, Florida 33983
Tel: (941)456-4000

4

28a
TABLE OF CONTENTS
TABLE OF AUTHORITIES

7

1.STATEMENT OF THE CASE,

10

IISTATEMENT OF FACTS....

10

^PROCEDURAL FACTS

17

IV. LEGAL FINDINGS OF THE TRIAL COURT,

19

V. STATEMENT OF APPEALABILITY

20

VI.THE STANDARD OF REVIEW

.20

VII. ARGUMENT

21

A. THE SETTLEMENT ORDER OF THE TRIAL
COURT IS VOID AND SHOULD BE VACATED
AND SET ASIDE BECAUSE:....................................

21

1. The Judgment in the Trial Court Proceedings
is Void Because the Trial Court Failed to
Obtain Personal Fundamental Jurisdiction
Over the Appellant Caused by Respondent’s
Failure to Serve Notice of the Trial Court
Proceedings on the Appellant..............................

.21

2. The Settlement Order Is Void Because the
Respondent Trustee Admitted He Sent Notices
to the Wrong Address And Failed to Act Diligently
to Discover Petitioner’s True Address..........................

,27

3. The Settlement Order Issued by the TriarCourt
Is Void Because Extrinsic Fraud Existed to Prevent
Appellant From Protecting Her Interests as a
Beneficiary of the Trust..........................................

29

5

29a

a. Appellant, Through Her Grandparents/Guardians,
Had No Actual Knowledge of the State Court
Litigation..................................................................
B.

THE WAIVER AND RELEASE SIGNED BY APPELLANT’S
GUARDIAN/GRANDPARENTS IS A NULLITY WITHOUT
EFFECT....................................................................................

31

32
34

VIII. CONCLUSION

6

30a

TABLE OF AUTHORITIES
CASES:
CASE NAMES:

Page:

Armstrong v. Manzo
380 U. S. 545,550(1965),

21,22

Bellows v. Bellows (2011)
196 Cal.App.4th 505 [125 Cal.RptT.3d 401]

34

County of San Diego v. Gorham (2010)
186 Cal.App.4th 1215 [113 Cal.Rptr.3d 147]

22, 35

Duran v. Obesity Research Institute, LLC,
1 Cal.App.5th 635 [204 Cal.Rptr.3d 896]..

.23

Dusenbety v. United States (2002)
534 U.S. 161 [122 S.Ct. 694, 151 L.Ed.2d 597]

23

Estate of Lacy (1975)
54 Cal.App.3d 172 [126 Cal.Rptr. 432]

23,34

Estate ofReed (1968)
259 Cal. App. 2d 14 [66 Cal.Rptr. 193]

23,34

Fidelity Creditor Service, Inc. v. Browne (2001)
89 Cal.App.4th 195, 205 [106 Cal.Rptr.2d 854].,

29

Hill v. City Cab & Transfer Co. (1889)
79 Cal. 188, 191 [21 P. 728]................

28

Jefferson v. California Dept, of Youth Authority (2001)
109 Cal.Rptr.2d 300 [26 P.3d 1038].............................

32

Lawson v. Lawson
(D.Nev. Nov. 13, 2014, No. 3:14-cv-00345-LRH-WGC)
2014 U.S. Dist.LEXIS 160354........................................

34

7

31a

Lee v. An (2008)
168 Cal.App.4th 558, 564 [85 Cal. Rptr. 3d 620]

.25

Los Angeles v. Morgan (1951)
105 Cal.App.2d 726 [234 P.2d 319]

26

Mathews v. Eldridge (1976)
424 U.S. 319 [96 S.Ct. 893, 47 L.Ed.2d 18]

22

Mullane v. Cent. Hanover Bank & Trust Co. (1950)
339 U.S. 306 [70 S.Ct. 652, 94 L.Ed. 865]...............

.22, 23

Munoz v. Lopez (1969)
275 Cal.App.2d 178 [79 Cal.Rptr. 563]

26

OC Interior Services, LLCv. Nations tar Mortgage, LLC (2017)
7 Cal.App.5th 1318 [213 Cal.Rptr.3d 395].......................................

.28

Pennoyer v. Neff{ 1877)
95 U.S. 714 [24 L.Ed. 565]

22

People v. American Contractors Indemnity Co. (2004)
33 Cal.4th 653 [16 Cal.Rptr.3d 76, 93 P.3d 1020].......

,24

Peralta v. Heights Medical Center, Inc. (1988)
485 U.S. [80,] 84 [99 L.Ed.2d 75, 108 S.Ct. 896]

.25

Professional Engineers in California Government v. Kempton (2007)
40 Cal.4th 1016, 1032 [56 Cal.Rptr.3d 814, 155 P.3d 226]...................

,20

Rockefeller Technology Investments (Asia) VII v.
Changzhou SinoType Technology Co., Ltd. (2018)
24 Cal.App.5th 115 [233 Cal.Rptr.3d 814].............

,22, 24, 25

Sakaguchi v. Sakaguchi (2009)
173 Cal.App.4th 852, 858 [92 Cal.Rptr.3d 717]

2.1

Strathvale Holdings v. E.B.H. (2005)
126 Cal.App.4th 1241 [25 Cal.Rptr.3d 372]

24

8

32a

Stratton v. First Nat. Life Ins. Co. (1989)
210 Cal.App.3d 1071 [258 Cal.Rptr. 721]

.21

Thompson v. Cook (1942)
20 Cal.2d 564 [127 P.2d 909]..... ...........:....
Trackman v. Kenney (2010)
187 Cal.App.4th 175 [114 Cal.Rptr.3d 619]

26
.20,21,30,31

United Student Aid Funds, Inc. v. Espinosa (2010)
559 U.S. 260 [130 S.Ct. 1367, 176 L.Ed.2d 158]...
World- Wide Volkswagen Corp. v. Woodson
444 U. S. 286, 291 (1980) [100 S.Ct. 559, 62 L. Ed.2d 490]
Zenith Radio Corp. v. Hazeltine Research (1969)
395 U.S. 100 [89 S.Ct. 1562, 23 L.Ed.2d 129].....

.23

22, 23

22

STATUTES:
Code of Civil Procedure §473

.22

California Code of Civil Procedure § 473(d)

14, 22

California Code of Civil Procedure § 473.5

22, 34,25,31

Code of Civil Procedure, § 904.1(a)(2)

20

California Probate Code § 14601.1

29

Probate Code § 16004.5

33

California Probate Code § 17200

13,24,18

California Probate Code § 16420

13, 18

U.S. CONSTITUTION:
U.S. Constitution, 5th Amendment.

23, 27

U.S. Constitution, 14th Amendment.

23, 10
9

33a

I. STATEMENT OF THE CASE
This appeal challenges the final ruling of the trial court which denied
Appellant’s “Petition to Reopen Estate Administration and to Vacate and Set
Aside Order Approving and Settling Amended Account and Report of Trustee;
Order Approving Agreement Between Trustee and Dawn Morin; Order
Approving Distribution Plan and Allowing Payment of Trustee’s Fees”
(“Petition to Vacate and Set Aside”) (1 CT 129). Appellant, a minor until June
2018, alleges that neither she, nor her parents, nor her guardian/grandparents
were served with process on her behalf in this probate trust distribution case
in which Appellant was named a beneficiary to a revocable family trust. (1 CT
10, 15, 18) With almost no exceptions, Appellant does not object to the facts
and descriptions described by the trial court in its ruling. Without waiving her
rights, if any, to object to facts contained in the ruling of the trial court, and for
the purpose of this opening brief, Appellant does not object to the facts as
described by the trial court in its ruling.
II. STATEMENT OF FACTS
Appellant was bom on June 20, 2000. (1 CT 8, 17) On or about 2006
Appellant was constructively abandoned in Wisconsin by her parents caused
by their excessive drug use. In June 2006 w'hen Appellant was 6 years old, the
Racine County ( Wisconsin) Human Sendees, took custody of Appellant.
In that same year, Appellant’s maternal grandparents, Daniel and Mary
Thomas, stepped forward and filed for guardianship of the person and the
estate of the Appellant. Guardianship was granted by the Wisconsin Court, and
until June 20, 2018, when Appellant reached the age of majority, Dan and
Mary Thomas raised their grandchild, the Appellant. (I CT 8, 13)
On January 18,2002, Charles L. Giles, Appellant’s paternal grandfather
and Bobette Giles, Appellant’s step-grandmother created a revocable family
10

34a

trust entitled Giles Revocable Trust, (hereafter “Trust”). At the time, Charles
had two sons from a former marriage; Charles W. Giles (deceased) and Joseph
Giles (Appellant’s father). Bobette had five (5) children from a former
marriage; James Scott Blevins, William Blevins, Brent Blevins, Bryan Blevins
and Kelly Bergman. Charles and Bobette were the initial trustees of the Trust
created as a revocable inter vivos trust. Bobette's son James was designated as
the successor trustee upon the death of the settl ors, Charles and Bobette. (1 CT
129)
The Trust

specifically provided for some of Charles L. Giles’

grandchildren through his deceased son Charles W. Giles. They were Charles
W. Giles, Jr., Anthony L. Giles, and Michael Giles. Charles also provided for
his son Joseph's daughter, the Appellant. (1 CT 130)
Essentially the Trust assets, valued in the millions of dollars, were
supposed to be placed into three different sub-trusts upon the death of the first
spouse; here Charles who died on April 2,2003. (1 CT 130)
Upon Charles’ death a marital share trust was supposed to be created
and funded to the extent of the federal marital estate tax exemption amount in
order to reduce and/or eliminate taxes at the time of the surviving spouse's
death. Second, a family share trust was to be created, which would hold the
"community property share" of the deceased spouse as well as the balance of
that spouse's separate property (if any). Third, a "surviving spouse" trust was
supposed to be created to hold the surviving spouse's share of the community
property as well as that spouse's separate property (if any). The "surviving
spouse" was to maintain control over all the "assets" in the surviving spouse
trust and upon his or her death, those assets were to be equally divided
between the surviving spouse's beneficiaries. (1 CT .130)
Trustor Charles died first, and this is what was supposed to happen:
11

35a

Immediately upon Charles’ death, Stoney Dahlberg, a granddaughter of
Charles L. Giles and daughter of Charles W. Giles, was to receive $1,000.
Dawn Morin, who Charles L. Giles treated as a daughter, but who was not,
was to receive $25,000, and "each living grandchild" was to receive $25,000,
including Appellant. (1 CT 130)
Then, upon Bobette's death on December 31, 2004, the following
beneficiaries inheriting the balance of the marital share and family share sub­
trusts were: Joseph Giles ($50,000 conditional upon his refraining from the use
of illicit drugs); 10% to the Boys & Girls Club of Manteca, 10% to St.
Vincent de Paul's; and 10% to "each living grandchild" (there were four (4) at
the time of Bobette's death including the Appellant). The "remainder" of the
marital share and family share sub-trusts were left to Dawn Morin. Thus,
Appellant was to inherit 10% of the remaining value of the marital share and
family share sub-trusts, and Dawn Morin weuld receive about 40% of the
assets left in those two sub-trusts . (1 CT 130)
James Blevins, the successor trustee did not Administer the Trust nor
did he submit and accounting to the court or the beneficiaries of the Trust
until, finally, in June 2008 Dawn Morin filed a declaratory relief action in
Federal Court to secure a decision that her petition w'ould not be deemed a
“contest" of the trust's provisions which would invoice the "no contest clause"
of the Trust. This federal action was dismissed. Dawn Morin then filed a
petition seeking "information and an accounting" from James Blevins, the
successor trustee. This petition also alleged that James Blevins was improperly
attempting to sell trust property to his brother (another of Bobette's
12

36a

beneficiaries) at an inappropriate discount. Additional ly, there were questions
as to the delay in funding the sub-trusts, as well as questions concerning some
transactions Bobette had undertaken during her lifetime (with regard to
inappropriately giving her children money), and the allocation to Respondenr
James Blevins of shares of stock in a trucking company, Mountain Valley
Express (“M VE”) owned by the Trust. (1 CT 131)
On April 10, 2008, trustee Blevins file a PETITION TO APPROVE
AND CONFIRM ACCOUNT AND REPORT OF TRUSTEE; APPROVAL
OF PROPOSED DISTRIBUTION AND PAYMENT OF TRUSTEE’S FEES;
CONSENT OF TRUSTEE OF BENEFICIARIES' TRUST.
On June 11, 2008, Dawn Morin filed her PETITION TO COMPEL
PERFORMANCE OF RESPONDENT'S DUTIES AS TRUSTEE OR IN THE
ALTERNATIVE REMOVE THE TRUSTEE PURSUANT TO PROBATE
CODE §§ 17200 AND 16420.
James Blevins as the trustee of the Trust objected to Dawn Morin's
petition, offering expected explanations for each of the challenged actions.
After settlement negotiations, the parties reached an agreement in March 2009.
Thereafter, on March 25, 2009, lames filed an amended petition seeking
approval of a distribution plan pursuant to which Dawn Morin received
slightly less than her designated 40% of the two sub-trusts. Notably, pursuant
to the plan, Petitioner also received less than 10% of the sub-trusts. (1 CT
131)
On April 10,2008, trustee James Blevins filed his verified “Petition to
Approve and Confirm Account and Report of the Trustee; Approval of
13

37a

Proposed Distribution and Payment of Trustee’s Fees; Consent of Trustee of
Beneficiaries’ Trust [Probate Code § 17200]”. (“Respondent’s Verified
Petition” attached to Notice of Lodgment as Exhibit C to “Points and
Authorities in Support of Petition to Reopen Estate Administration and to
Vacate and Set Aside Order Approving and Settling Amended Account and
Report of Trustee; Order Approving Agreement Between Trustee and Dawn
Morin; Order Approving Distribution Plan and Allowing Payment of Trustee ’ s
Fees (Probate Code § 17200, etseq.; CCP § 473(d))” (“Appellant’s Points and
Authorities to Motion to Set Aside and Vacate”) (1 CT 22)
On March 25,2009, trustee Blevins filed a verified “Amended Petition
to Approve and Confirm Account and Report of the Trustee; Petition to
Approve Agreement Between Trustee and Dawn Morin; Approval of
Distribution Plan and Payment of Trustee’s Fees; [Probate Code § 17200]”.
(“Respondent’s Amended Verified Petition”) (Attached to Notice of Lodgment
as Exhibit G to Appellant’s Points and Authorities to Motion to Set Aside and
Vacate”) (1 CT 22)
It is important to note that Trustee Blevins declares on page 3, at 4.,
lines 2-10 of Respondent’s Verified Petition and again on page 3, at f 4., lines
1-9 of Respondent’s Amended Verified petition, that $25,000.00 had already
been distributed to Jozlyn Thomas. (Please see Exhibits C) (1 CT 22)
This allegation is patently untrue, and Respondent admits the same
when in his “Declaration of James Scott Blevins in Support of Opposition to
Petition to Reopen Estate Administration and to Vacate and Set Aside Order
Approving and Settling Amended Account and Report of Trustee and Dawn
14

38a

Morin; Order Approving Agreement Between Trustee and Dawn Morin; Order
Approving Distribution Plan and Allowing Payment of Trustee's Fees” he
declares under penalty of perjury that the check sent to Dan and Mary Thomas
as guardians of the estate of Jozlyn Thomas was part of the distribution
required after Charles L. Giles’ death. It is attached as Exhibit A to this
declaration and dated March 3, 2010. (1 CT 59-60) Yet, in his verified April
10,2008 petition and his March 25,2009, amended petition he declared to the
court that this amount had already been paid.
It is further alleged in the same documents, Respondent’s Verified
Petition on p. 4, f 4, at lines 14-15, (Exhibit C) and again in Respondent’s
Amended Verified Petition on p. 4, 11 4, at lines 6-7, (Exhibit G) the
Respondent declares:
"At all time herein relevant, tire above beneficiaries are
adults. Below is a list of all beneficiaries and interested
persons who are at all times herein mentioned adults, and
their addresses:..." (Emphasis added.)
He then goes on to list the names and addresses of a group of beneficiaries/
interested persons including the Appellant herein as:
Jozlyn Thomas
25030 Sandhill Blvd., #4b2
Punta Gorda, FL 33983
(Emphasis added.)

.____

As described below, this was not her address. The address as written is a
vacant lot filled with brush and weeds. (1 CT 30)
15

39a

This allegation was false also. At the time Respondent Trustee Blevins
filed Respondent’s Verified Petition was only 6 years old and was 8 years old
when Respondent’s Verified Amended Petition was filed.
Respondent trustee actually knew both of the above allegation were
false, yet, he was willing to lie and misrepresent facts to the court in order to
push the settlement agreement through to allow the judge to approve of the
agreement entered into by the Respondent and Dawn Morin. It seems likely the
trial court would not have approved the settlement agreement but for the lies.
On April 29,2009, pursuant to the settlement agreement, Dawn Morin
dismissed her petition for “information and an accounting” with prejudice. (1
CT 131)
Appellant did not receive notice of this litigation. (1 CT 131,132) The
trial court found (1 CT 131-132) that service on Appellant was made by mail
to two "incorrect" addresses. Respondent mailed numerous notices to
Petitioner at the following two addresses: 25030 Sandhill Boulevard, #4b2,
Punta Gorda, Florida 33983 and 25050 Sandhill Boulevard, #4b2, Pimta
Gorda, Florida 33983. Most were sent to the 25030 address which was a
vacant lot. However, two notices were mailed to the 25050 address which
Appellant and her parents resided for a short period of time, June and July
2003, when Appellant was three (3) years old. (1 CT 133)
The Court in its final ruling on Appellant’s Motion to Vacate and Set
Aside argued at 1 CT 132 that the various services of process at the 25050
address was “actually correct”. (1 CT 132) It was unreasonable for Dawn
Morin, the original petitioner and James Scott Blevins, the Trustee, to
assume
16

40a

that the six year old Jozlyn still resided at the 25050 address when (1) the
petitioner, Dawm Morin, and the trustee James Scott Blevins, knew that
Jozlyn’s father, Joseph Giles, was housed in the Florida state prison system,
and he was served while in prison, and he knew the correct address for Jozlyn;
all they had to do was ask; (2) they should have' served Joseph on behalf of
Jozlyn if they had no knowledge of the Wisconsin guardianship; and (3) they
served Jozlyn at two different addresses. (Basic reasoning should indicate that
they had to know that one of the addresses was wrong.) This should have
prompted further diligence on the part of Dawn Morin and James Scott
Blevins’ to exert further effort (such as asking Jozlyn ’s father for her address)
to ascertain the Appellant Jozlyn’s accurate address. They did not do this.
Instead, they continued to serve Jozlyn at the wrong address(es) having the
impact of preventing Jozlyn from asserting her rights in the trial court
proceedings. (Please see Proofs of Service attached as Exhibit 1 to Notice of
Lodgment.)
As a result, neither Jozlyn nor her Grandparents/Guardians had actual
notice or legal notice of the existence of the Trust, and it was not until 2009 (1
CT 132, 133, 10, 15, 18) when the wife of the Trustee, Deena Blevins,
telephoned the Grandparents/Guardians did they learn that the Trust, but not
Dawn Morin’s case, existed and Jozlyn was a beneficiary entitled to
distribution of a portion of its assets. (1 CT 9, 14)
III. PROCEDURAL FACTS

----------

April 3, 2003:

Charles Giles’ died.

Dec. 31,2004:

Bobette Giles, died.
17

41a

July 24, 2007:

Dawn Morin, a 40% beneficiary of the Family and
Marital Trusts, filed a Petition for Declaratory Relief in
the Federal Court which was later dismissed for lack of
subject matter jurisdiction.

April 8, 2008:

Dawn Morin filed the initial (“safe harbor”) Petition
for Declaratory Relief with the Stanislaus County
Superior Court.

April 10,2008:

Trustee Blevins filed a PETITION TO APPROVE
AND CONFIRM ACCOUNT AND REPORT OF
TRUSTEE; APPROVAL OF PROPOSED
DISTRIBUTION AND PAYMENT OF TRUSTEE'S
FEES; CONSENT OF TRUSTEE OF
BENEFICIARIES' TRUST

May 13, 2008:

Pursuant to a stipulation between Blevins and Morin,
the Court ordered Dawn Morin’s case consolidated
with Trustee Blevin’s case.

June 11,2008:

Dawn Morin filed the PETITION TO COMPEL
PERFORMANCE OF RESPONDENT'S DUTIES AS
TRUSTEE OR IN THE ALTERN ATIVE REMOVE
THE TRUSTEE PURSUANT TO PROBATE CODE
§ § 17200 AND 16420

March 2, 2009:

At the Trial Settlement Conference of the consolidated
cases, the parties entered into a settlement agreement
and the Court issued its Minute Order incorporating the
18

42a

settlement agreement pursuant thereto.
March 25, 2009:

James Scott Blevins as Trustee to The Administrative
Trust, The Survivor’s Trust, The Family Trust and The
Marital Trust filed the Trustee’s Amended Petition.

April 29, 2009:

Petitioner Dawn Morin filed a Request for Dismissal
with prejudice of her case.

May 5, 2009:

The Court issued an Order pursuant to the settlement
agreement which was entered on May 6, 2009.

May 6, 2009:

Petitioner Dawn Morin filed a Notice of Entry of
Dismissal and Proof of Service.

March 26, 2018:

Appellant filed her Petition to Vacate and Set Aside
the May 5, 2009, Order.

May 4, 2018:

Opposition to Appellant’s Petition to Vacate and Set
Aside filed.

November 1,2018: Appellant filed Notice of Appeal.
IV. LEGAL FINDINGS OF THE TRIAL COURT
It is difficult to excise the legal findings of the trial court due to
ambiguity as to whether the Opposition to Appellant’s Petition is, in actuality,
the legal findings of the Trial Court.
In her final ruling on Appellant’s Petition to Vacate and Set Aside,
stated in a sub-heading entitled, “Opposition to Motion by Successor
Trustee” (1 CT 136) The first three (3) paragraphs under this sub-heading
makes clear that these paragraphs are truly the arguments of the Respondent
Blevins.
19

43a

However the sub-headings to the sub-heading including “Guardian
of the Estate’s Objection:" (1 CT 136), “'Waiver and Signed Released’ (1
CT 136), “Two-Year “Statute ofLimitations" Applies” (1 CT 137), and
“Trackman Applies But Extrinsic Fraud Exists” (1 CT 139) notwithstanding
they appear to be sub-headings to the subheading “Opposition to Motion
by Successor Trustee” (1 CT 136), they, in fact are legal “findings” of the
court (1 CT 136 - 139) which act foundationally to support the court’s
ruling as the trial court concludes: “Conclusion: For all of the above-stated
reasons, the motion/petition to reopen distribution of the trust assets is
denied.”
V. STATEMENT OF APPEALABILITY
This appeal is from a Ruling of the Stanislaus Superior Court which
denied Appellant’s petition to vacate and set aside a previous Order of this
court made on May 5, 2009, pursuant to a settlement agreement. The ruling
denied Appellant’s petition and was final. This appeal is authorized by the
Code of Civil Procedure, § 904.1, subdivision (a)(2) and California Rules of
Court, Rule 8204(a)(2)(B).
VI. THE STANDARD OF REVIEW
The standard of review is de. novo.
If the trial court’s decision did not turn on few, if any disputed facts, the
dial court’s decision is subject to de novo review. {ProfessionalEngineers in
California Government v. Kempton

(2007) 40 Cal.4th 1016, 1032 [56

CaI.Rptr.3d 814, 155 P.3d 226].)
Though Appellant disputes a few, but not many, of the facts stated in
20

44a

the trial court ruling, such facts are not disputed or described here.
The issues in this appeal do not involve any disputed questions of fact.
The issue of whether a judgment is void due to improper service is a question
of law that should be reviewed cle novo. (Trackman v. Kenney (2010) 187
Cal.App.4th 175 [114 Cal.Rptr.3d 619]; Sakaguchi v. Sakaguchi (2009) 173
Cal.App.4th 852, 858 [92 Cal.Rptr.3d 717].)
When reviewing questions of law, an appellate court is not bound by
the trial court's reasons supporting its ruling. Instead, the Court of Appeal
reviews the ruling, but not the trial court's rationale, independently. (Stratton
v. First Nat.'l Life Ins. Co. (1989) 210 Cal.App.3d 1071, 1083.)
As a matter of law, only, Appellant appeals the October 1,2018, rul ing
of the trial court as follows and claims that the trial court abused it discretion
when it denied Appellant’s Petition to Vacate and Set Aside.
VIII. ARGUMENT

A.

THE SETTLEMENT ORDER OF THE TRIAL COURT IS VOID
AND SHOULD BE VACATED AND SET ASIDE BECAUSE:
1. The Judgment in the Trial Court Proceedings is Void
Because the Trial Court Failed to Obtain Personal
Fundamental Jurisdiction Over the Appellant Caused
by Respondent’s Failure to Serve Notice of the Trial
Court Proceedings on the Appellant.
An elementary and fundamental requirement of due process in

any proceeding which is to be accorded finality is notice reasonably
calculated, under the circumstances, to apprise interested parties of the

21

45a

pendency of the action and afford them the opportunity to present their
objections." Mullane v. Central Hanover Bank & Trust Co., 339 U. S.
306,314 (1950). Failure to give notice violates "the most rudimentary
demands of due process of law." {Armstrong v. Manzo, 380 U. S. 545,
550 (1965). See also World-Wide Volkswagen Corp. v. Woodson, 444
U. S. 286, 291 (1980); Mathews v. Eldridge, 424 U. S. 319, 333
(1976); Zenith Radio Corp. v. Ilazeltine Research, Inc., 395 U. S. 100,
110 (1969); Pennoyer v. Neff, 95 U. S. 714, 733 (1878).)
Appellant alleges that the final underlying settlement order and
the subsequent final ruling on Appellant’s Petition to Vacate and Set
Aside by the trial court were void because she was never served
process and had no actual notice of the proceedings. Cases have
distinguished between “void” and “voidable” judgments as being
whether the trial court acted in excess of its jurisdictional authority,
making the judgment voidable, versus issuing a judgment without
jurisdictional authority, making the judgment void. {Rockefeller
Technology Investments (Asia) VIIv. Changzhou SinoType Technology
Co., Ltd. (2018) 24 Cal.App.5th 115 [233 Cal.Rptr.3d 814]; County of
San Diego v. Gorham (2010) 186 Cal.App.4th 1215 [113 Cal.Rptr.3d
147].) Therefore, because the trial court did not obtain jurisdiction
over Appellant, the settlement order issued by the trial court was void.
In its final ruling on Appellant’s Motion to Vacate and Set
Aside, the trial court discusses Appellant’s argument that California
Code of Civil Procedure (“CCP”) §473(d) applies to allow the court
22

46a

the authority to vacate and set aside a void judgment. (1 CT 137-140).
It adopts, when possible, the application § 473.5 as a time limitation
to § 473 challenge to the judgment as being void for two years post
entry ofjudgment. With exceptions, CCP § 473.5 sets a “reasonable”
time limitation, not to exceed two (2) years from the date of entry of
the judgment. As the facts show, Appellant has exceeded this
limitation.
However, lack of service of process on an interested party who
has property interests in the outcome, violates that person’s
fundamental rights established under the 5th and 14th Amendments to
the U.S. Constitution which states that a person cannot be deprived of
“life, liberty, and property” without due process of law.
As a fundamental right, due process requires that an indispensable
interested party be given adequate notice of the suit and be subject to the
personal jurisdiction of the Court. (World-Wide Volkswagen Corp. v.
Woodson (1980), supra.)
Such notice must be reasonably calculated, under all the
circumstances, to apprise an interested party of the pendency of the
action and afford that person an opportunity to present his or her
objections. (Mullane v. Cent. Hanover Bank & Trust Co., supra;
United Student Aid Funds, Inc. v. Espinosa, 559 U.S. 260; Dusenbery
v. United States, 534 U.S. 161; see also Duran v. Obesity Research —
Institute, LLC, 1 Cal. App. 5th 635 (2016); Estate of Reed, supra;
Estate ofLacv (1975) 54 Cal. App. 3d 172.)
23

47a

Appellant was a named beneficiary of the Trust and thus an
interested and indispensable party to the proceedings. In the trial court,
the underlying consolidated proceeding negatively affected her rights
as a beneficiary and, therefore, she was entitled to reasonable due
process notice to allow her to present objections. The failure of Dawn
Morin, the Petitioner in the trial court proceedings, and the Trustee,
James Scott Blevins, to give Jozlyn constitutionally adequate notice
rendered the subsequent final settlement judgment void. (OCInterior
Sendees, LLC v. Nationstar Mortgage, LLC (2017) 7 Cal. App. 5th
1318; StrathvaleHoldings v. E.B.H.; People v. American Contractors
Indemnity Co., (2004) 33 Cal. 4th 653; Estate ofLacy supra; Estate of
Reed (1968) 259 Cal. App. 2d 14.)
In the recent case of Rockefeller Technology Investments (Asia)
VII v. Changzhou SinoType Technology> Co., Ltd. (2018) [24
Cal.App.5th 11.5 [233 Cal.Rptr.3d 814]], where a Chinese company
was not properly served with process as required by the Hague
Convention on the Service Abroad of Judicial and Extrajudicial
Documents in Civil and Commercial Matters, Nov. 15, 1965, 20
U.S.T. 361, 658 U.N.T.S. 163, the court found that because the
company was not properly served with the summons and petition
pursuant to the Hague Convention, the trial court did not acquire
jurisdiction over it, and the resulting judgment was void. (Id. at p.
134.) The court further stated that “California is a jurisdiction where
the original service of process, which confers jurisdiction, must
24

48a

conform to statutory requirements or all that follows is void.” (Id.)
The Rockefeller court further stated:
“Where the defendant establishes that he or she has not
been served as mandated by the statutory scheme, “no
personal jurisdiction by the court will have been
obtained and the resulting judgment will be void as
violating fundamental due process. (See Peralta[ v.
Heights Medical Center, Inc. (1988)] 485 U.S. [80,] 84 [99
L.Ed.2d 75, 108 S.Ct. 896].)” (Gorham, supra, 186
Cal.App.4th 1215, 1227, . . . [reversing order denying
motion to set aside a default judgment because plaintiff
had not been properly served with the summons and
complaint]; see also Renoir, supra, 123 Cal.App.4th at p.
1154 [“Because no summons was served on any of the
defendants and the defendants did not generally appear in
the proceeding, the trial court had no jurisdiction over
them. Therefore, the California judgment was void, as is
the order denying the motion to vacate the California
judgment.”]; Lee v. An (2008) 168 Cal.App.4th 558, 564
[85 Cal. Rptr. 3d 620] [“[I]f a defendant is not validly
served with a summons and complaint, the court lacks
personal jurisdiction and a ... judgment in such action is
subject to being set aside as void.”].) Rockefeller
Technology Investments (Asia) VII v. Changzhou SinoType
Technology Co., Ltd. (2018), supra, at pp. 134-135.
(Emphasis added..)
In its final ruling on Appellant’s Petition to Vacate and Set Aside, the
trial court herein argues that the Petition to Vacate and Set Aside whether the
two (2) year time limitations of Probate Code § 473.5 are applied, the Petition
to Vacate and Set Aside was unreasonably late. (1 CT 138) It is arguable
whether Dan and Mary Thomas knew or should have known of the original
25

49a

proceedings before 2017. This issue is irrelevant.
In the case County of San Diego v. Gorham (2010) 186 Cal.App.4th
1215 [ 113 Cal.Rptr.3d 147]], (“Gorham”) in this family law matter, the father
knew a default judgment was entered against him in 2002, but did not
challenge the judgment as being void for lack of service until 2008. (Id. at pp,
1223-1225) The trial court found that the motion to set aside the default
judgment was untimely and denied the motion, (Id. at p. 1225)
On appeal from this judgment, the appellant alleged that the trial court
abused its discretion when it denied his motion to set aside default judgment
based on lack of service. In agreeing with the appellant, the appellate court
reasoned that the trial court never obtained jurisdiction and the trial court’s
order violated the appellant’s fundamental rights. (Id. at 1225-1226). It further
reasoned that where it is shown that there has been a complete failure of
service of process upon a person, he generally has no duty to take affirmative
action to preserve his right to challenge the judgment or order even if he later
obtains actual knowledge of it because “[w]hat is initially void is ever void and
life may not be breathed into it by lapse of time.” (citing Los Angeles v.
Morgan (1951) 105 Cal.App.2d 726, 731).
The Gorham court in reversing the trial court’s order denying the
Appellant’s Motion to Vacate and Set Aside the default judgment entered
against him stated:
“. . .because Gorham established through extrinsic
evidence that the default judgment was void for want of
personal jurisdiction over him, it had the same effect as if
it had been void on its face and the court had the inherent
26

50a

power to set it aside even though any statutory periods had
run.” Citing Thompson v. Cook (1942) 20 Cal.2d 564,569;
Munoz v. Lopez (1969) 275 Cal.App.2d 178, 182-183;
Morgan, supra,105 Cal.App.2d at p.732.
The argument is the Appellant herein was never served with process of
the underlying litigation. This lack of service violated Appellant’s fundamental
rights under the 5th and 14th Amendments to the U.S. Constitution and the trial
court failed to obtain jurisdiction over the Appellant. Therefore, it lacked
authority to issue the judgment in the underlying litigation and the power to
issue the final ruling denying the Appellant’s Petition to Vacate and Set Aside
the judgment in the underlying case.
2. The Settlement Order Is Void Because the Respondent
Trustee Admitted He Sent Notices to the Wrong Address
And Failed to Act Diligently to Discover Petitioner’s True
Address
In his declaration in opposition to Appellants, Trustee James Scott
Blevins declared as follows:
I was first alerted to Movants' involvement as
guardians for Jozlyn Thomas in 2009 by my then wife
Deena Blevins. My wife Deena had a phone call with Mary
Thomas on May 18,2009 wherein Mary Thomas explained
to Deena that her and Daniel Thomas were the guardians
for Jozlyn Thomas and that all mailings should be sent to
10 Belem Street, in Punta Gorda Florida. Prior to learning
of Movants' involvement, all correspondence and court
filings for Jozlyn Thomas were sent to addresses that based
on information and belief, were provided to me from either
Jozlyn Thomas' father, Joseph Giles, and/or Bobbette Giles
“3.

27

51a

prior to her death. These include the addresses Movants
claim that Jozlyn Thomas never resided at. Once I learned,
on or about May 18, 2009, that Jozlyn Thomas lived with
Movants I caused all communications and filings to be sent
to Movants at their address/’ (1 CT 60 at ^ 3, lines 9-19)
In this declaration made under oath and dated and entered on May 4,
2018, trustee Blevins admits that the process required to be served on
Appellant as a benefici ary of the Trust, were sent to the wrong address during
the litigation of the underlying lawsuit, and that he did not know the
Appellant’s true address until the May 18,2009, telephone call which occurred
almost two weeks after the entry of the Settlement Order on May 8,2009.
Case law has established that if a party admits facts showing that a
judgment is void, or allows such facts to be established without opposition,
then, as a question of law, a court must treat the judgment as void upon its
face. (Hill v. City Cab & Transfer Co. (1889) 79 Cal. 188, 191 [21 P. 728];
OCInterior Services, LLCv. Nationstar Mortgage, LLC (2017) 7 Cal.App.5th
1318, 1328-1329 [213 Cal.Rptr.3d 395].)
In this case the Respondent has admitted he sent required pleadings to
the wrong address (see above; see also California Rules of Court, Rule 7.51 (d)
and California Probate Code § 14601.1). Thus, the settlement order is void,
and it is the duty of the court to so declare as a matter of law. (Id.; Fidelity
Creditor Service, Inc. v. Browne (2001) 89 Cal.App.4th 195, 205 [106
Cal.Rptr.2d 854].)
Further, Respondent did not act diligently to find the correct address.
On information, he claims that the address(es) were given to him either by
28

52a

trustor Bobette Giles before she died in 2004, which is highly unlikely, and
Appellant lived at one of the addresses on the proofs of service for only two
months, June and July, 2003. Further, had the Respondent asked, which he
failed to do, Appellant’s father, Joseph, incarcerated in the Florida Penal
System could have told Respondent the Appellant’s correct address. (1 CT 117

at Tin 3, 4 lines-12-24.)
2. The Settlement Order Issued by the Trial Court Is Void
Because Extrinsic Fraud Existed to Prevent Appellant
from Protecting Her Interests as a Beneficiary of the Trust.
Extrinsic fraud is a concept that tends to encompass almost any set of
extrinsic circumstances which deprive a party of a fair adversary hearing.
Estate of Beard (1999) 71 Cal.4th 753, 772-773; In re Marriage ofModnick
(1983) 33 Cal.3d 897, 904-905 [191 Cal.Rptr. 629, 663 P.2d 187];/n re
Marriage of Park {1980) 27 Cal.3d 337, 342 [165 Cal.Rptr. 792, 612 P.2d
882]. Generally, it arises when one party has in some way fraudulently been
prevented from presenting his or her claim or defense. {In re Marriage of
Modnick, supra, 33 Cal.3dat p. 905;Kulcharv. Kulchar (1969) 1 Cal.3d467,
470-471 [82 Cal.Rptr. 489, 462 P.2d 17, 39 A.L.R.3d 1368].)
It is well settled law that the probate court is mandated to set aside court
orders procured or based on any order(s) procured by extrinsic fraud. Estate
of Sanders, (1985) 40 Cal.3d. 607, 614; Estate of Charters (1956) 46 Cal.2d
227,234. An appellate court has inherent equitable power to set aside a decree
for extrinsic fraud. (Cross v. Tustin (\951) 37 Cal.2d 821,825 [236 P.2d 142].)
A final ruling, order, or judgment may be set aside based on extrinsic
29

53a

fraud.
As in the instant case an example of extrinsic fraud are misrepresen­
tations that cause a party to be unaware of a court date in a case in which they
are an interested party, to miss that date and to thereby not have his or her day
in court.
The appellate court in its final ruling on Appellant’s Petition to Vacate
and Set Aside apparently states that extrinsic fraud exists in this case (1 CT10)
when the courts writes “ at sub-heading:
“Trackman Applies But Extrinsic Fraud Exists: ”
The court’s ruling seems to agree with Appellant that extrinsic fraud
existed, e.g., (1) Appellant was not served with process; (2) that process was
served at two separate addresses which neither were the residential address of
Appellant; (3) that Respondent could have discovered Appellant’s correct
address by asking Appellant’s father; (4) that but for Respondent’s lies and
misrepresentations in its verified pleadings that Appellant was an adult who
already received §25,000.00 and did not object to the settlement agreement, it
is likely that the trial court would not have accepted settlement agreement and
made it the central part of its final order.
A motion to vacate and set aside a final court order, ruling, or judgment
based on extrinsic fraud can be brought at any time and is not restricted by the
time limitations of CCP § 473.5 if the motion is brought diligently and within
a reasonable time from the date of discovery of the judgment. (Trackman v.
Kenney (2010), supra, at p. 181.)

30

54a

a. Appellant Through Her Grandparents/Guardians
Had No Actual Knowledge of the State Court
Litigation.
Appellant was a minor and was the ward of the guardian/grandparents
and Appellant’s legal and personal interests at all times were protected by
them.
Respondent in his response to Appellant’s Petition to Vacate and Set
Aside, argues that two 2011 letters, one dated February 15, 2011 and
September 8,2011, along with an attached waiver and release form provided
adequate notice to Petitioner of Dawn Morin’s lawsuit herein. (1 CT 89-90)
Certainly, there is general reference to Dawn Morin’s case as alleged
in the Response. However, Respondents have not shown that the relevance of
the references alluded to in the letters offered sufficient notice or were
understood by the Appellant. There are no references to or descriptions of the
court or the county in which it presides or to any case number. Appellant’s
guardian/ grandparents, who were elderly and retired and were not versed in
the intricacies, nuances, or complexities of the law. They cannot be expected
to understand and comprehend the legal and factual impact of what they were
reading. They certainly understood their granddaughter was receiving an
inheritance from her paternal grandfather but had no idea that there was a
contested lawsuit in which the Appellant was an interested indispensable party.
Had they known and understood this fact, they would have objected to the
settlement as being against the interest of the Appellant and the intent of the
settlors.
Further, the Grandparents/Guardians have declared under penalty
31

55a

of perjury that they did not know that the case existed until on or about
October 25-27, 2017. (Coming from these credible people, this should
carry much weight.) (1 CT 9-10; 1 CT 6)
B.

THE WAIVER AND RELEASE SIGNED BY APPELLANT’S
GUARDIAN/GRANDPARENTS IS A NULLITY WITHOUT
EFFECT.
In the court’s final ruling on Appellant’s Motion to Set Aside and

Vacate, the court states:
In addition, parties may waive the protection of Civil Code
section 1542 if they understand and consciously agree to such
waiver, and there is no ambiguity or evidence of fraud, undue
influence or mistake. Jefferson v. California Dept, of Youth
Authority (2002) 28 Cal.4th 299, 307 (1 CT 3, lines 8-11)
Attached to the September 8,2011, letter is a form entitled “Release of
Liability of Trustee and Waiver of Accounting”. (“Release and Waiver”)
(Please see September 8, 2011, letter attached as Exhibit C to Notice of
Lodgment. [1 CT 121, lines 15-17.) This Release and Waiver was signed by
the Grandparents/Guardians of Appellant, Daniel and Mary Thomas.
However, a close reading of the letter the onto which the Release and
Waiver is attached, at the end of the letter, is the following:
“With regard to distribution of your respective shares of the Reserve
Account, I am also enclosing a Waiver of Accounting and Release of
Liability of Trustee. Please review the waiver and release, and sign
where indicated. Please return the original document to me in the
envelope provided. Once ail signed waivers are received, original
checks will be immediately forwarded directly to each of you.”
(Emphasis added.) (Please see September 8, 2011, letter attached
hereto as Exhibit B.)
32

56a

A reasonable and compelling interpretation of that paragraph would be
that disbursement of the funds in the reserve account would be sent to the
addressed beneficiaries only if all addressed beneficiaries signed the Release
and Waiver form and returned using the envelope provided.
Appellant herein alleges that this is the correct interpretation of this
paragraph and that Appellant’s understood its coerciveness and signed the
release.
Probate Code § 16004.5 applies. It states:
§ 16004.5. Relief of trustee from liability as condition for making
distribution or payment prohibited
(a)

A trustee may not require a beneficiary to relieve the
trustee of liability as a condition for making a
distribution or payment to, or for the benefit of, the
beneficiary, if the distribution or payment is required by
the trust instrument.

(b). . . (Emphasis added.)

Since the Trust requires the disbursement of the Trust assets, and since
the funds reposing in the Reserve Account are Trust assets, § 16004.5 is on
point and applies here. The September 8, 2011, makes clear that release of
funds of the Trust to the beneficiaries, including Appellant, was conditioned
upon the signing of the Release and Waiver. This is prohibited by § 16004.5,
and the legal impact of the signed Release and Waiver is nullified. Bellows v.
Bellows (2011)196 Cal.App.4th 505 [ 125 Cal.Rptr.3d 401 ]; Lawson v. Lawson
(D.Nev. Nov. 13,20.14, No. 3:14-cv-00345-LRH-WGC) 2014 U.S.Dist.LEXIS
160354.
33

57a

VII. CONCLUSION
For the reasons stated above, Appellant respectfully requests this court to
remand the case back to the Stanislaus County Superior Court with directions to
vacate and set aside the final Order entered May 5, 2009, in which the settlement
agreement was affirmed. Further, Appellant requests this court remand this case
back to the trial court with further directions that the Trial Judge conduct further
proceedings consistent with this court’s ruling.
Appellant requests that attorney’s fees and costs be assessed against
Respondent.
Respectfully submitted,

Dated: June 1, 2019.

/s/
Jozlyn Thomas
Appellant

34

58a

CERTIFICATE OF WORD COUNT
I certify that according to the computer program used to prepare this brief,
the Appellant’s Opening Brief contains 6,321 words, not including the cover, the
Tables of Contents and Authorities, the Certificate of Interested Entities or
Persons, this certificate and the signature block.
I declare under penalty of perjury under the laws of the State of California
that the foregoing is true and correct.
Dated: June 1, 2019.

/s/

Jozlyn Thomas
Appellant

35

59a

PROOF OF SERVICE
I Do Hereby Declare As Follows:
That I am a citizen, over the legal age of 18 years and not a party to the
within litigation
That my residence address is 2838 The Esplanade, #15, Chico, California 95973
That on the date entered below, I served the attached Appellant’s Opening
Brief by placing a true copy thereof in envelopes addressed to the persons named
below at the addresses shown, and by sealing and depositing that envelope in the
United States Mail at Chico, California, with fully prepaid postage. There is delivery
service by the Uni ted States Postal Service to each of the places so addressed.
This Appellant’s Opening Brief was served on the interested parties at the
addresses as listed below:
California Supreme Court
350 Mc Allister Street Second Floor
San Francisco, CA 94102'

Stanislaus County-’ Superior Court
800 11th St.
Modesto, CA 95354

Michael Gianelli
Gianelli & Associates
1014 16th Street
Modesto, CA 95354

Christopher Ramey
Ramey Litigation Group APC
3838 Camino Del Rio N, Suite 120
San Diego, CA 92108-1762

Anthony Giles
5613 Lowell Street
Everett, Washington 98203-3910

William Blevins
337 Ruess Road
Ripon, CA 95366

Boys & Girls Club of Manteca
Beneficiary
545 W. Alameda Street
Manteca, CA 95336

Brent Blevins
7887 Koftinow Ct. .
Manteca, CA 95336

36

60a

i

Bryan Blevins
2091 Willow Lane
Lakewood, Colorado 80215

Charles W. Giles, Jr.
P.O. Box 13282
Everett, Washington 98206

Dawn Morin
Beneficiary
P.O. Box 8198
Surprise, Arizona 85374

James Scott Blevins
901 Opal Lane
Ripon, CA 95366

Joseph Giles
20683 Waalew Road, Space 123-B
Apple Valley, CA 92307

Kelly Bergman
172 Joseph Court
Ripon, CA 95366

Michael Giles
5613 Lowell Street
Everett, Washington 98203-3910

St. Vincent de Pauls Society
525 East North Street
Manteca, CA 95336

Stoney Dahlberg
P.O. Box 578217
Modesto, CA 95357

/s/

Dated: June 28, 2019.

Larry Dick

37

61a

PROOF OF SERVICE

1 Do Hereby Declare As Follows:
That I am a citizen, over the legal age of 18 years and not a party to the within litigation.
That my residence address is 2838 The Esplanade, #15, Chico, California 95973
That on the date entered below, I served a true copy of:
APPELLANT’S OPENING BRIIEF
by placing in an envelope addressed to the court named below at the address shown, and by
sealing and depositing that envelope in the United States Mail at Chico, California, with fully
prepaid postage. There is delivery service by the United States Postal Service to the place so
addressed.
This Appellant’s Opening Brief was served on the in terested parties at the address as listed
below:
Stanislaus County Superior Court
800 11th St,
I declare under penalty of perjury under the laws of the State of California that the foregoing is
true and correct.
June 3, 2019.

/s/
Larry Dick

62a
APPENDIX D
IN THE COURT OF APPEAL OF THE STATE OF CALIFORNIA
FIFTH APPELLATE DISTRICT

' JOZLYN THOMAS,

Court of Appeal
No. F078333

Appellant/Petitioner,
vs.

(Superior Court Case No. 428536).

JAMES SCOTT BLEVINS,
Respondent.

Appeal from a final order denying Appellant’s Motion to vacate and set
aside Final Ruling the superior court of California, County of Stanislaus
The Honorable Stacy P. Speiller, Judge

APPELLANT’S REPLY BRIEF

Jozlyn Thomas
10 Belem Street
Punta Gorda, Florida 33983
Tel: (941) 456-4000

1

63a
APP-008

TO BE FILED IN THE COURT OF APPEAL
COURT OF APPEAL CASE NUMBER:

COURT OF APPEAL

FIFTH APPELLATE DISTRICT, DIVISION

F078333

STATE BAR NUMBER:

ATTORNEY OR PARTY WITHOUT ATTORNEY:

SUPERIOR COURT CASE NUMBER:

NAME: JOZLYN THOMAS
FIRM NAME: IN PRO PER
STREET ADDRESS: 10 BELEM STREET
city:

428536
state:

PUNTA GORDA

FLA

zip code:

33983

FAX NO.:

TELEPHONE NO.:
E-MAIL ADDRESS:
ATTORNEY FOR (name):

APPELLANT/ JOZLYN THOMAS
PETITIONER:
JAMES SCOTT BLEVINS
RESPONDENT/
REAL PARTY IN INTEREST:
CERTIFICATE OF INTERESTED ENTITIES OR PERSONS
(Check one):

[x] INITIAL CERTIFICATE

□□ SUPPLEMENTAL CERTIFICATE

Notice: Please read rules 8.208 and 8.488 before completing this form. You may use this form for the initial
certificate in an appeal when you file your brief or a prebriefing motion, application, or opposition to such a
motion or application in the Court of Appeal, and when you file a petition for an extraordinary writ. You may
also use this form as a supplemental certificate when you learn of changed or additional information that must
be disclosed.

1. This form is being submitted on behalf of the following party (name ): JOZLYN THOMAS
2. a. |

l There are no interested entities or persons that must be listed in this certificate under rule 8.208.

b. | x | Interested entities or persons required to be listed under rule 8.208 are as follows:
Nature of interest
(Explain):

Full name of interested
entity or person
(1) ANTHONY GILES

BENEFICIARY - GILES REVOCABLE TRUST

(2) WILLIAM BLEVINS

BENEFICIARY - GILES REVOCABLE TRUST

(3) BOYS & GIRLS CLUB OF MANTECA

BENEFICIARY - GILES REVOCABLE TRUST

(4) BRENT BLEVINS

BENEFICIARY - GILES REVOCABLE TRUST

(5) CHARLES W. GILES

BENEFICIARY - GILES REVOCABLE TRUST

| x | Continued on attachment 2.

The undersigned certifies that the above-listed persons or entities (corporations, partnerships, firms, or any other
association, but not including government entities or their agencies) have either (1) an ownership interest of 10 percent or
more in the party if it is an entity; or (2) a financial or other interest in the outcome of the proceeding that the justices
should consider in determining whether to disqualify themselves, as defined in rule 8.208(e)(2).

Date: JUNE 1, 2019

^ Is/

JOZLYN THOMAS
(TYPE OR PRINT NAME)

(SIGNATURE OF APPELLANT OR ATTORNEY)
Page 1 of 1

Form Approved for Optional Use
Judicial Council of California
APP-008 [Rev. January 1,2017]

CERTIFICATE OF INTERESTED ENTITIES OR PERSONS
2

Cal. Rules of Court, rules 8.208, 8.488
mvw.courts.ca.gov

64a

ATTACHMENT 2
TO CERTIFICATE OF INTERESTED ENTITIES OR PERSONS
NAMES OF INTERESTED PERSONS

NATURE OF INTEREST:

Bryan Blevins

BENEFICIARY - GILES REVOCABLE TRUST

Dawn Morin

BENEFICIARY - GILES REVOCABLE TRUST

James Scott Blevins

BENEFICIARY AND TRUSTEE OF
GILES REVOCABLE TRUST

Joseph Giles

BENEFICIARY - GILES REVOCABLE TRUST

Kelly Bergman

BENEFICIARY - GILES REVOCABLE TRUST

Michael Giles

BENEFICIARY - GILES REVOCABLE TRUST

St. Vincent de Pauls Society

BENEFICIARY - GILES REVOCABLE TRUST

Stoney Dahlberg

BENEFICIARY - GILES REVOCABLE TRUST

3

65a

TABLE OF CONTENTS

I. INTRODUCTION

7

II. ARGUMENT

.7

STATEMENT OF FACTS”

a.

Response to Respondent’s “IIL

b.

Response to Respondent’s “IV. ARGUMENT”
1. Respondent’s Argument Number 1:
“THIS COURT HAS NO JURISDICTION OVER THE
TRUST”:

10

2. Respondent’s Argument Number 2.:
“THE SIGNED RELEASE AND WAIVER PRECLUDES
THE INSTANT ACTION”

12

3. Respondent’s Argument Number 3:
“APPELLANT’S MOTION TO SET ASIDE THE 2009
ORDER WAS NOT TIMELY FILED.”.......................

14-15
18

IIL CONCLUSION

4

66a

TABLE OF AUTHORITIES

CASES:
Page:

CASE NAMES:
Bellows v. Bellows (2011)
196 Cal.App.4th 505, 125 Cal.Rptr.3d 401....

14

County ofSan Diego v. Gorham (2010)
186 Cal.App.4th 1215 [113 Cal.Rpti-.3d 147]

:...9

Cruz v. Fagor America, Inc. (2007)
146 Cal.App.4th 488, 52 Cal. Rptr. 3d 862

11

Diazv. Professional Community Management, Inc. (2017)
16 Cal. App. 5th 1190, 225 Cal. Rptr. 3d 39......................

11

Franklin & Franklin v. 7-Eleven Owners
For Fail Franchising, (2000)
85 Cal. App. 4th 1168..............................

12

Lawson v. Lawson
D.Nev. Nov. 13, 2014, No.3:14-cv-00345-LRH-WGC)
2014 U.S. Dist.LEXIS 160354 .......................................

14

McKeever v. Superior Court
85 Cal. App. 381..................

17

Phelan v. Superior Court (1950)
35 Cal.2d 363, 217 P.2d 951......

11

Pandas v. YMCA of Metropolitan Los Angeles (1993)
17 Cal.App.4th 158........................................................

16

Ruiz v. Ruiz (1980)
104 Cal.App.3d 374, fn. 5,163 Cal. Rptr.708

12

5

67a

Vitatech Internal, Inc. v. Spam (2017)
16 Cal.App.5th 796, 224 Cal.RptT.3d 691

11

STATUTES:
California Code of Civil Procedure § 473(d)

11

Probate Code § 15202

10

California Probate Code § 16420

7

California Probate Code § 17200

7

6

68a

Appellant respectfully replies to Respondent’s Brief as follows:
I. INTRODUCTION
A careful and thoughtful review discloses that Respondent’s Brief (hereinafter
“Response”) fails.to overcome Appellant’s arguments in the Opening Brief. Respondent
avoids the overriding fact that Jozlyn Thomas (“Appellant”), a minor until June 2019, and
her guardians, Mary Thomas and Daniel Thomas had no actual or legal notice that in June
2008 Dawn Morin, a beneficiary, had filed a “Petition to Compel Performance of
Respondent's Duties as Trustee or in the Alternative Remove the Trustee Pursuant to
Probate Code §§17200 and 16420", that partial litigation had occurred in the case, and
that on May 6, 2009, settlement had been agreed upon by the parties and the judge.
II. ARGUMENT
Respondent, in his brief has failed to overcome the facts and legal conclusions that
Appellant poses in her Opening Brief that:
1.

The Settlement Order should be vacated as void because:
A.

Appellant was never served with any legal process thereby causing
the trial court’s failure to obtain fundamental personal jurisdiction
over Appellant;

B.

Respondent admitted he mailed process to the wrong address;

C.

Extrinsic fraud existed to prevent Appellant from advocating and
protecting her interests in the trust property as a beneficiary.
7

69a

D.

The waiver and release of liability signed by Appellant’s guardians
was void.

Appellant responds to Respondent’s arguments as follows.
a.

Response to Respondent’s ‘Til.

STATEMENT OF FACTS”

(Respondent’s Brief (“RB”) at p. 7.)
Respondent has stated facts that are not true or leads to untrue conclusions:
Untrue Statement No. 1:
“Notably, none of the fourteen beneficiaries
objected to this petition.” (RB at p. 8.)
Reply: Since Appellant was a beneficiary, this supports the fact that she
was not served.
Untrue Statement No. 2:
“Prior to learning of the Thomas’ involvement, all
correspondence and court filings for Appellant were
sent to addresses that Respondent reasonably
understood where (sic) accurate as they were provided
to Respondent from Appellant’s father, Joseph Giles,
and Respondent’s mother, Bobette Giles, prior to her
death. Id. However, once Respondent learned that
Appellant was living and being cared for by Mr. and
Mrs. Thomas, Respondent immediately caused all
communications, all court filings, and all Trust
distributions to be sent to Appellant at the address
provided to him by Mr. and Mrs. Thomas.” (RB at p. 8.)
Reply: This is highly unlikely. First, settlor Charles Giles died on April 3,
2003, and Bobette his wife and first surviving trustee of the Trust, died on December 31,
8

70a

2004. This left Respondent James Scott Blevins as the trustee of the Trust.
From the date of Bobette’s death until beneficiary Dawn Morin’s first filing with
the federal court, later dismissed, the beneficiaries were ignored by the trustee, James
Scott Blevins. No contact was made with Appellant or Appellant’s guardians/grandparent
until a few weeks after the settlement order had been issued and entered. It is important to
note that alleged attempted contact involved two different addresses. This meant that one
of them had to be wrong. Yet, the trustee failed to contact Joseph Giles, Appellant ’s
father, who has declared that no one contacted him, that he knew of the guardianship
proceedings and Appellant’s correct address, and had the trustee inquired, he could have
and would have given them the correct address. (CT 116) No one put in the effort to
correctly notice Appellant.
Untrue Statement No. 3:
“The relief sought by Appellant will effectively create an
unprecedented mechanism to reopen a completed trust
administration and unwind the past seven years of spending,
investing, selling, devising, donating, etc. the distributed
Trust corpus from ten years ago. (CT 87).”
Reply: It does not create an “unprecedented mechanism” to set aside a void
judgment after 9 years (not 10 years). In the case of County ofSan Diego v. Gorham
(2010) [186 Cal.App.4th 1215 [113 Cal.Rptr.3d 147]], the appellant filed a motion to
vacate and set aside a default judgment entered approximately ten (10) years before the
date of filing his motion to vacate and set aside judgment. The appellate court found that
9

71a

because Appellant had not been served, that the attempted service was an address where
he had live for only two months, the judgment should be set aside. Id.
Untrue Statement No. 4:
“Distribution of all Trust assets was completed in 2011 and the final Trust tax
return was filed that year as well.”
Reply: Appellant is informed and believes that distribution is ongoing in view of
the fact that Appellant continues to receive funds from trust assets.
b.

Response to Respondent’s “IV. ARGUMENT”

Respondent’s Argument Number 1:
“THIS COURT HAS NO JURISDICTION OVER THE TRUST”: (RB at
P-9.)
Reply: Though this argument is very interesting, it has no legal validity.
Respondent seems to argue (1) that because Appellant in her motion did not name the
trustee as the ‘trustee of the Trust’, and (2) that because the Trust has no assets and, for
that reason ceases to exist (citing Probate Code § 152021), the trial court has no
jurisdiction to vacate and set aside the final Ruling of the trial court and that the only
avenue left open to the Appellant is to file a civil suit. (RB pp. 9-10)
Respondent has not shown that Appellant, in her motion to vacate and set aside the
trial court’s ruling failed to name Respondent as ‘trustee to the Trust’. He simply makes
1 Probate Code § 15202 does not stand for the proposition that a trust does not exist
without trust property. It states, “A trust is created only if there is trust property.”
10

72a

the bald statement without foundational facts. Appellant denies this, and Respondent fails
to sufficiently prove this fact whether it matters or not.
It appears that the motivation underlying this argument is to divert attention away
from the true issue, that is: Whether or not the trial court maintains jurisdiction to hear
and rule on Appellant’s motion to vacate and set aside the trial court’s final ruling even if
the final ruling has been made and entered/and the trust property has been disbursed.
Code of Civil Procedure § 473(d) grants the trial court statutory authority to hear
and rule on motions to vacate and set aside a ruling. It states:
(d)

The court may, upon motion of the injured party, or its own
motion, correct clerical mistakes in its judgment or orders as
entered, so as to conform to the judgment or order directed,
and may, on motion of either party after notice to the
other party, set aside any void judgment or order. (Code
of Civil Procedure § 473(d).) (Emphasis added.)

This authority is limited to void judgments. (Vitatech Internal., Inc. v. Sporn
(2017) 16 Cal.App.5th 796 [224 Cal.Rptr.3d 691]; Cruz v. Fagor America, Inc. (2007)
146 Cal.App.4th 488,495^496 [52 Cal. Rptr. 3d 862]), and, clearly, the judgment was
void.
Further, the appellate court in Diaz v. Professional Community Management, Inc.,
(2017) (16 Cal. App. 5th J190 [ 225 Cal. Rptr. 3d 39]) quoted with approval at fh.4:
“[W]here the law allows an appeal from a judgment or order;
it is appealable even though void.” (Phelan v. Superior Court
(1950) 35 Cal.2d 363, 366 [217 P.2d 951].) Instead, the “proper

11

73a
procedure is to reverse the void order rather than dismiss the appeal
from it.” (Ruiz v. Ruiz (1980) 104 Cal.App.3d 374, 379, fn. 5 [163
Cal. Rptr. 708].) Id.
And further, cases have held that though a final judgment has been entered and an
appeal filed, the trial court under limited circumstance still maintains some jurisdiction
concurrently with the appellate court over matters not concerned with in the appeal. (See
Franklin & Franklin v. 7-Eleven Owners For Fail Franchising, (2000) 85 Cal. App.4th
1168.)

In summary, by way of statutory as well as case law, the trial court maintains
j urisdiction to entertain a motion to vacate an entered void j udgment even, in limited
circumstances, if the judgment has been appealed. Such jurisdiction is not subject to
whether or not the Appellant has named the Respondent properly or whether the trust has
ended. This appeals is to the judgment of the trial court only.
Respondent’s Argument Number 2.:
“THE SIGNED RELEASE AND WAIVER PRECLUDES THE INSTANT
ACTION”

(RBatp.10.)

Allegation No. 1:
The Respondent cites multiple authority for the proposition that parties can agree
to waive “any and all claims” even if not listed on the wai ver form and may also waive
the provisions of CCP § 1542. (RB p. 10.)
Reply:

Appellant does not oppose.
12

74a

Allegation No. 2:
The Respondent goes on to allege that Appellant’s guardians/grandparents signed
such a release of claim and such release was not boiler plate but included various aspects
of the administration of the Trust, including the 2009 Order Appellant claims to have only
just discovered in 2017, and Respondent quotes from the waiver and release. (RB at pp.
10-11.)
Reply:

Appellant does not oppose.

Allegation No. 3:
Respondent states:
“Appellant contends that language in a cover letter sent with the
Release on September 8, 2011 (described in Section IV.3 below)
somehow negates the effectiveness of the Release they signed.
(Appellant's Opening Brief "AOB" at 32-33). Specifically, Appellant
cites Probate Code Section 16004.5 for the rule that a trustee may
not condition a trust distribution required by the trust instrument on
receipt of a signed release of liability as against the trustee. However,
Appellant ignores the plain language of the Release w hich makes
clear that distribution of the Trust assets is not contingent upon
anything whatsoever.” (CT 72-73).” (Emphasis added.)
Reply: Appellant opposes Respondent’s characterization that the contingency
condition must be shown within the “release” before Probate Code section 16004.5(a)
applies.
Probate Code section 16004.5(a) states:
“A trustee may not require a beneficiary to relieve the trustee
of liability as a condition for making a distribution or payment
to, or for the benefit of, the beneficiary, if the distribution or
payment is required by the trust instrument.”
13

75a

A simple reading of this section of the statute would require that the trustee cannot
place conditions for making distributions as required by the trust. There is nothing in the
code that states that before Probate Code section 16004.5(a) becomes effective, such
restriction must be stated in the Release. Respondent’s “interpretation” of this code
section as presented in his brief is wrong. Probate Code section 16004.5(a) restricts a
trustee from placing conditions for disbursement in any way and without limitations. (See
Bellows v. Bellows (2011) 196 Cal.App.4th 505, [125 Cal.Rptr.3d 401]; Lawson v.
Lawson (D.Nev. Nov. 13, 2014, No.3:14-cv-00345-LRH-WGC) 2014 U.S. Dist.LEXIS
160354.)
Appellant will not belabor the argument further, and, instead, refers the reader to
Appellant’s Opening Brief at p. 23, which quotes from the September 8, 2011, letter
stating:
“With regard to distribution of your respective shares of the
Reserve Account, I am also enclosing a Waiver of Accounting
and Release of Liability of Trustee. Please review the waiver
and release, and sign where indicated. Please return the original
document to me in the envelope provided. Once all signed
waivers are received, original checks will be immediately
forwarded directly to each of you.” (Emphasis added.)
(CT p. 80)
In other words, forwarding the disbursement checks w as conditioned on
the receipt of signed waivers. (See Probate Code section 16004.5(a).)
Respondent’s Argument Number 3:
“APPELLANT’S MOTION TO SET ASIDE THE 2009 ORDER WAS NOT
14

76a

TIMELY FILED.”

(RB at p. 12.)

The arguments presented by Appellant in the Opening Brief is that:
The settlement order of the trial court is void and should be vacated and set aside
because:
■

i.

1.

The judgment in the trial court proceedings is void because
the trial court failed to obtain personal fundamental
jurisdiction over the appellant caused by respondent’s failure
to serve notice of the trial court proceedings on the appellant;

2.

The settlement order is void because the respondent Trustee
admitted he sent notices to the wrong address and failed to
act diligently to discover petitioner’s true address; and

3.

The settlement order issued by the trial court is void because
extrinsic fraud existed to prevent appellant from protecting
her interests as a beneficiary of the trust.

The Respondent failed to respond to Petitioner’s arguments 1 and 2 restricting his
discussion to 3, only, as discussed below.
Note that Respondent in his Respondent’s Brief at the bottom of page 12
references (AOB 32) and then on page 13 he references (AOB 31). Neither of these
references exist as the Opening Brief consists of 26 pages only.
The arguments presented by Respondent is that the two-year time limitation period
imposed by CCP § 473.5 applies and that the Appellant makes two arguments to get
around § 473.5.
They are:
1.

“... Appellant contends that she did not have knowledge of
the 2009 Order because Respondent "failed to take reasonable
15

77a

steps to determine Jozlyn and her Grandparents/Guardians'
residential address, and notices on the petitions failed and
were not given," (CT 38).” Further, that the trial court could
not find any evidence alleged of the Respondent’s intent to
commit fraud for the purposes of establishing extrinsic fraud
other than Appellant’s allegation that the pleadings that were
required to be sent to Respondent were sent to the wrong
addresses;” (RB p. 13) and
2.

That it was unreasonable to believe that the Appellant’s guardians/

grandparents did not know of the case at issue herein or understand the nuances of the
law. Further, Respondent argues that whether or not they understood, they should have
understood and a presumption exists to the effect that a signatory is presumed to know
and understand what is being signed. The Respondent cites the case in support of this
contention, Randas v. YMCA of Metropolitan Los Angeles (1993) [17 Cal.App.4th 158,
160]. (RB pp 13-14) Additionally, Respondent argues that two letters were sent to
Appellant in which reference was made to Dawn Morin’s case.
First, Appellant makes no contention that the guardians/grandparent did not
understand the waiver and release signed. Instead, the guardian/grandparents did not
understand how the court case reference applied to the minor Jozlyn at that time. The
letters quoted in Respondent’s Brief reference the case as “Dawn’s” case. No case
number or description of the litigation of rights of the beneficiaries was mentioned. The
guardian/grandparents did not know or understand that their ward, Jozlyn, had an interest
in or otherwise had any right participate in the Dawn’s case. It was not until 2017 that the
guardians/grandparents discovered that Jozlyn had a right to participate in Dawn’s case as
16

78a

a beneficiary but was not served with any court papers disclosing that right.
Further, in his discussion of the alleged extrinsic fraud Respondent in his brief
alleges that, other than sending to Jozlyn notices and pleadings required by law to the
wrong address, Appellant has not shown intent on the part of Respondent to support
“extrinsic” fraud.
This is untrue. At page 6. of Appellant’s Opening Brief, Appellant states that in
Respondent’s Verified Petition on p. 4, 4, at lines 14-15 (Exhibit C to Notice of
Lodgment) and again in Respondent’s Amended Verified Petition on p. 4 4 at lines 6-7
(Exhibit G to the Notice of Lodgment) Respondent represented and declared to the trial
court that:
“At all times herein relevant, the above
beneficiaries are adults. Below is a list of all
beneficiaries and interested persons who are
at all times herein mentioned adults ...”
(Emphasis added.)
This representation was untrue and fraudulent. At all times the Respondent
absolutely knew that the Appellant was a minor, but in order for the trial court to accept
the settlement agreement, it had to know that all beneficiaries were adults competent to
accept the settlement agreement.
This fraud perpetrated upon the court was extrinsic in nature and the trial court had
the power to set aside the ruling without further evidence of intent. (McKeever v.
Superior Court, 85 Cal. App. 381.)
17

79a

III. CONCLUSION
For the foregoing reasons and for the reasons argued in Appellant’s Opening Brief,
Appellant respectfully requests this Court to remand the case back to the Stanislaus
County Superior Court with direction to vacate and set aside the final Order entered May
5, 2009, in which the settlement agreement was affirmed, and further direct the trial court
to conduct further proceedings consistent with this Court’s ruling.
Appellant requests that attorney’s fees and costs be assessed against Respondent.
Dated: September 11, 2019.
Respectfully submitted,

Is/

Joziyn Thomas
Appellant

18

80a

CERTIFICATE OF WORD COUNT
I certify that: according to the computer program used to prepare this brief, the Appellant’s
Opening Brief contains 2,730 words, not including the cover, the Tables of Contents and
Authorities, the Certificate of Interested Entities or Persons, this certificate and the signature
block.
I declare under penalty of perjury under the laws of the State of California that the
foregoing is true and correct.
Dated: September 11, 2019.

Is/
Jozlyn Thomas
Appellant

19

81a

PROOF OF SERVICE

I Do Hereby Declare As Follows:
That I am a citizen, over the legal age of 18 years and not a party to the within litigation;
That my residence address is 2838 The Esplanade, #15, Chico, California 95973;
That on the date entered below, I served the attached Appellant’s Reply Brief by placing a
true copy thereof in envelopes addressed to the persons named below at the addresses shown, and
by sealing and depositing that envelope in the United States Mail at Chico, California, with folly
prepaid postage. There is delivery service by the United States Postal Service to each of the
places so addressed.
This Appellant’s Reply Brief was served on the interested parties at the addresses as listed
below:
California Supreme Court
350 McAllister Street Second Floor
San Francisco, CA 94102

Stanislaus Comity Superior Court
800 11th St.
Modesto, CA 95354

Michael Gianelli
Gianelli & Associates
1014 16th Street
Modesto, CA 95354

Christopher Ramey
Ramey Litigation Group APC
3838 Camino Dei Rio N, Suite 120
San Diego, CA 92108-1762

Anthony Giles
5613 Lowell Street
Everett, Washington 98203-3910

William Blevins
337 Ruess Road
Ripon, CA 95366

Boys & Girls Club of Manteca
545 W. Alameda Street
Manteca, CA 95336

Brent Blevins
7887 Koftinow Ct.
Manteca, CA 95336

Bryan Blevins
2091 Willow Lane
Lakewood, Colorado 80215

Charles W. Giles, Jr.
P.O. Box 13282
Everett, Washington 98206

Dawn Morin
P.O. Box 8198
Surprise, Arizona 85374

James Scott Blevins
901 Opal Lane
Ripon, CA 95366

20

82a

Joseph Giles
20683 Waalew Road, Space 123-B
Apple Valley, CA

Kelly Bergman
172 Joseph Court
92307 Ripon, CA 95366

Michael Giles
5613 Lowell Street
Everett, Washington 98203-3910

St. Vincent de Pauls Society
525 East North Street
Manteca, CA 95336

Stoney Dahlberg
P.O. Box 578217
Modesto, CA 95357
I declare under penalty of perjury under the laws of the State of California that the
foregoing is true and correct.
Dated: September 11, 2019.

/s/

Larry Dick

21

83a

APPENDIX E
1
2
3
4
5

KEVIN PERKINS, ESQ. SBN 195279
Perkins Law Firm,
2618 San Miguel Dr. #103
Newport Beach, CA 92660
Tel: (949)251-8877
Fax: (949) 644-6022
Attorney for Petitioner Daniel Thomas as Guardian of the Estate and Person of Jozlyn Thomas

6
7

SUPERIOR COURT OP THE STATE CALIFORNIA

8

IN AND FOR THE COUNTY OF STANISLAUS

9
10

i

11
12
13
14
15
16
17
18
19
20

In re Matter of

Case No.: 428536

GILES REVOCABLE TRUST

) SUPPLEMENTAL DECLARATION OF
) JOSEPH GILES IN SUPPORT OF
Dated: January 18, 2002
) PETITION TO SET ASIDE VOID
) ORDER APPROVING AND
) SETTLING AMENDED ACCOUNT
TRUSTEE:
James Scott Blevins
) AND REPORT OF TRUSTEE; ORDER
J APPROVING AGREEMENT
) BETWEEN TRUSTEE AND DAWN
DANIEL THOMAS, as Guardian of the Estate ) ■ MORIN; ORDER APPROVING
and Person of Jozlyn Thomas, a minor.
) DISTRIBUTION PLAN AND
) ALLOWING PAYMENT OF
Petitioner.
) TRUSTEE’S FEES
v.

21
22

)

)

)

JAMES SCOTT BLEVINS.

23

Respondent.

24

)
)
>
)
5

Date: May 17,2018
Time: 8:30 a.m.
Dept: 22
Trial Date:

25

26

I, Joseph Giles, declare:

27

1.

I am the son of Charles Giles, a co-settlor, now deceased, of the Giles Revocable Trust

28

1
SUPPLEMENTAI. DECLARATION OKJOSEPH fill.ES IX .SUPPORT OK MOTION TO SET ASIDE VOID ORDER

1

84a
1

dated January 18. 2002. I am a named beneficiary of that trust.

2

2.

I have a daughter. Jozlyn Thomas, who was born on June 20, 2000, and is now 17 years

2.

Jozlyn's grandparents on her mother's side, Daniel and Mary Thomas, became

3

old.
4
5

6

Jozlyn's guardians of her estate and person when the Racine County (Wisconsin) Court issued

7

Letters of Guardianship on February 6, 2008. At the time the Letters were issued Jozlyn was8

8

*

years old. I am informed and believe that Jozlyn has lived with her grandparents/guardians

9
continuously at 10 Belem Street, Punta Gorda Florida 33983 since the date the Racine County
10
11
12
13
14

Human Services placed Jozlyn with her grandparents/guardians.
3.

At all times during the guardianship proceedings, 1 was incarcerated in prison

administered by the Florida Department of Corrections. Though 1 was incarcerated, I was in
monthly contact with Racine County Fluman Services concerning the guardianship proceedings,

15
16
17
IS
19
20

and I had actual knowledge that my daughter. Jozlyn Thomas, lived with hergrandparents/
guardians at 10 Belem Street. Punta Gorda. Florida 33983.
4.

On April 8. 2008, the initial filing date of this case. I was again incarcerated in prison

administered with the Florida Department of Corrections. Though incarcerated, I had actual
knowledge that my daughter. Jozlyn. lived with her grandparents/guardians at 10 Belem Street,

21
22

Punta Gorda, Florida 33983. and had anyone requested her present address during the litigation of

23

this case, 1 could have and would have informed them of the Wisconsin guardianship and given

24

them Jozlyn s address in Punta Gorda. Florida. No one contacted me to request Jozlyn's address.

25

3.

I am informed and believe that my daughter Jozlyn has never lived at 25030 Sandhill

26
Blvd., #4b2, Punta Gorda, Florida 33983, and though when Jozlyn was 3 years old, in June and
27
28

July 2003, only. Jozlyn's mother. Lisa. Jozlyn and I lived at 25050 Sandhill Blvd., #4b2.Punta
2
SUPPLEMENTAL DECLARATION OK JOSEPH GILES IN SUPPORT OF MOTION TO SET ASIDE VOID ORDER

85a

1
2

Gorda, Florida 33983.
I declare under penalty of perjury under the laws of the State of California that the foregoing

3

is true and correct.
4
5

Dated:

y/g//

.. 2018.

6
7
8

9
10
II
12
13
14
15
16
17
18
19
20

21
22
23

24
25

26
27
28
2
SUPPLEMENTAL DECLARATION Oh JOSEPH Olt.ES IN Sl'PPORT OK MOTION TO SET ASIDE VOID ORDER

86a
APPENDIX F

I
2
3
4
5

L. G LAN CLLI, SDN 070950
NTNJ T. LEE. SDN 199109
GIANELLI & ASSOCIATES
A Professional Law Corporation
1014 - 16th Street
P.O. Box 3212
Modesto, CA 05353
Tel.: (209) 521-6260
Fax: (209) 521 -5971

1

m

i

i
FILED

2008 APR 10 PM 12: U 0

6
7
8

Attorneys for Petitioner, JAMES SCOTT BLEVINS,
Trustee of the Giles Revocable Living. Trust
.

SUPERIOR COURT OF CALIFORNIA, COUN TY OF STANIS LAUS

9
10

7 |g 4 u

Uii 12

B|5I 13

P| "

Case No.

THE ADMINISTRATIVE TRUST, THE,
SURVIVOR'S TRUST, THE FAMILY
TRUST AND THE MARITAL TRUST
CREATED IN THE GILES REVOCABLE
LIVING TRUST u/i/d January 18,2002.

PETITION TO APPROVE AND CONFIRM
ACCOUNT AND REPORT OF TRUSTEE,
APPROVAL Of PROPOSED
DISTRIBUTION AND PAYMENT OF
TRUSTEE'S FFES; CONSENT OP
TRUSTEE OF BENEFICIARIES' TRUST

<2

Hearing Date: JUN 0 2 200®
Time: 8:30 a.m.
Dept,: 22
Judge:

17

18
19

21
22
23
24

25
26
27
28

n&

fProbate Code § 17200]

16

20

428549

IN RE: .

sis j* 15

j)'^

lames Scott Blevins, Trustee of the Administrative Trust (“Administrative Trust"), the
Survivor’s Trust, the Family Trust and the Marital Trust (collectively referred to as the “Sui>
Trusts") created in the Giles Revocable Living Trust Wi/d January 38, 2002 (the “Trust"),
presents the following Account and Report of trust administration and seeks die court’s
approvaland confirmation of Account and Report of the Trustee and approval of proposed
distribution and payment of attorney's fees:
1.

Creation of Trust
Charles L Giles and Bobette Giles (“T rustors"), husband and wife, executed the

Trust on January 18,2002. Attached as Exhibit “A” and incorporated herein by reference is a
true and correct copy of the Trust. The Trust provides that at the death of one of the Trustors, an
-1 ■

Petition to Approve and Coofi/m Accoont and Report, £tc.

!
i

87a

4

4

1

Administrative Trust wouid be fanned for the purpose of udminisiering the trust and ultimately

2

dividing it inlp the Sub Trusts defined below, which were to be administered until the death of

3

the surviving Trustor, Trustee has, in fact, formed and.has been operating the Administrative

4

Trust since the death ofBobelte Giles, The Survivor’s Trust was to consist ofthe surviving

5

spouse’s half of the community property and die surviving spouse’s separate property. The

6

Family Trust and the Marital Trust were to consist of the first spouse to die’s separate property

7

and half Interest in the community property to be divided between the two trusts according Jo a

8

Marital pecuniary share formula The Survi vors' Trust, the Family Trust and the Martial Trust

9

are hereinafter referred to as the ‘‘Sub Trusts",

10

’ll S« 11
J 2<*>

m. “

tiiii
,s
ilfli 14

|M§
Sis | 15
16

2.

Date and Place of Death
Charles L, Giles died on April 2,2.003 in Stanislaus County, California. Upoa

the *wn of Charles L. Giles, an Administrative Trust was created for the administration of his
trost estate. Before the Trust could he distributed into the Sub Trusts, the surviving Trustor.
Bobette Giles died bn December 31,2004 in Stanislaus County, California, Therefore, the
division of the Trusts into Sub Trusts did not actually take place.
3.

17
18

19
20

lenj
Petitioner, James Scon Blevins, was nominated as successor Trustee under

Article Vlli subsection (A) on page Hof the Trusts. On December 1,2003, Bobette Giles
resigned as successor Trustee of the Busts and James Scott Blevins consented to act as
successor Trustee and has been serving as: successor trustee of the trusts since that date.
The principal place of administration is located in Stanislaus County, Cab forma.

.21
22

The settlors, Charles L. Giles and Bobette Giles, were residents of Stanislaus County,

23

California Stanislaus County. California is the usual place where the day-to-day activity of the
Trust is aaried by the Trustee, James Scott Blevins. The Trustee resides in Stanislaus County,

24

26

California. Further, the Trust consists of real and personal properties located in Stanislaus
County, California, Therefore,, jurisdiction and venue are proper under Probate Code Section

27

17000 at, seq.

25

28

Petit! Ofttv Approve and confirm Account r»d Report.

88a

%

%
i
2
3

4.

Beneficiaries of Trust Estate
a.

After tlic death of Charles L. Giles, his share of the Trust estate-was to'go
to the following beneficiaries:

4:

i. $1,000.00 to Stoney Dahlbcrg;

■ 5

6

ii. $25,000:00 to Dawn Morin; and

7

iii. $25,000.00 to each grandchild of Charles L. Giles who is then living:

8

namely Jozilyfi.N. Thomas, Charles W, Giles, Jr., Anthony L. Giles,

9

and Michael Giles.
All of the above distributions have been made,

10

M i11

itin12

|ll|! 15
ill H
jig ft- 15

b,

Jn addition, after the death of Charles L. Giles, the Trust is to be split into
the Marital Trust, family Trust and Survivor’s Trust.
i, Upon the death of the: surviving spouse, Bohette, Giles, the Marital
Trust is to be distributed to the following beneficiaries:
1. $50,000 to the Trustee of the Joseph Ii. Giles Trust.

16

2. 10% to Boys & Girls Club of Manteca;

17

3. 10% to St. Vincent De Paul s Society;

18
T$
20

21
32
23
24

25
26
.27
28

4. 1094 to each grandchild or Charles L. Giles who is then living
namely Jozilyn K. Thomas, Charles W, Giles. Jr., Anthony L.
Giles, and Michael Giles: and
5. The balance (4094) to Dawn Morin.
ii. Upon the death of the surviving spoifse, Bohette Giles, the Family
Trust is to be distributed as follo ws:
1, S50.000.00 to the Trustee of the “'Joseph I,. Giles Trust'. To
date $6,500 has been distributed io Joseph.L. Giles from the
Joseph -L. Giles Trust.
2, 10% 10 each grandchild of Charles L. Giles who is then I tying
nam ely jozilyn N. Thomas. Charles W. Giles, Jr., AnthonyL.
-3

HetttiW ft Apiroveand Confirm Account nsui Report, etc,,

89a

*

%

Giles. mid Michael Giles; and

1
2

3. The balance (40%) to Dawn Morin,

3

Distribution, to any beneficiary named herein Shall not be made

4

outrightro any beneficiary under the. age of 25; years; rather

5

distribution shall be made pursuant to the terms and provisions of

*

the Beneficiaries’ Trust as set forth on Exhibit “GM atiaehed

f

hereto and made a pail hereof. By his signature hereto. Janies

8

Scott Blevins consents to serv-e asihe Ttusiee ofsaid

9

Beneficiaries’ Trust,
c.

10

distributedecpially among Bobette Giles’ children, William Blevins.

sll 8 11

Kelly Bergman, James Seott Blevins, Bryad Blevins, and Brent Blevins

Si »

iiii«

licit14
tiff 15
16
17
18

m
20

fj-poft the death of the surviving spouse, toe Survivor’s Trust is to be

Thereinafter called “Bobette’s Children").
Mal l rimesherein relevant, the above beneficiaries are adults; Below is a list of ail
beneficiaries and interested [persons who are at all times herein iWelifioned adults, and their
addresses:
William Blevins
337 Ruess Road
Ripon, CA 95366
Kelly Bergman
1172 Joseph Court
Ripon, CA 95366

21:
22
22
24
25

lames Seott Blevins
1.1277 Cleveland Avenue
Oakdale. CA 95361
Bryan Blevins
2001 Willow Lane
Lakewood, CO 80205

26
27
28

Brent Blevins
7887 Koftinow Court,
Manteca. CA 95366

.4-

gethloft to Apfirovcini benfiim Acemmt ami Report, cte.

90a

!
!

:i
Dawn Morin
151.13 West Tasha Drive
Surprise AZ 85374

1

• 2
2

Joseph L. Giles
25050 Sandhill BIvd.,#4b2
Punta Gorta.PL 33983

4
5

Jozilyn N. Thomas
25030 Sandhill Blv4,.#4b2
Puma Gorda, FL 33983

6

7
8

Charles \V, Giles, Jr.
5613 Lowell Street
Everett. WA98203

9
10

Anthony L. Giles
5613 Lowell Street
Everett, W'A 98203

3p | 11

iliil

!|!J! “
|1I “
ll? £ IS

Michael Giles
5613 Lowell Street
Everett, W'A 98203
Stoney Dahlbcrg
5747 Rosebuxg Court
-Riverbank. CA 95367

<2

16
17
IS

19
20

21
22
23.
24

25
26
27
28

S.

the summary of account, along With supporting schedules, as set forth in the Summary of
Account attached hereto as Exhibit “B” covering the period April 3, 2063 and ending
December 31,2007, and incorporated herein by reference. All cash has been invested arid
maintained in interest bearing accounts or in investments authorized by law or by the Trust,
except such cash as is reasonably necessary for the orderly administration of the Trust estate.
6.

Sains nf Property . All sales of real property and personal property have been

properly reported in the Summary of Account as set forth in Exhibit
7.

Reappraisal, Ali ofthe real property and partnership interests of theestate have

been reappraised by BeD Whitmer as Of March L, 2008. A copy of the infoirntd letter appraisal
is attached to Exhibit “C” and made apart of this Petition, Formal .appraisals have just been

*5PeiUHin in Approve fimTCtmrirm Aeaiiunl

Rqiftri, etc.

91a

1

Dg.fats arid Expenses; The Trustee has collected all assets belonging to the trust,

2

has filed al| income tax returns, for the trust which have become di®, and has paid all debts,

3

taxes, and current expense of trust administration, tnore specifically i dentified in the Trustee’s

4

Account and Report, attached as Exhibit W8»

5

9,

6

Affiliation with Agents
The Trustee did not use any agents that had anyfamily or affiliate relationship

with Tmstee.
8

9
10

3 '| I 8 11

im12
im
licit14
>1? I 15
<2

lOi

Trustee’s Compensation
The Trustee has not paid himself any compensation, Article VII, subsection (L),

on page 14 of the Trust authorizes the Trustee to pay himself reasonable compensation for
services Tendered to the trust estate as Trustee. The Trustee has served in his capacity as
Trustee of the Trust since the resignation of Bobette Giles on December 1,2003 . Since that
period, Trustee has gathered up the trust assets, reviewed and compiled bank records and other
financial records of the trust, managed the trust estate, caused to bc.prepared and filed trust
estate and income tax returns, defended claims against the trust and gathered information for the

16

preparation of almost five years of extremely involved and complicated accountings due to the

17

fact that there were so many adjustments that had to be made (see Section 13),Tile Trustee has

18

spent hundreds of hours of his time Working with and assisting Daa Garto, CPA and die trust

19

attorney to reconcile the gifts and other adjustments made, by the Trustors which have impacted

20

the distribution of the trust.

21

The fee requested by the Trustee is the sum of SI 80.000 payable one half from

22

the Survivor’s Trust and one-half from the Marital Trust The fee is based on one percent per

23

; annum of the lesser of the assets on hand as reported on the federal estate tax return of Bobette

24

Giles in the amount of $4,912,228, and the assets on hand ai the present time, in die

25

approximate amount of $4,909,444.00. lhe fee computation is set forth as follows:

26
27
28
,6P<fiuGn la Approve tirsdConfirm Account and Report, etc.

92a

i j January 1.2004 to December 31 2004—!% x S4,900,000-

$49,000

2 ij January L, 2005 to December 31,2005—1% x S4,900,000”

$49,000

3-

January 1.2006 to December 31,2006—1% x S4.900.000”

,$49,000

January 1,2007 to December 31,2007—1% x$4.900,000=

549,000

January 3,2008 to June 30, '2007 (projected distribution)—1% x $4,800,000/2

$24,500

4.

5
6

Total:

7

S220^0fl

8

9
10

Tbe Trustee is willing to reduce the fee to $180,000.
11.

3p I 11

111’2
s.pii

14

Ilf I 15

Agent’s Compensation
Accountants. The Trustee retained Dan Gatto, CPA for accounting work op the

trust estate, including the preparation of income tax returns, the 706 estate tax return, and the
trustee account and report on Exhibit UB”. The total amount paid to Dan Gatto, CPA through
December 31,2007 was approximately $31 ,923.00.
Appraisers. The Tfustec retained Ben Whitnier as appraiser to appraise the real

to 1 property and the partaerslup interests of the Trust. To date, fees in the approximate amount of
17

$33,500.00 have been paid to Mt. Whitmer. An additional $8,000 is anticipatcdio be paid to

•3

stud appraiser pursuant to the contract presented to the Trust. Further, fees in the approximate

19

amounfof $1,300 have been paid to Robert Errtrcn, "Probate Referee as indicated herein.

20

Attorneys. The Trustee retained, Gianelli & Associates as attorneys for

-'

representation on the administration of die trust estate and defense of a complaint filed in

22 ' federal court by Dawn Morin, a beneficiary of the trust estate, as explained below. The total
23

amount paid lo Gitodli & Associates through MarcIvSO, 2008 is approximately $75,074.65.

24
25

Fees are itemized in Exhibit “F” attached hereto and made a part hereof.

26

12.

Filing of Federal Case
On or about July 24,2007, Dawn Morin filed a petition for declaratory relief

22 1 regarding the no-contest clause of the Trust in the United .States District Court. Eastern District
28;

ofCalifornia. Fresno Branch, Case number 1.07-CV-01061 - AWTNEW. Counsel for Petitioner

Petition tc Approve and Confirm Aoconr.i and Report. etc.

93a

1

attempted to informally request counsel for Dawn Morin to transfer the petition to state court.

'2

Counsel for Dawn .Mono did not voluntarily dismiss the petition. Thus, counsel for Petitioner

3

was required to file a motion to dismiss the case in federal court. On December 21, 2007, the

4

Federal Court granted Petitioner’s motion to dismiss the federal complaint. Petitioner incurred

5

attorney's!fees and costs in defending Dawn Morin’s federal complaint.

6
7

,IS
j

o
e« §

13.

Adjustments for Gifts and other Expenses: Except as otherwise set forth in this ;

Section 13,, alt of the assets of liobetie Giles and Charles Giles were community property.

8

Since the Trustors died1 within 18 months of each other, the Survivor's, Marita! and Family

9

Trust were sever actually funded. Petitioner proposes therefore an equal division of the assets of

10

fee Trust estate, without regard to any changes in value between the fast and second death, with

31

hai f of .the assets being allocated to the Survivor’s Trust, the exemption equivalent amount

fs*8a 1

urn is

11,4
Sis
e .15
52

16

itj

being allocated to the Family Trust and the balance of the assets being allocated to the Marital'
Trust, ait subject to. the adjustments set forth in this Section.
Attached hereto as Exhibit “D” and made part hereof is a Schedule of Adjustments that
the Trustee proposes will need to be made prior to distribution. The adjustments proposed to be
made and the explanation for, each adjustment is as follows:
a.

Cash gifts to Bohette’s donees: Subsequent to Charles’ death, Bobette

n

made certain gifts to her children and grandchildren, which gifts are set

19 \

forth in Schedule 1M or Exhibit «D?». These gifts are being deducted

20

from the Survivor's Trust to determine assets on hand tor distribution.

21

b.

MVK Stock Gift to Scott: Subsequent to Charles’ death, Bobette gave

22

her son, James Scott Blevins, 570.16 shares of stock in Mountain Valley

23

Express, a; California Corporation valued at $1,000,000. This gift is being

24

deducted from the Survivor’s Trust to determine assets On hand for

25

distribution.
Disbursements 03 and *04 . Tlie disbursements made by Bobette for '03

26

c.

27

and '04 except those chargeable to principal are. being deducted from the

28

Survivor’s Trust to determine assets: on hand for distribution. Said
-SPelitato Approve saw Confine Account <nd Report, e«.

94a

i
I

1

Disbursements are more fully described and Set forth on Schedule D2 of :

2

Exhibit “D” as attached hereto,
d,

3

being deducted from the Survivors Trust to determine assets Oil hand for

. 4

5

distribution since these assets either named the trust as beneficiary or

6

were changed by Bobette Giles in name her children as beneficiary after

7

Charles Giles’ death.
e.

8

Income Tax Adjustment for ’03 and ’04. Income taxes paid for 2003 and

9

.2004 up to the date of death have been computed by Dan Gatto. the trust

10

estate CPA. and should be deducted from the Survivor’s Trust as-an
offset against income earned subsequent to Charles Giles death and up to

3 if 8 11

the date of death of Bobette Giles.

12

nm is

t.

.

purposes of determining assets tin hand for distribution.

11* I 15

16

Charitable Deouests. Charitable bequests to be made from the Marital and
Family Trust are being deducted from the Marital and Family Trust for

sif-gi 14

|sl|

IRAs'Annuities. Certain TRAs and Annuities as set forth in Exhibit D are

g.

Specific faeouests, Specific bequests of $125,000 were made following

17

Charles Giles' death from his share of the community property have been

18

made and'should be deducted from the Marital Trust and Family Trust to ;

19

determine assets on hand for distribution.

20

h.

Income Earned to 12/31 '04. Exhibit D shows income canted by Bobelie

21

Giles subsequent to Charles Giles’ death through December 31, 2004.

22

the date of Bdbette Giles’ death. This income is being added to the

23

Survivor’s Trust to determine assets on hand for distribution.

24

i.

Credit for amounts Paid bv Beneficiaries to Trust. Bobette Giles’ children

25

repaid the Trust the amounts set forth in Exhibit “l>” and should be

26

added to the Survi vor’s Trial to 'determine assets on hand for distribution.

27

Gifts hv Charles to Bobette. At Charles Giles’ death, certain assets were,

28

left to Bobette by Charles outside the Trust estate. These assets are listed
-9 •

Petition to Approve and Confirm Atrounl and Rcpmvctc.

95a

I

on Exhibit «»*'. These transfers to Bobette are being added to the

2

Survivor’s Trust to determine assets on hand, for distribution.
Distribution toWnh Giles. The sum of $6,500 has been made as an

k,

3

advance distribution to Joseph Oiks

4

Kctntf tax nlloantions. Estate taxes are being allocated among the

4,

5
6

beneficiaries as per Exhibit “D*, wWch allocation is based M each

7

beneficiaries5 prd-rata store of estate taxes. Ko esime taxes have been

8

allocated to the charitable bequests, however the Marital Trust will

9

receive the income tax benefits of the charitable gift.-deduction. See
Section. 13. m. below.

10
m.

ili j"

taken m the estate tax return. A decision was made by the Trustee and

isli 12
11151 »
l*ii»

his accountant that rather than amend the estate tax return and open it
back up to audit and further delay distribution, distributions of$495,633
were made to the charities and taken as a deduction from income taxes in

ill
i is
SS

2005, Allocation -of the credit for the: tax deduction is computed by

16

calculating the income tax in year 2005 without the charitable deduction

17

of $495,633. This results in federal tax of$129,408 versus $5,497 for a

18

savings of$123,911 and California tax of $59,085 versus $13,015 for a

19

savings :of;$46,070. The combined savings In income taxes to the Trust

20

was $169,981. This should be added to theiSufylvor s Trust to-determine

21

assets on hand for distribution.

22
23

/Vi-riit fnr income taxes. Charitabledeductions were inadvertently not

14.

Proposed Additional Sales- The Trustee proposes to sell the Trust’s interest in

24-

the Stable Rd. property, the Messing Rd.prbpertyhftd the Sumtyview property

25

and the Trustee has lakeft steps to accompliii these sates, ftttsuant to the

26

fhopeny On Hand (Schedule © to Exhibit “B”), the, Sunnyview property has

27
28

been shown as being outside ofthe Keyway partnership. It is anticipated that the
Partners intend :to distribute said property out of the partnerMp and evenfiMiy

-10-

Pditioirtn Approve add Confina Account and fcpm «*•

96a

1
2

Sell said Sunriyview property.
The Trustee intends to comply with the procedures ol' Probate Code

3

Section 16500 et. seq.(NotiCe of Proposed Action) in accomplishing these sales.

4

Further,.the Trustee requests authority to sell the Golden Valley Enterprises

5

Partnership interest to the five beneficiaries of the Bqbette Giles Survivor's Trust

6

and to Dawn Morin for the sum of $456,000, with each siiCh beneficiary being

7

offered the rightto purchase a one-sixth interest therein and each: beneficiary

8

who elects to purchase such interest being responsible for paying the sunt of

9

$76,000, i.c., one sixth the purchase price, payable in cash at the Closing Date,

10

II % 11

fills -

The sale Would be subject to the. following procedure:
:i. Upon authorization bv the Court by this Trustee givingeach such
beneficiary written notice of their right to purchase immediately upon
authorization of this process by the Court,

ill15
•fell1
115 3 is

:ii. Each beneficiary' will have 30 days front such written notSoe to cither

16

to so elect, notice will be sent by the Trustee to the beneficiaries Who

17

have elected to purchase (“First Round Beneficiaries”) of the name of

18

each beneficiary that fails lo so elect in to purchase arid the First

19

.Round Beneficiaries will then have an additional 15 days to elect in

20

Writing delivered to live Trustee to equally purchase the un-purchased

21

interesi. Should any of the First Round Beneficiaries be unable Or

22

unwilling to purchase the un-purchased interest: within said: 15 days,

23

then the beneficiaries who do elcct io purchase the un-purchased

24

interest (“Second Round Beneficiaries”) stall have an additional T-5

25

days to elect in writing delivered to the Trustee to purchase the

26

additional un-purchased interest or not. The process will cbfttinuefor

27

as many rounds as is; necessary to determine if all of the un-purchased

28

interest can be purchased. Once it is determined that toe entire un-

accept or reject .the offer to so purchase. Should any beneficiary fail

. 11 .Petition to Apptcveitmd Confirm Accoam jnd Report, etc.

97a

purchased interest can be purchased, fe Trustee shall so notice the

1 i
2

.Purchasing Beneficiaries in writing of (he amount each of them owes

3

and each Purchasing Beneficiary shall have 30 days thereafter to pay

4

such amount to the Trustee. If the remaining un-purchased interest; in

5

its entirety cannot be purchased in this manner then the Gulden

6

Valley Partnership interest will be sdld by the Trustee to athird party.

7
8
9

10

'M 1 ”

15.

rtirtrihutinn: With the sale of the ahove properties, the Trust will

finally he in a position to be distributed. Distribution has been delayed due to Several factors,

Jill «

including; the Trustee's desirenot to make distribution until he received a tart clearance from the

]|S|w
fig ? 15

including paternity issues raised by her. concerning one of the granachildren, and the

13

16

17
1*

19
20
21
22
23

Internal Revenue Service on the Estate Tax return; the disputes with beneficiary Dawn-Motm,

considerable time i t has taken to sort out the above-mentioned adjustments and prepare a Ml
accounting going back five years to the death of Charles Giles. Trustee: attempted numerous
times £0 meet with Dawn Morin and her attorney to attempt to work out a plan of distribution
; but Dawn Morin and her attorney refused any such .meetings and filed an action m federal court
which Trustee had to defend. Immediately prior to filing this Petition, Trustee was served with*
: Petition by Dawn Morin demanding, among other things, an. accounting.
Upon sale of the properties described in Section 14 above, and after taking into
consideration expenses and taxes attributable to such sales, the Trustee proposes distribution
pursuant to the Schedule ofDistribution attached hereto as Exhibit “E" and made a part bereof.

24

Distribution shall be adjusted in the event the properties sell for more or less than set forth m

25
26

Section 14. Trustee also proposes (hat be retain in trust, the sum of $75,000 for a period of Up; to
one year as,a reserve tor administrative expenses (“Reserve”), including unknown or

27

tmanticipated expenses.

28
- 12-

Petilipn lo Appt®ve and CoMifm Aecoum aw) Report. CK,

98a

5
i

2

A summary of the proposed distributions, subject to any iidjustmetiis that may occur as a result

3

of the sale of the above mentioned properties for more or less than their appraised values, are as

4

follows;:

5

6

a.

The Keyway partnership will be divided 'and distributed equally among

7

William Blevins, Kelly Bergman, fames Scott Blevins, Bryan Blevins,

R

,Brent Blevins ('‘Bdbette’s' children”) and DawaMorin,

9

h.

Bobette Giles’ children shall further be distributed the sum of SI 76.72

c.

cash each.
The Koftinow Ra, property and the sum o f $349,825.40. cash shall be

10

IsSli 12

m13

distributed to Dawn Morin.
■d.

The Joseph L. Giles Trust shall (re distributed the amount of S43.500.

e.

The grundohildren of Trustor Charles Giles, namely Jozllyn N, Thomas,

'fslj

Charles \V, Giles. Jr., Anthony L. Giles, and Michael Giles, shall each be

5i| S IS

distributed the amount of 576,591.43 cash and a one fourth interest in the

16

Mountain Valley Express Note.

17
18

f.

'Hie amount of SI74,576.40 shall be distributed to Boys &. Girls Club Of

,g.

Manteca,
jfie amount of $174,576.40 shall befiistrihutedto St. Vincent DePauls

h.

'Society.
The Petitioner shail hold the Reserve for a period not to exceed One year

T9
20
21
22
23

and At. that time shall provide the beneficiaries with- an accounting of the

24
25

26
27

28
* 13 *
PdtiUGniG Approve aftd Coiirirm Accouuiaftd Report, etc,

99a

!
}

3

reserve and shall distribute the remaining funds in the same ratios as

a

distribution herein;

3
4

5
6
1
8

9
10

ifc s ’>

III 15

mu
j|!| »

%':HEREFORIi, James Scott Blevins, Trustce.of the Giles Revocable Living Trust
respectfully requests that the following orders be made:
1.

The account and report of Tnistce, James Scott Blevins, be approved and

confirmed';
2,

That Trustee, James Seott Blevins, be authorized to pay himself $180,000.80.

one half from the Survivor’s Trust and one half from the Marital Trust as trustee fees;
3,

That the Trustee, James Scott Blevins, be authorized and directed to make the

%

proposed: distributions ns set forth in Section IS of this Petition.
4,

For such other relief as the Court deems just and appropriate .

DATED: April % 2008.

GIANEI I.T& ASSOCIATES;
A Professional Law Corporation

$ 15
16
17
IS

j . /
/
By: i r
1lCHr\FX L. G1AKELL1, S15N 070950
Attorneys for Petitioner. James Scott Blevins,
Trustee of the Giles Revocable Trust

19
20
21
22

23
24

25
26
27
28
-ft Petition t» Approve assi Coelirm Account and ttepbft, etc.
r-

100a

VERlFiCAtlON

. 1

i
I, James ScottBlevins, am a party to this action. I have read the foregoing document

3

<¥'

4

and know its contents. The same is true of my own knowledge, except as to those Watters

5

which are therein, stated on information and belief, and as to those matters, I believe them to be

6

true.

1
8

9

1 declare under penalty ofpetjury under the laws ol the State, of California that the
foregoing is true: and correct:
Executed oil April 8.2008 at Modesto, California.

10

3p I n

m
im w

SSCOTT BLEVINS

12

! IP a

j|S!|£ Mis
<s

16
17
18
19
20
21
22.
23
24

25
26
27
28

-15PtliUOn lo Apfiovc and Confirm Account Hid Report. etc

1.01a

I

PRoaroF service

i

.2.

I, L YVETTE O. MILLER, declare:.
I anj -a citizen ofthe United States and a resi dent ofthe Comity of Stanislitus, Slate of
California, i am over the age of eighteen years and not a party to the within; action; my business

3
4

adtoss .is IS W - lb11’ Street, Modesto, CaBfoml*»535f.

5

I am readily fanlSliar with the basinesspractlce for collection and processing of
correspondence, and oh April 10,2008,1 served;

g

7

PETITION TO APPROVE AND CONFIRM ACCOUNT ANT) REPORT OF
TRUSTEE, APPROVAL OF PROPOSED DISTRIBUTION AN D PAYMENT OF
TRUSTEE'S FFES; CONSENT OFTRUSTEE OF BENEFICIARIES' TRUST

8
9

in the; fcllowing manner and addressed as-set forth below;

TO

X Via United States Postal Service: Such correspondence was enclosed in a
sealed envelope With postage thereon fully prepaid, addressed as stated below. I caused such
envelope to be deposited in the D.S. Mm!« Mdaesto,Califotnia through the firm’s ordinary
course of business.

IS <§ M
3 *8

lllll 12

mis13
i!&l;|
If il

i

m

Ik I «5
16
17
18
19
.29.
21

22
23
24

25
26
27 \

28

____ Via Telecopier. No. (209) 521 -5971 during normal business horns on the date
set forth below. The document^) was transmitted via facsimile to the address and telecopier
number set forth below. The documentf?) was transmitted completely and without e«,
William Blevins
337 Ruess Road
Ripon, CA 95366

Kelly Bergman
1172 Joseph Court
Ripon, CA 95366

James Scott Blevins
11277 Cleveland Avenue
Oakdale, CA 9536T

Brvan Blevins
2091 Willow Lane
Lakewood, CO ‘ 80205

Brent Blevins
7887 Koftinow Court
Manteca CA 95366

Dawn Morin
15113 West Tasha Drive
Surprise AiZ 85374

Richard W. Morris
Attorney at Law
13951 West Grand Avenue, Ste. 203
Surprise, Arizona 85374

Joseph 1.. GUes
25050 Sandhill B!vd.) #4b2
Ptinta Gorda. FL 33983

Joseph l,.Giles«Y2S969
Wakulla Correctional Institution.
110 Melaleuca Drive
Cnmfurdville, FI. 32327

JbsephEfaw»CY259»9

- re­
petition to Approve and Confirm A«ourU and Report, etc.

Brevard Work Camp
855 Camp Road
CoeoaFL 32927 3700

102a

1
2

•lazily nN. Thomas
25030 Sandhill Blvd,, #4b2
Punta Gorda, FL 33983

Charles W. Giles, Jr.
5613 Lowell Street
Everett. WA 982©

Anthony L. Giles
5613 Lowell Street
Everett. WA 98203

.Michael Giles
5613 Lowell Street

Stoncy Dahlberg
5747 Roseburg Court
Rivefbaiik, CA 95367

Ramey Stairs APC
Christopher L. Ramey
8880 Rio San Diego, 8’h Floor
San Diego CA 92108

3
4

5
6

!

7

Everett, WA 98203

8

9
10

all | H

S81! 12
ISI15
iffil 14

1 declare under penalty of perjury' under the laws of tlie Slate of California that the
foregoing,is trite and correct and if called could truthfully testi fy thereto.
Dated! April 10,2008 at Modesto, California.

LhilETTE G. MILLER

iMf

I| S is
16
17
18
19
20

KPR0iai.<T;dft;SS,noilSTrejaiKI72Or Paiiiointrw'ilffl, In Ap^v’e

21
22
23
'24

25
26
27
28
- 17 Petition lo Approve and Con fir rn Account "and Report, etc.

R«l»rt.d?e

103a
APPENDIX G

»

ki

»
i

MICHAEL L. G1ANELLI. SBN 070950
MIN I T. i PE. SEN 199 i 09
CIANELLI & ASSOCIATES
A Pmles^ifinal Law Corporation
! 014 - 16th Su eel
P. 0 Box 3212
Modesto. CA 951 <3
Tel.-: (209)521-6260
Fax: (209)521-5971

2
3
4
5

FILED
OT9H&R25 PH L 02

6

Attorneys Ibv Petitioner, JAMES SCOTT BLEVINS,
Trustee of the Giles Revocable Living Trust

1
H
I'

i

SUPERIOR COURT Of CALIFORNIA. COUNTY Of STANISLAUS

V

io

\
]|S S

{

ernmmur

IN RE:

!

!I

m13

! THE ADMINISTRATIVE TRUST, THE
! SURVIVOR'S TRUST. Tl IE FAMILY
j TRUST AND THE MARITAL TRUST
iCREATED IN THE GILES REVOCABLE
! LI VING TRUST u/I/d January 112002.

i5|S| is

m$ i4
it?
;c in 15
16

V*

AMENDED .PETITION TO APPROVE..-ANO
CONFIRM ACCOUNT AND REPORT OP
TRUSTEE; PETITION TO APPROVE
AGREEMENT BETWEEN TRUSTEE AND
Da\vn morin; approval of
DISTRIBUTION PLAN AND PA YMENT OI
TRUSTEE'S FFES;
[Probate Code § 17200]

17

Hearing Dale:
Time; 8:30 a.m.
Dept,: 22

18

19
20

HAY - 6 2009

.lames -Scott Blevins, Trustee of the Administrative Trust ("Administrative TfusF'L the

21

Survivor’s Trust, the.Family Trust: and the Marital Trust (collectively referred to as the ‘‘Sub

22

Trusts”) created in the Giles' Revocable Living Trust u/ifd January- 18,2002 (the Tuist"),

23

presents the following Account anil Report of trust admiritstraiion arid seeks the court's

.24

approval and ctinliiTnaikm ofAccount and Report of the Trustee and approval ofproposed

25

distribution and payment of attorney's lees:

.26

I-

27

Creation ofTnist
Charles L, Giles and Bnbette Giles ("Trustors"), husband and wife, executed the

28 !

ii
i
;

•6,
Amtnfi&l lViifii?»rJu Approve Yiui rufiHrm Ai;crttnti siWI HtporL etc.
i ■

I

3

104a

m

■5 IS

?5« I

I

Trust on January 18,2002. A true and corrcel copy of the Trust is attached here to as Exhibit

2

“A” and made a pas hereof. The Trust provides that at the death of one of the Trustors, an

3

Administrative Trust would be formed for the purpose of administering the trust and ultimately

4

dividing it into the Sub-Trusts defined below, whidnvere to be administered until the death of

5

the surviving Trustor, Trustee has, in fact, formed and has been operating the Administrati ve

$

Trust; since the dead', of Bobette Giles. The Survivor's Trust was to consist of the surviving

7

spousc/s half of die community property and the surviving spouse’s separate property. The

8

family Trust and the Marital Trust were tn consist of the first spouse to die’s separate property

9

and half interest in the community property to be divided between the two trusts according, to a

10

Marital pecuniary shore formula.
2,

11

t I|g2’ ,,

Date, and Place of Death
Charles L, Giles died on April % 2003 in Stanislaus: County, California. Upon

■St13

the death of Charles L, Giles, an Administrative Trust was created fonfteadmmistraticwofhis'

jl*|l
B
flVJf

trust estate. Before the Trust could be distributed into the Sub Trusts, the surviving Trustor,
Bobette Giles died on December :31,2004 in Stanislaus County, California. Therefore, the

<T

division of the Trusts info Sub Trusts did not actually take place.

16

3,

17

Appointment of Trustee and Jurisdiction and Venue
Petitioner, lames Scott Blevins, was nominated as successor Trustee under

18
19

Article Vlil subsect ion (A) on page 11 of the Trusts. On December 1, 2003, Bobette Giles

20

resigned as successor T rustce of the Trusts and. James Scott Blevins: consented to act as

21

successor Trustee and has been serving as successor trustee of the trusts since that date.
The principal place of administration is located in Stanislaus Gdiiniy, California.

22
23.
.24

The set tlors. Charles L, Giles and Boberte Giles, were residents of Stanislaus County,

\

California. Stanislaus County. California is the usual place where (he day-to-dav activity of the-

25 i Trust, is carried by the Trustee, James Scott Blevins. The Trustee resides in Stanislaus County,
26

California. Further; the Trust consists Of real and personal properties located in Stanislaus

27

County, California.. Therefore, jurisdiction and venue are proper under Probate Code Section

28

17000 et. scq.

2

Amemfed Peii(n)n Jo Aftwotv* i'.rid C'<wllmv Acciiunt and Report-.
9

1.05a

«

1

4.

2

Beneficiaries of Trust Estate
a,

After the death of Charles!,, Giles, his share olThe Trust estate was to go

3

to (he following beneficiaries:

4

1. $1.000.00 to Stoney Dnhlberg;

5

ii. $25,000.00 to Dawn Morin: and

.6

iii. $25,000.00 to each grandchildofCharles L. Giles who is then living:

7

namely Jozilyn N. Thomas, Charles W, Giles, Jr., Anthony L, Giles,

3

and Michael Gi les.

j.

9

AH of the above-distributions have been made.

10

b.

Ir. addition, after the death of Charles L-. dies, the Trust is to be split onto
(lie Marital Trust, family Trust and Survivor’s Trust,

llSifi 12

i. Upon the death of the surviving spouse, Bobeltc Giles, the Marital
Trust is to be distributed to the following beneficiaries:

13

I Rif 11

1. $50,000 to the Trustee of the Joseph L. Gi les Trust.

I 15

2. 10% to Bovs & Girls Club of Manteca:

46

3. 10% to St, Vincent Do Pauls Society;

47

4. 10% to each grandchild of Charles t. Gileswho is then living

18

namely Jozilyn N. Thomas. Charles W, Giles, Jr., Anthony L.

19

Giles, and Michael Giles; and
5. The balance (40%) to Dawn Morin.

20

:ii. Upon the death of the surviving spouse, BobelteGiles. the family

21
22

Trust is to be distributed1 as follows:

23

1. S50.000.00 to the Trustee of the. ‘'Joseph L. Giles Trust’-. To

24

dare 56,500 has been distributed to Joseph I,. Giles from the

25

Joseph I.. Giles Trust.

26-

2, l OTc.to each grandchild of Charles L. Giles who is theft living

27

namely Jozilyn N. Thomas,Charles W. Giles, Jr.. Anthony!..

28

Giles, and Michael Giles; and

Aii'cnrtccl Petition to Approve and Corifirm Account and Report. ex.
i

3

106a

l

3. The balance. (40%) tu Dawn Morin.

2

iSi. Upon the death of the surviving. spouse, the Survivor's Trust is to be

3

disiriboted equally among Bnbette Giles’ children, William.Blevins,

4

Kelly Bergman, James Scott Blevins, Bryan Blevins, and Brent

s

Blevins (hereinafter called"Bobeite’-s Children"').

6

At all tithes herein relevant, the above beneficiaries are adults. Below is a list of,all

7

beneficiaries and interested/persons who are at all times herein mentioned adults,, and their

8

addresses:
William Blevins
337 Ruess Road
Ripen, CA 95366

9
10

3 in
is* 1

m

H

Kelly Bergman
1172 Joseph Court
(Upon. GA 95366

13

ll|88 B
?sli:

mh
tig £
«s

>5.

James Scott Blevins
i 1277 Cleveland Avenue
Oakdale, CA 95361

M

15
16

.Bryan Blevins
2091 Willow Lane
Lakewood, CO 80205-

17
IS

Brent Blevins
7887 Kollinow Court
Manteca, CA. 95366

19
20

Dawn Morin
1511.3 West Tasha Drive
Surprise AZ 8537#

21
:22
23

Joseph L. Giles
2391 Burns Avenue
Melbeurn, H. 32935

,24
25

Jorilytt K, Thomas
25030 Sandhill Blvd., 94H2
Punte, Gorda. FL 33983

26
27

4
28
1
i

Amecdwl Petition to Approve arid .Confirm Account and Report, tit.

f

1.07a

1

Charles \V. Giics, Jr.
56IS l.owell Street
Everett. WA9R203

2
3-

Anthony L. Giles
5613 Lowell Street
.Everett, WA 98203

4
5

.

Michael Giles
5613 Lowell Street
Gvcrcn, WA 98203

6
7
8

Stoney Dahlbcrg
5747 Roseburg Court
Riverhank, CA 95367 .

9

10
Boys & Girls Club ;of Manteca
545 W. Alameda St
Manteca, Ga, 95336

3P | "

ilSl »

111! 13

St. Vincent Dc Rauls Society
525 I-. North St,
Manteca, Ca. 95.3.36

licit13
<«...

5..
16
17

18
19
20
21
22
23
.24

25
26
27

Agreement with Beneficiary Dawn Morin. In January of2007 Petitioner

Submitted an informal accounting and proposed distribution plan to all beneficiaries.
Beneficiary Dawn 'Morin rejected at that time the proposed distribution plan and ultimately
brought? Petition in the Stanislaus County Superior Court. Action Number 428536. Petitioner
herein responded to said petition and fled for the court's approval a formal accounting and
petition for distribution pursuant to Probate Code Section 17200,
Said proceeding resulted in an Agreement executed by Daw. Morin and the Petitioner
which was signed by Dawn Morin and Petitioner on or about March 2,2009 and recited on the
Court record in the above entitled proceeding tm that date. A true and correct copy of said
Statement Agreement is attached hereto as Exhibit “B” and made a part hereof.

6.

Accountings. The Trustee has previously filed and submitted to the beneficiaries

a full and complete accounting from the period commencing, on the date of death of Charles
(riles, April 2,2003, and continuing until December 31,2007. The accounting has been

28

Anrnrted Petition w Approve nnrt CrciiinM .Acaram and Report etc.

*

5

1

108a

#

1

supplemented for the period ending December j 1,2008. A full and complete accounting for the

2

period April 2, 2003. and ending December 31,2008 is attached hereto as Exhibit “CT iind

3

made a part hereof.
7,

4

5

reappraised by Ben Whitmcr as of January 9,2009. A copy of the informal tetter appraisal is

6

attached to Exhibit *‘D,! and made a. pan of this Petition.
8.

:7

ha?? filed all income tax returns, for the bust which have become due, and lias paid all debts,

9

taxes, and current expense of trust administration and is now in a position to distribute the Trust

■v

Estates.
9.

11

illii 11
11% 3§ 13

Affiliating with AgentsThe Trustee did not use any agents that had any family or affiliate relationship

with Trustee,

ill14

HI,

Trustee’s Compensation
The Trustee has net paid himself any compensation. Article Vll, subsection (1.},

iff 8-■ 15
e-

Debts and Expenses. The Trustee has collected ail assets belonging to liie trust,

8'

10

H* I

Reappraisal. All of (he real property and partnership Interests of the estate were

16 | oh.-page 14 ,o f the Trust autherutes the Trustee to pay himself reasonable compensation for
17 j services tendered to the trust estate as Trustee. The Trustee- has served in his capacity as
18 | Trustee of the Trust since the resignation of Bobette Giles cm December 1, 2003 . Since that
19

period. Trustee hits gathered up the trust assets, reviewed and compiled bank records and other

20

financial records' of the trust, mansged the trust estate, caused to he prepared and filed trust

21

estate and income tax returns, defended claims against the trust and gathered information for the

22

preparation of almost five years ofextreniely involved and complicated accountings due to the

23

fact that there were so many adjustments that had to be made (;see Section 13 ), 1 be i rustee has

24 | spent hundreds of hours of his time working with and assisting Dan Gatto, CPA and the trust
23

attorney to reconcile the gifts and other adjustments made by the Trustors which have impacted

26

the distribution of the trust, as w-eil as time spent >n defending the claims of Dawit Morin,

27

The tec requested by the Trustee is the sum ci $180,000 payable one half from

28

the Survivor’s Trust and one-half from the Marital Trust. I he fee. is based on one percent per

1

ArmiPiirri Psiilimi to Apprm-e ami Confirm Account amt Rcpnii «c.

3

109a

1

annum of (he lesser of the assets on hand as reported on the federal estate tax return of Bobctte

.2

Giles in the amount of £4,912.228, and the assets on hand each year thereafter, The fee

3

computation is set forth as follows:

4

January 1,2004 to December 31 2004— 1% x $4,900,000=

$49,000

5

January 1,2005 to December 31,2005—1 % x $4900,000=

S49.0Q!)

January 1,2005 to December 31,2006? -1 % x $4,900.0.00=

£49.000

January 1,200 7 to December 3,1.2007—1% x£4900,000=

£49,000

January' 1,2008 to December 1, 2009 —1% x S4.500.000

£45.000

$
1
8
V

9
10

January’ 1,2009 to May 1,2009 {proposed distribution date)

ip S . u
“ Cd

•—173 x 1% S4.500.000

iSl1213

$256,000

Total:

’HU

$15,000

The Trustee is willing to s'cduce the fee to S1 80,000

jpl "

11.

l!a 5 15
<9
16

Assets on Hand and .Adjustments for Gifts and Other Expenses: Attached hereto

as Exhibit >(E” and made part hereof is a Schedule of Assets on Hand Property, including
Adjustments to the accounting of Bobctte and Charles estates which are explained as follows:

17

a.

IS
19

Cash Gifts to Bobctrc s donees: Subsequent to Charles’ death, Bobctte
made certain gilts to her children and grandchildren, which gifts arc set

f

totaled $455,351, These gifts arc being deducted from the Survivor’s

.20

21

Trust to determine assets on hand for distribution,
b.

MV 17 Stock ’Gift to Scott: Subsequent to Charles’ death, Bobelte gave

22

her son. James Scott Blevins. 570.16 shares of stock in Mountain Valley
23

8xprcssj 3 California Corporation vnfued at $1,000,000. This gift is being

24

deducted from the Survivors Trust to determine assets on hand for

25
distribution.

26
27

c.

Disbursements ’03 and 04, The disbursements made by Bobctte for ‘03
and ’04 except those chargeable to principal are being deducted from the,

28

Attended Petition W-Appro* «4 Ceniimt Account a«i Report, etc.

110a

*
'Survivor5® Trust te determine assets on hand for distribution,

i
2 i

!

§2

IRAs/Annuities. Certain IRAs and Annuities as set forth in Exhibit “E”

3

are being deducted from the Survivor's Trust (0 determine assets on hand

4

for distribution since these assets either named the trust as .beneficiary or

5

were changed by Bobette Giles to name her children as beneficiary alter

6

Charles Giles' death.

e-

Income Tax Adjustment for ’03 and '04. Income taxes paid for 2003 and

*

8

2004 up at the dale of death have, been computed by Dan Gatto. the trust

a.

9

estate CPA, and should be deducted from the Survivor’s Trust,as an

•*

10

offset against income earned subsequent to Charles Giles death and Up te

11

the date of death of Bobette Giles.

7

i|« t

d.

Sills 12

f.

Charitable Beoueste. Charitable bequests which were made from the

2||5| 13

Marital and family Trust are being deducted from the Marital and {-amity

jiff! 14
fifes |

Trust for purposes of determining assets on hand for distribution.

I? * 15
*?

g-

.Specific bequests. Specific bequests of SI25,000 were made following

1,6

Charles Giles’ death from his share of the community property have been

17

made and should be deducted, from the Marital Trust and Family Trust to

18

determine assets on hand for distribution.

19

h.

Income .Earned to 12/31/04. Income earned by Bobette Giles subsequent

20

to Charles Giles' death through December 31,2004, the date of Bobette

21

Giles' death is being added to the Survivor’s Trust Jo determine assets on

22

hand for distribution.

23

i.

Credit for amounts Paid hv Beneficiaries to Trust. Bobette Giles’ children

24

repaid, the Trust the amounts set forth in Exhibit “E” and are being

25

added to the, Survivor*s Trust to determine assets on hand for distribution.

26

i.

Gifts by Clvarles to. Bobette, At Charles Giles' death, certain assets were

27

left to Bobette by Charles outside the Trust estate. These transfers to

28

Bobette are being added, to the Survivor's Trust to determine assets On.

;n,k.t E'liiiim te Apptcmt ftort tienfirin Ats-anm ansi Reprm cut.

’8

1

0

111a

1

band for distribution.

2

k.

.3

distribution to Joseph Giles

4

r*

Distribution To Joseph Giles. The sum of $6,500 was made as an advance

1,

Estate tax allocations. Estate taxes are being allocated among-the: .

5'

beneficiaries as per Exhibit “K", which allocution.is based on each

6

beneficiaries’ pro-rata share of estate taxes, -No estate taxes have been •

7

allocated to the charitable- bequests, however the Marital Trust will

8

receive the income tax benefits of the charitable gill deduction.

■*»-

v

9
10

an.

Credit for income-taxes: Charitable deductions were inadvertently not
taken on the, estate tax return. A decision was riiude by the Trustee and

!

ill ¥.

1.1

his accountant that rather than amend the estate tax return and open it

' lists

12

back tip to audit and further delay distribution, distributions of $495,633

»*«* 13

were made to the charities and token as a deduction from income taxes in

il|lj

2Cift5. Allocation of theeredit for the tax deduction is computed by

Itl fi 15

calculating the income tax in year 2005 without The charitable deduction

16

of 5495,633. This results its.federal tax.oB l 29,408 versus $5,497 for a

,7

savings of $123,911 and ■California tux of $59,-085 versus $13,015 for a

18

savings of146,070. The combined savings in income taxes to the Trust

19

was $169,981. This should be added Ip the Survivor's 'Trust to determine
assets on hand for distribution.

20

12.

2:1

Proposed Plan of Distribution . The Trustee proposes a: plan of distribution that

22;

\yi| I result in each of the Beneficiaries .receiving their proportionate share ofthe trust estate set

23

forth in Exhibit ‘‘FI and consistent with the .Settlement Agreement reached between the

24

Trusteed’etitioner and Dawn Morin attached hereto as Exhibit “BD Said plan oMistnbution is:

25:

as follows:
A summary of the proposed distribution by Petitioner, subject to any accounting

26
27

adjustments that may occur between January 12, 2009 and the date of distribution is attached

28

hereto as Exhibit “F” and made a pari hereof. Said Exhibit P provides for a proportionate

*
j

V

Amended Petition to Approve Snd Cwtflrm Account and Report. aft.

9

112a

»

!
I

1 ! distribution.of all assets from the combined Trust estates with the following exceptions in order
2

to comply with the SeHkmenl.Agrefement of the Petitioner/ Trustee and. Dawn Morin which

3

requires Dawn Morin so receive $252,950.53 cash;

4f

Pctitioner/Trustee proposes to purchase, from Dawn all of her proportionate interest in

5 1
6I
1

Golden Valley Enterprises and 335,506.48 of her interest, in iKicywsy Enterprises.

—Dawn Morin will receive no interest in the Stable Rd, and Messing.Road, Valley

t»

8 i

Springs Properties and the Mountain Valley Express Note, and her interest in those

m

9

assets will, be divided,proportionately among (he other beneficiaries.

(i

—Dawn. Morin will receive a 1 OtW-ti. interest iti 2699 RofflnOw Court, Manteca,

—The Boys ■& Girl's Club and St. Vincent DcPauf’s Society will receive a greater

10

allocation of the Mountain Valley Express Note (combined 13.0211'6»>%) and none of

0 s ’>

IS
iilSf 15
i-mi i4
ii|1l ,5

the cash, since they have already received combined $#5,168:00 cash, which is

12

/

disproportionate to cash received.by other beneficiaries.
—Dawn will have received SI ,865,8* more, ihiiri her proportionate share of distribution,
'Ibis excess amount; will be debited against her share of any funds remaining: inthe

lb

Reseru-

17

WHEREFORE, James Scott Blevins: Trustee of the Giles Revocable Living Trust
respectfully; requests: that file following orders be made;

18

1.

19

That frustee, James Scot! Blevins, be authorized to pay himself 3180,000.00,

one half from the Survivor’s Trust and one half from lay Marital Trust a? Trustee fees.

20

2.

21

That the T rustee pay oitl, of the combined trust the suni of ,$ 10,000 to Dawn

22

Morin for reimbursement of a portion of attorneys fees she has incurred in connection with ’this

23

proceeding.

3.

24

That Trustee’s .accounting, on lilt here in be appro ved and settled and all actions

25

Of the Trustee,, all safes or transfers of assets set forth in the accounting, ail accounting and

26

distribution .adjustments set forth in Exhibit **F» to this Petition, and: all expenses and

27

disbursements incurred by Trustee be approved;

28 ■

1
f
1

4

Thai the Settlement Agreement between;the Trustee and Dawn Morin dated

Amended Milfoil.® ftjijsrsve sr.d Cntflirra AecnSfflt «d Rep»tU *.

t
a.

e

113a

1

March.2,2009 be approved and its terras ratified by the above-entitled Court except as modified

2

■herein;
5.

3

s.
*

That the Trustee be authorized and directed to make the proposed distributions as

4

set forth in Section 12 of this Petition, and in accordance with Exhibit “F’' retaining a reserve of

5

$100,000.

6

6.

That the Trustee be directed to prepare a final accounting and disbursement of

7

any portion of the reserve that is left over at time of distribution..no later than December 31,

8

2009,

9

7.

For such other rel ief as the Court deems just and appropriate.

10

11s o i 1

"I? *

mi

-ill} 13

!«ii14
■slg e is
16

DATED: March 25,2009.

G1AKEI.I.1 & ASSOCIATES
A Professional Wjk Coo4?r;>tmi>
/-

//
.4

By:

>X

MICHAEL L. OIANELLI. SBN 070950 "
Attorneys for Petitioner, James Scott Blevins,
Trustee of the Giles Revocable Trust

17
18
19
20

.21
22
23
24 >

25
26
27

a
28

A
4,

.(fended fvlinun to Appipve and 0enfimi Account ond Rqkm. etc.

1.14a
r

VERIFICATION

1
2

I, lames Scott Blevins, am a-party tt> this action, 1 have read the foregoing document

3
4

arid know its contents. The same is true of mv own knowledge, except as to those matters

5

which are therein staled on information and belief, and as to -those matters, I believe -them to be

6

true.

7
8
0

t declare tinder penalty of perjury under die laws of the. State of California that the

S

*»

foregoing is, true and 'perfect.
Executed on:March9,2009 at Modesto, California.

<4

10

’|I 8 11

IlSiS 12

,t/>M£K!?COiT IiLEVibls

?I|S| 0

fill14
§ is ,2

15

16
17
18
IS
20
21
22
23
24

25
26
27
28

12

iMitiSS to AspWv* end Confirm Accfeirt and Report, etc,

e
»
v

